<html>
<title> - MONIZ NOMINATION</title>
<body><pre>[Senate Hearing 113-17]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 113-17

                            MONIZ NOMINATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   TO

  CONSIDER THE NOMINATION OF DR. ERNEST MONIZ TO BE THE SECRETARY OF 
                                 ENERGY

                               __________

                             APRIL 9, 2013









[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                       Printed for the use of the
               Committee on Energy and Natural Resources
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
80-930 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001

















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
CHRISTOPHER A. COONS, Delaware       ROB PORTMAN, Ohio
BRIAN SCHATZ, Hawaii                 JOHN HOEVEN, North Dakota
MARTIN HEINRICH, New Mexico

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel














                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, Former U.S. Senator From New Mexico.........     5
Moniz, Ernest J., Nominee To Be Secretary of the Department of 
  Energy.........................................................     8
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     3
Scowcroft, Lieutenant General Brent, U.S. Air Force, Retired.....     6
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    59

                              Appendix II

Additional material submitted for the record.....................   101

 
                            MONIZ NOMINATION

                              ----------                              


                         TUESDAY, APRIL 9, 2013

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:12 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden, 
chairman, presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    The Chairman. The committee will come to order.
    The committee meets this morning to consider the nomination 
of Dr. Ernest Moniz, to serve as Secretary of the Department of 
Energy. This job will put Dr. Moniz at the center of some of 
the most pressing issues facing the U.S. economy and 
environment, how to manage newly accessible reserves of natural 
gas, combating climate change, making our economy more 
efficient and supporting new energy technologies.
    I believe our country needs energy that transitions America 
to a lower carbon economy and is built on 3 pillars: strong 
economic growth, reductions in greenhouse gas emissions, and 
energy innovation. It's no accident that the early focus of 
this committee's agenda centers squarely on those matters.
    Our first hearing focused on natural gas.
    Technological advances in recent years have allowed our 
country to tap into reserves of natural gas that were 
previously uneconomic. Now this resource has the potential to 
provide our country with a lasting economic advantage both for 
manufacturers, like steel companies, as well as families and 
businesses that can save on their power bills. These savings 
can make a real difference in today's tight budget climate.
    Last week I visited Pilot Butte Middle School in Central 
Oregon which cut its energy bill by more than 35 percent in the 
past year due to lower natural gas prices. As the Washington 
Post reported just last week, European industry flocks to our 
country to take advantage of cheaper gas. That's just the 
latest in the wave of good news stories about natural gas.
    At present the Energy Department faces crucial decisions 
about how much of that gas to export abroad. I intend and I 
know the committee will inquire into Dr. Moniz's views on his 
thoughts about how to preserve that advantage for American 
consumers and our businesses.
    Just as important as economic benefits, natural gas also 
has the potential to bolster America's standing on the issue of 
climate. In fact the Energy Information Administration reported 
just last Friday that U.S. carbon emissions last year dropped 
to the lowest level since 1994, thanks largely to the rise of 
natural gas.
    Now there's certainly questions about the climate impacts 
of methane leaks and flaring, among others, yet our 
policymakers can address these environmental issues 
responsibly. Natural gas can provide clean burning, base load 
power that emits 50 percent fewer greenhouse gases than 
traditional fossil fuels. Agreement among stakeholders on 
practical environmental protections can give certainty to 
natural gas producers and maximize the benefits of domestic 
shale gas.
    That's the short term.
    To make a larger impact in climate change our country needs 
more renewable power. Natural gas plants can serve as an ideal 
partner to intermittent renewables like solar and wind because 
they can come online and power down quickly. Our country needs 
to reduce our carbon footprint.
    The draft U.S. National Climate Assessment, issued earlier 
this year, starkly lays out the impact the country can expect 
from a changing climate. In my part of the world, for example, 
the Pacific Ocean along the Oregon coast is projected to rise 
by two feet by 2100. But addressing climate is not just an 
issue of avoiding natural disasters. It's also critical to 
maintaining our Nation's competitive advantage in a tough 
global economy.
    Today low-cost natural gas provides our Nation's economy 
with a competitive advantage. However, new technological 
breakthroughs could put our competitive advantage at risk in 
the foreseeable future. Congress, in writing the 2007 energy 
bill, did not anticipate the natural gas revolution. A lot of 
major industry figures didn't either.
    The challenge now is to find policies that can spark a 
similar revolution in renewable energy. As a technological 
insurance policy it makes sense to pursue policies to 
transition to a lower carbon economy to ensure that we don't 
lose our competitiveness in the world. Only the Congress has 
the tools to address the global nature of this issue and pursue 
a solution that actually reduces domestic emissions while 
keeping our economy competitive. Renewables have to be part of 
that solution.
    This month the committee is going to take up bills that 
encourage hydropower and geothermal which we would call the 
forgotten renewables. Every electron of renewable power on the 
grid represents points on the board against climate change. So 
our country does have the potential to maximize a variety of 
types of clean energy. We will also look at the implications of 
tax reform which can encourage renewables as well.
    When it comes to clean energy, one big challenge Dr. Moniz 
will face as Secretary of Energy is dealing with the 
Department's loan programs. The bottom line is the taxpayers 
need more protections when it comes to Federal financing. It is 
also clear that there's a big difference between investing in a 
wind farm that has a customer and power purchase agreement on 
day one compared with investing in a manufacturing plant to 
make a commercially untested product.
    In a very important hearing that was chaired by Chairman 
Bingaman, we asked Herb Allison, the former Wall Street 
executive and Bush Administration official, who critiqued the 
loan program, whether or not the DOE loan program ought to be 
carved into separate financing programs based on financial and 
technical risk. Mr. Allison thought that idea made sense. We'll 
certainly be looking into that matter with Dr. Moniz as well.
    The committee also plans to take up an efficiency bill, a 
bipartisan bill, crafted by Senators Shaheen and Portman, which 
could result in major energy savings. Those kinds of advances 
are often the lowest cost answer to energy.
    Finally, any serious effort to build a lower carbon economy 
has to address the matter of nuclear energy. The questions have 
arisen about how to dispose of nuclear waste. This has raised 
important matters with respect to how to proceed on the issue.
    That's why Senator Murkowski, along with Senators 
Feinstein, Alexander, and I, have been working for months now 
on a long-term answer to what is a decades-old problem. I'm 
hopeful we'll have a proposal in the coming weeks that builds 
on the work, that fine work, done by the previous chairman, 
Jeff Bingaman, and the President's Blue Ribbon Commission.
    Finally, as Congress works to address nuclear waste from 
civilian reactors it's just as important that the Department 
take responsibility for the legacy of contaminated waste sites 
like Hanford. As the Defense Nuclear Facilities Board wrote in 
a letter last week, despite billions of dollars that have been 
spent to clean up the radioactive waste there, there are a host 
of unresolved issues.
    The first one on the list was hydrogen build up that could 
cause explosions in waste tanks. This is an issue that this 
committee talked about in this very room 16 years ago. Dr. 
Moniz and I have had a number of conversations about this issue 
in the past. I think we've agreed we're going to have a lot 
more in the future.
    It's flatly unacceptable that the Department still has no 
viable plan for cleaning up hazardous waste on the bank of the 
Columbia River half a century after the contamination occurred 
and more than a decade since Dr. Moniz served as Under 
Secretary of Energy.
    So we look forward to discussing all of these issues and 
more.
    Let me now recognize my friend and colleague, Senator 
Murkowski.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    I think you've done a good job just in terms of outlining 
some of the things that we hope to work on as a committee from 
a very broad perspective. But I think that does, kind of, set 
the stage for what Dr. Moniz will be dealing with should he be 
confirmed as Secretary of Energy. So I appreciate the way that 
you've outlined it this morning.
    I want to welcome to the committee Senator Bingaman, our 
former colleague and great chairman of this committee. It's 
good to see you again.
    Of course, General Scowcroft, we appreciate your leadership 
on the Blue Ribbon Commission. It's nice to have you here ready 
to vouch for Dr. Moniz this morning.
    Dr. Moniz, I do appreciate your willingness to serve this 
Administration as Secretary of Energy. I think it bodes well 
for you that you have Senator Bingaman and General Scowcroft 
with you here this morning. You may very well prove to be this 
rare nominee, I guess, that generates that bipartisan support, 
I would certainly hope.
    So I enjoyed our discussions before the recess. I'm 
impressed both by your work and your knowledge here. I also 
appreciate your intellectual honesty.
    You've spoken in favor of a free flowing, global gas trade. 
You have defended unconventional gas from spurious criticism. 
At the same time you have refrained from opportunistically 
changing your mind about nuclear power after Fukushima.
    If confirmed I trust that you will continue to tell us what 
you really think, no matter what the issue may be. I think that 
that's important to all of us. That will be critical because, 
as you know, you are not signing up for the easiest job here.
    If confirmed you will find yourself in charge of thousands 
of scientists, many of whom are engaged in exciting, cutting 
edge work. But you're also going to inherit a range of 
challenges and some problems. 35 years after the Department of 
Energy was created we are still in search of a broad, coherent 
and consistent policy in this arena. I think Senator Wyden has 
laid out some of those contours clearly.
    But oftentimes we don't see that reflected in what comes 
out of the Department. Energy related programs and initiatives 
remain fragmented and scattered throughout the Federal 
Government. Not enough money is getting to the bench for 
research and development. Too often it appears that silos 
within the Department stand in the way of progress.
    In recent years I've become concerned that DOE is not 
clearly and unambiguously working to keep energy abundant, 
affordable, diverse and secure. As I see it we need a stronger 
voice in the councils of the Administration for energy supply. 
As if that were not enough, of course we've seen the Department 
engaged in a series of bad or perhaps unnecessary bets.
    We all recognize the situation with Solyndra. There's also 
A123. There's others that have left taxpayers on the hook for 
substantial losses. All of us would do well to remember that 
success is not necessarily measured through spending or good 
intentions but actual results that are achieved.
    Chairman Wyden and I are working to increase the amount of 
oversight conducted by this committee. We believe that this 
will help improve the Department of Energy. I'm optimistic that 
our committee can also reform some of its programs and end 
those that aren't working as planned. But we will also need 
help from our Secretary of Energy. Policy and management are 
different animals. The person that we confirm to run DOE must 
clearly excel at both.
    So, Dr. Moniz, I thank you again for accepting this 
nomination, going through this process. I look forward to 
hearing how your background has prepared you to operate an 
agency of this size and scope. I welcome you to the committee.
    The Chairman. Dr. Moniz, welcome. Normally at this point I 
administer the oath. But you have the good fortune to show up 
with the energy equivalent of a couple of NBA all-stars.
    [Laughter.]
    The Chairman. I think what we'll do, since Chairman 
Bingaman and General Scowcroft are both with us, is we'll let 
both of them make their introductory statements on your behalf. 
Then we'll administer the oath and proceed with the program.
    It is really hard to fathom Jeff Bingaman being there and 
all the rest of us being here. But it is great to see our 
friend and former Chair, Jeff Bingaman. Senator Bingaman, 
welcome. We look forward to your remarks.

     STATEMENT OF HON. JEFF BINGAMAN, FORMER U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman. It's 
great to be back at the committee.
    Senator Murkowski, thank you very much for your kind 
comments.
    Members of the committee, it's an honor to be here with 
General Scowcroft to help introduce Dr. Moniz to the committee.
    As this committee knows and as the chairman and ranking 
member just said, there are many challenges for the next 
Secretary of Energy. It's important that we have a person with 
substantial knowledge and many varied skills in order to 
succeed. In my view in order to succeed a person in that 
position has to have certain attributes.
    I think all of us, if we were choosing a Secretary of 
Energy, would want to choose somebody with those attributes. 
I've listed 5 that I think are important. I'm sure that you can 
add to that list.
    But let me just go through my list of five.
    First we would want a person as Secretary of Energy who had 
a knowledge of science and engineering. Obviously in much of 
the country science and engineering work is funded through the 
Department of Energy. It's managed by the Department of Energy. 
I think that's an essential qualification.
    Second, we would want a person with demonstrated managerial 
abilities. That's obviously essential because of the vast range 
of responsibilities that Congress has given to the Department 
of Energy.
    Third, we'd want a person with an understanding of how that 
department works and also the workings of other departments of 
the Federal Government that share responsibility for science 
and engineering and national security. We'd need a person who 
is familiar with the committees of the Congress that have 
responsibility for oversight of the Department of Energy.
    Fourth, we would want a person with a deep understanding of 
our Nation's energy challenges. I'll have a little more to say 
on that.
    Finally we, since the Department has responsibility for the 
maintenance of our nuclear deterrent, we would obviously want a 
person who understood how to achieve that as well.
    Mr. Chairman, as it turns out, in Ernie Moniz we have a 
nominee for Secretary of Energy with outstanding qualifications 
in each of these 5 areas.
    First, his qualifications as a scientist and engineer are 
well known and universally respected.
    Second, as Ernie has demonstrated his managerial ability 
both in the public sector and at one of our Nation's greatest 
universities. He was Under Secretary of Energy from 1997 to 
2001 and had responsibility for the day to day operation of the 
Department. Most recently as Director of MIT's Energy 
Initiative, he's pulled together the resources and talent of 
that great institution to move our country forward in meeting 
its energy challenges.
    Third, Dr. Moniz has an in depth knowledge of how the 
Department works, how the Department of Energy works, how it 
relates to other executive departments. He understands the 
rightful oversight responsibilities that Congress and its 
committees have with regard to the Department of Energy 
including this committee, of course.
    Fourth, Dr. Moniz has a deep understanding of our Nation's 
energy challenges. All of us on this committee, who served on 
this committee in the last few Congresses, have heard Dr. Moniz 
testify on the excellent studies which he and others at MIT 
have prepared on major aspects of those energy challenges. Over 
the last 10 years those studies and reports covered nuclear 
power, geothermal power, renewable energy, coal, natural gas, 
the transportation sector and the electric grid. Those studies 
have made a major contribution to the understanding, both here 
in Washington and around the country, on how to secure our 
Nation's energy future. Of course, understanding our energy 
challenges includes understanding how well designed public 
policies can help to meet those challenges and help us to 
finance needed energy development and infrastructure.
    Finally with regard to the Department of Energy's 
responsibility for maintaining the nuclear deterrent, Ernie 
Moniz unquestionably has the background and knowledge to 
perform that part of the Secretary of Energy's job as well.
    So I believe the President has chosen well with this 
nomination of Dr. Moniz to be Secretary of Energy. We're 
fortunate to have a person with his outstanding qualifications 
wanting to take on this very challenging job. I hope there will 
be very strong bipartisan support for Dr. Moniz in this 
committee and in the full Senate as well.
    Thank you.
    The Chairman. Thank you, Senator Bingaman. When you're 
talking about good fortune, Dr. Moniz is fortunate to have you 
in his corner. So we thank you for an excellent statement.
    General Scowcroft, welcome.

   STATEMENT OF LIEUTENANT GENERAL BRENT SCOWCROFT, U.S. AIR 
                         FORCE, RETIRED

    General Scowcroft. Thank you, Mr. Chairman.
    Chairman Wyden, Ranking Member Murkowski and members of the 
committee, it's both a privilege and a pleasure to appear 
before you in support of the nomination of Dr. Ernie Moniz to 
be Secretary of Energy. It's an honor for me to join Senator 
Bingaman in support of this nomination.
    I've been involved, in one way or another, for decades in 
national security issues related to energy and nuclear 
security. Dr. Moniz has been a key element in that involvement. 
I can honestly say I do not know anyone more suited to lead the 
Department of Energy at this difficult time than Dr. Moniz.
    His dedication to the task, his comprehensive command of 
the issues involved, his acumen and judgment, all of which 
underpinned by enthusiasm and good humor, are, to me, simply 
unparalleled.
    The latest of our many efforts together was the President's 
Blue Ribbon Commission on America's nuclear future familiar to 
members of this committee. The Commission benefited enormously 
from Dr. Moniz's expertise as well as from a series of earlier 
studies on nuclear energy at the MIT Energy Institute for which 
he is responsible.
    I share with Dr. Moniz a strong interest in working to 
counter future threats of nuclear proliferation by developing 
international support for nuclear fuel leasing. Such 
arrangements could contribute to preventing the future spread 
of enrichment and reprocessing by newcomers to nuclear energy 
thereby providing incentive to prevent some of the difficulties 
that currently bedevil the international community in cases 
like Iran.
    Dr. Moniz has published on this topic with two of my 
associates, now Deputy Secretary of Energy, Dan Poneman and the 
late Arnie Kanter. I also share Dr. Moniz's interest in the 
promise of small modular nuclear reactors which may have 
benefits for U.S. industry and leadership. Energy, security and 
environment can provide a safe and practical alternative for 
developing countries that choose to pursue nuclear energy.
    This country faces a complicated series of issues in the 
area of energy and nuclear security. As I said at the outset, I 
simply cannot think of anyone more suited under these difficult 
circumstances to be at the helm of the Department of Energy.
    Thank you, Mr. Chairman.
    The Chairman. General, thank you for an excellent 
statement. I know at our last meeting when we talked about 
nuclear waste with Senator Murkowski and Senator Alexander, a 
big chunk of the meeting seemed to be devoted to praising you. 
So we look forward to calling on your counsel on these nuclear 
waste issues.
    Dr. Moniz, the rules of the committee apply to all 
nominees. They require that they be sworn in connection with 
their testimony. If you would, please stand and raise your 
right hand.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth, 
so help you God?
    Mr. Moniz. I do.
    The Chairman. Now before you begin your statement it's the 
tradition of the committee to ask 3 questions with respect to 
your particular qualifications before the committee.
    First, will you be available to appear before this 
committee and other congressional committees to represent 
departmental positions and respond to issues of concern to the 
Congress?
    Mr. Moniz. I will.
    The Chairman. Are you aware of any personal holdings, any 
investments or interests that could constitute a conflict of 
interest or create the appearance of such a conflict should you 
be confirmed and assume the office to which you've been 
nominated by the President?
    Mr. Moniz. Chairman, my investments, personal holdings and 
other interests have been reviewed--oops, both by myself and 
the appropriate ethics counselors in the Federal Government. 
I've taken appropriate actions to avoid any conflicts of 
interests. There are no conflicts of interests or appearances 
thereof to my knowledge.
    The Chairman. Are you involved or do you have any assets 
held in a blind trust?
    Mr. Moniz. No, I do not, Mr. Chairman.
    The Chairman. Alright.
    Thank you very much, Doctor. I know you've got family 
members here. We would just invite you to introduce them.
    Mr. Moniz. OK. I'll start with my wife of 39.83 years, 
Naomi.
    [Laughter.]
    The Chairman. I know you academics focus on numbers.
    [Laughter.]
    Mr. Moniz. Yes. This may be one of the rare cases of both 
precision and accuracy.
    [Laughter.]
    The Chairman. Very, very good.
    Why don't we now recognize you to make your opening 
statement? Then we'll have questions from members of the 
committee in order of their appearance.

   TESTIMONY OF ERNEST MONIZ, NOMINEE TO BE SECRETARY OF THE 
                      DEPARTMENT OF ENERGY

    Mr. Moniz. Thank you, Mr. Chairman and Ranking Member 
Murkowski and distinguished members of the committee. It's a 
privilege to appear before you as President Obama's nominee for 
Secretary of Energy. If confirmed by the Senate I will work to 
the best of my abilities to advance the public interest across 
all the missions entrusted to the Department of Energy, energy, 
nuclear security, science and environmental remediation.
    With the chairman's permission I'd like to start with some 
thanks.
    First, reinforcing those to Senator Bingaman and General 
Scowcroft.
    I agree with the NBA all star characterization. I cannot 
adequately express my gratitude for their appearance here. They 
have made major contributions to clean energy and to nuclear 
security, two of DOE's core missions and high priority areas 
for the President. It's been an honor to work with them and 
they are friends and mentors. I hope they will continue to be 
mentors in the years ahead.
    Second, I want to thank really, all the members of the 
committee for taking the time to meet with me and to share your 
perspectives on challenges facing DOE and the Nation.
    Third, I thank Secretary Steve Chu. I think he's brought to 
the Department some new ideas and new ways of doing business.
    Finally, I thank my family for their steadfast support and 
as I--in particular, my wife, Naomi, who we have already met.
    I'd now like to take a moment to describe for the committee 
some of the experience, that if confirmed, I will apply to the 
various mission areas that fall under the responsibility of the 
Secretary of Energy.
    Science.
    I've served on the MIT faculty since 1973 as Associate 
Director in the Office of Science and Technology Policy and as 
DOE Under Secretary. These roles have given me a very deep 
appreciation of DOE's importance to American leadership in 
science. If confirmed I'll work with the scientific community 
and with Congress to assure that our researchers have 
continuing access to cutting edge research tools for scientific 
discovery and for training the next generation.
    Energy technology and Policy.
    Since 2001 when I returned to MIT from the Department of 
Energy my principle focus has been at the intersection of 
energy technology and policy, especially on research and 
education aimed at a future low carbon economy. DOE has a 
central role in advancing the science and technology 
foundations for the transition to a low carbon economy that 
will serve our Nation's economic, environment and security 
goals.
    The President has advocated an all of the above energy 
strategy. If confirmed as Secretary, I will pursue this with 
the highest priority. As the President said when he announced 
my nomination, ``We can produce more energy and grow our 
economy while still taking care of our air, water and 
climate.'' The need to mitigate climate change risks is 
empathetically supported by the science and by the engaged 
scientific community. DOE should continue to support a robust R 
and D portfolio of low carbon options and to advance a 21st 
century electricity delivery system.
    The U.S. has also experienced a stunning increase in 
domestic natural gas oil production over the last few years. 
Yet, even as we produce more oil domestically, which is very 
important, reducing our oil dependence for transportation fuel 
also remains a national security objective.
    In 2006 I was appointed the Founding Director of the MIT 
Energy Initiative, a research program that we've developed 
which reflects this same all of the above commitment. The 
initiative was intentionally built up with strong partnerships 
with a range of energy companies. If confirmed, I hope to be 
able to build on this experience so as to convene industry, 
environmental groups, academia, investors, policymakers and 
other stakeholders for constructive and consequential 
discussions about America's energy future.
    I also have the pleasure of serving on President Obama's 
Council of Advisors on Science and Technology. PCAST has 
recommended an Administration wide quadrennial energy review 
with DOE and the Executive Secretariat role. If confirmed, I 
plan to help develop this QER by gathering strong input from 
the Congress and private sector stakeholders and by enhancing 
the Department's analytical and policy planning capabilities.
    Nuclear Security.
    The President, starting with his Prague speech in 2009, has 
laid out a vision of nuclear security. Step by step reductions 
in nuclear weapons while ensuring the safety, security and 
effectiveness of our stockpile as long as we have nuclear 
weapons, strengthened efforts to prevent the threat of nuclear 
weapons and measures to prevent nuclear terrorism. DOE has 
significant responsibilities spanning much of this agenda.
    The Department is entrusted with the responsibility to 
maintain a safe and reliable nuclear weapon stockpile in the 
absence of testing. When I served as DOE Under Secretary I led 
a review of the science based stockpile stewardship program. I 
also served as the Secretary's lead negotiator for enhancing 
the security of Russian nuclear weapons material. DOE expertise 
to a large extent drawing on the knowledge, skills and 
commitment of our national laboratory scientists and a 
technically versed intelligence group is critical to our 
national defense. If confirmed, I intend to make sure that 
these DOE assets continue to sustain the Nation's nuclear 
security.
    Environmental Remediation.
    Environmental remediation at many sites involved in decades 
of nuclear weapons production during the cold war remains a 
major mission area for the Department. This is a legal and 
moral imperative. If confirmed, I pledge to work with the 
committee and the affected communities and other stakeholders 
in the most transparent manner.
    A discussion about environmental remediation inevitably 
triggers a broader discussion about management and performance 
throughout DOE. If confirmed, I hope to work again with the 
members of this committee and others in Congress and the 
Administration to elevate the focus on management and 
performance at DOE.
    In summary, the Department of Energy has significant 
responsibilities that bear on America's economic, energy, 
environmental and security future. With your support, in 
addition to that of the President, I feel both prepared to 
address the challenges and optimistic about the outcomes. So 
thank you and I'll be pleased, of course, to respond to your 
questions.
    [The prepared statement of Mr. Moniz follows:]

 Prepared Statement of Ernest J. Moniz, Nominee to be Secretary of the 
                          Department of Energy
    Chairman Wyden, Ranking Member Murkowski, and distinguished members 
of the Committee, it is a privilege to appear before you as President 
Obama's nominee for Secretary of Energy. I am deeply honored by the 
President's confidence in me, as expressed by this nomination. If 
confirmed by the Senate, I will work to the best of my abilities to 
advance the public interest across all the missions entrusted to the 
Department of Energy (DOE)--energy, nuclear security, science, and 
environmental remediation.
    With the Chairman's permission, I would like to start with some 
thanks. First, I thank Senator Bingaman and General Scowcroft. I cannot 
adequately express my gratitude for their appearance here today. They 
have both served our country for decades, with integrity and 
collegiality across the political spectrum. They have made major 
contributions to clean energy and to nuclear security, respectively--
two of DOE's core missions and high priority areas for the President. 
It has been an honor to work with them and I will continue to learn 
from them in the years ahead.
    Second, I thank the members of the Committee for taking the time to 
meet with me and to share your perspectives on challenges facing DOE 
and the nation. If confirmed, I hope these dialogues can continue in a 
collaborative search for solutions.
    Third, I thank Secretary Steve Chu. He is now the longest-serving 
Secretary of Energy and has brought to the Department new ideas and new 
ways of doing business. A signature example was the startup of ARPA-E, 
with strong support from members of this Committee and other members of 
Congress.
    Finally, I thank my family--starting with four grandparents who 
emigrated from the Azores Islands to a blue collar American town just 
over a hundred years ago. My parents, like so many other children of 
immigrants to America, had dreams for me based on a quality education 
with big American dreams for the next generation to be realized through 
an education--public schools, followed by college on a scholarship from 
my dad's labor union, followed by graduate school with government 
fellowship and research project support. Looking ahead, I thank my 
wife, our daughter and son-in-law, and two grandchildren for their 
steadfast support--I'm sure this will be essential should I be 
confirmed. Permit me to introduce Naomi, my wife of nearly 40 years.
    I would now like to take a moment to describe for the committee 
some of the experience that, if confirmed, I will apply to the various 
mission areas that fall under the responsibility of the Secretary of 
Energy.
                                science
    I have served on the MIT faculty since 1973, including as Head of 
the Department of Physics (1991-1995, 1997) and as Director of the 
William H. Bates Linear Accelerator Center (1983-1991). The Bates lab 
was a DOE-funded, MIT-operated national user facility for nuclear 
physics research using intense electron beams. This gave me experience 
with DOE administrative and project management systems. I also served 
as Associate Director for Science of the Office of Science and 
Technology Policy in the Executive Office of the President (1995-1997) 
and as DOE Undersecretary (1997-2001).
    Taken together, these roles have given me a deep appreciation of 
DOE's importance to American leadership in science. DOE is the lead 
funder of basic research in the physical sciences and provides the 
national research community with unique research opportunities at major 
facilities for nuclear and particle physics, energy science, materials 
research and discovery, large scale computation, and other disciplines. 
More than a hundred Nobel Prizes have resulted from DOE-associated 
research. DOE operates an unparalleled national laboratory system and 
partners with both universities and industry at the research frontier.
    The Secretary of Energy has the responsibility for stewardship of a 
crucial part of the American basic research enterprise. If confirmed, I 
will work with the scientific community and with Congress to assure 
that our researchers have continuing access to cutting-edge research 
tools for scientific discovery and for training the next generation.
                      energy technology and policy
    Since 2001, when I returned to MIT from DOE, my principal focus has 
been at the intersection of energy technology and policy, especially on 
research and education aimed at a future low-carbon economy. Progress 
in energy science, technology, analyses and policy is a preeminent 
challenge for the 21st century. DOE has a central role in advancing the 
science and technology foundations for the transition to a low-carbon 
energy system that serves the nation's economic, environmental and 
security goals.
    In 2006, I was appointed the founding Director of the MIT Energy 
Initiative (MITEI), a campus-wide effort that facilitates research, 
education, campus energy management, and outreach. About 25 percent of 
the entire MIT faculty is engaged in MITEI-sponsored research and 
education projects, along with many hundreds of students. The MITEI 
research program has helped generate novel approaches to how energy is 
produced, delivered, stored and used and is spinning out numerous 
startup companies from the campus labs into the clean energy economy. 
The MITEI education program is helping to fill the pipeline of trained 
scientists, engineers, and entrepreneurs, essential talent for ensuring 
American competitiveness by creating the products, indeed the 
industries, of the future. The campus energy management program is 
demonstrating the cost savings available from efficiency upgrades, 
materially improving the MIT operating budget. The MITEI outreach 
program is bringing technically-grounded fact-based analysis to 
policymakers--including through testimony before this committee and 
others in Congress.
    The President has advocated an ``all of the above'' energy strategy 
and, if confirmed as Secretary, I will pursue this with the highest 
priority. As the President said when he announced my nomination, ``we 
can produce more energy and grow our economy while still taking care of 
our air, water, and climate.'' The need to mitigate climate change 
risks is emphatically supported by the science and by many military and 
religious leaders as well as the engaged scientific community. DOE 
should continue to support a robust R&D portfolio of low-carbon 
options: efficiency, renewables, nuclear, carbon capture and 
sequestration, energy storage. In addition, a 21st century electricity 
delivery system, including cybersecurity and a high degree of 
resilience to disruptions, is vital and deserves increased attention in 
the next years.
    We have also experienced a stunning increase in domestic natural 
gas and oil production over the last four years. The natural gas 
``revolution'' has led to market-led reductions in carbon dioxide 
emissions as well as a dramatic expansion of manufacturing and 
associated job opportunities. The increase in U.S. unconventional oil 
production, combined with increased vehicle efficiency, will continue 
to reduce American oil imports and our trade deficit. New technology 
development and deployment can and must further reduce the associated 
environmental footprint.
    Even as we produce more oil domestically, reducing our oil 
dependence for transportation fuel remains a national security 
objective. This will also help shield families from the uncertain 
impacts of global oil prices. DOE, in line with the Quadrennial 
Technology Review completed in 2011, should continue to invest in 
technologies for still greater vehicle efficiency, alternative fuels, 
and vehicle electrification.
    The research program that we have developed at the MIT Energy 
Initiative reflects this same ``all of the above'' commitment. It 
encompasses both innovation around today's energy systems--supply and 
demand--and transformational technologies for the future. The largest 
single area of emphasis is solar energy, with environmentally 
responsible hydrocarbon production and conversion second. The 
Initiative was intentionally built up with strong partnerships with a 
range of energy companies, bringing together key players in the energy 
innovation ``supply chain''--from venture capitalists to 
multinationals. If confirmed, I hope to be able to build on this 
experience so as to convene industry, environmental groups, academia, 
investors, policy makers, and other stakeholders for constructive and 
consequential discussions about America's energy future.
    I also have the pleasure of serving on President Obama's Council of 
Advisors on Science and Technology (PCAST). At the end of 2010, PCAST 
issued a report to the President on Accelerating the Pace of Change in 
Energy Technologies through an Integrated Federal Energy Policy. It 
specifically recommended an Administration-wide Quadrennial Energy 
Review (QER) with DOE in the executive secretariat role. The previously 
mentioned Quadrennial Technology Review was the first installment in 
the QER process. If confirmed, I plan to build on this foundation by 
working with colleagues across the Administration, garnering strong 
input from the Congress and private sector stakeholders, and enhancing 
the Department's analytical and policy planning capabilities.
                            nuclear security
    The President, starting with his Prague speech in 2009, has laid 
out a vision of nuclear security: step-by-step reductions in nuclear 
weapons, while ensuring the safety, security and effectiveness of our 
stockpile as long as we have nuclear weapons; strengthened efforts to 
prevent the spread of nuclear weapons; and measures to prevent nuclear 
terrorism. DOE has significant responsibilities spanning much of this 
agenda.
    The Department is entrusted with the responsibility to maintain a 
safe and reliable nuclear weapons stockpile in the absence of 
underground testing. The responsibility for certifying this to the 
President rests with the Departments of Energy and Defense, with the 
DOE/NNSA lab directors at the center of the technical evaluation 
process. When I served as DOE Undersecretary, I led a review of the 
science-based stockpile stewardship program that emphasized the 
importance of strong DOE-DOD collaboration to integrate military 
requirements with stockpile stewardship activities. If confirmed, I 
intend to engage actively in this collaborative effort--an important 
piece of our national security posture and a core element of the 
President's nuclear security agenda.
    The nuclear terrorism threat must be reduced further by continuing 
efforts to identify, control and eliminate nuclear explosive materials 
worldwide. As DOE Undersecretary, I served as the Secretary's lead 
negotiator for enhancing the security of Russian nuclear weapons 
material. This included putting the very successful ``Megatons to 
Megawatts'' program, which has eliminated hundreds of tons of high 
enriched uranium from Russian weapons, back on track when it had fallen 
off the rails. I now serve on the Department of Defense Threat 
Reduction Advisory Committee and am sensitive to enhanced risks in the 
context of terrorist groups with global reach and ambitions. DOE 
expertise, to a large extent drawing on the knowledge, skills and 
commitment of our national laboratory scientists and a technically-
versed intelligence group, is critical to our national defense. If 
confirmed, I intend to make sure that these DOE assets continue to 
sustain the nation's nuclear security.
         environmental remediation, management and performance
    Environmental remediation at the many sites involved in decades of 
nuclear weapons production during the Cold War remains a major mission 
area for the Department. This is a legal and moral imperative. DOE has 
made substantial progress in this regard but, as you know, the hardest 
challenges remain as long term, expensive, complex clean-up projects in 
several states. Each typically presents a one-of-a-kind engineering 
challenge with limited baseline data and significant health, safety and 
environmental implications. If confirmed, I pledge to work with the 
committee, with other members of Congress, and the affected communities 
and other stakeholders in the most transparent manner. New challenges 
will almost certainly arise over time, as they have throughout the 
history of the program, possibly exacerbated by budget constraints that 
seem likely across the board. Our shared goal will be to accelerate 
solutions consistent with safe operations and budgetary realities so 
that contaminated lands can be returned to beneficial and productive 
use.
    A discussion about environmental remediation inevitably triggers a 
broader discussion about management and performance throughout the 
Department. If confirmed, I hope to work with members of this committee 
and others in Congress and the Administration to elevate the focus on 
management and performance at DOE. Major project execution and cost 
management, environmental, health and safety compliance, and physical 
and cyber security are examples of areas that call for continuous 
improvement. Of course, performance ultimately rests on the shoulders 
of the Federal and contractor workforce, so maintaining a skilled 
workforce with initiative, commitment and diversity is necessary for 
success.
                               conclusion
    In summary, the Department of Energy has significant 
responsibilities that bear on America's economic, energy, environmental 
and security future. I have appreciated the opportunity to collaborate 
with members of this Committee and with other members of Congress both 
during my previous tenure at DOE and in the years since. If confirmed, 
I look forward to working with you as a partner. With your support in 
addition to that of the President, I feel both prepared to address the 
challenges and optimistic about the outcomes.
    Thank you. I will be pleased to respond to your questions.

    The Chairman. Dr. Moniz, thank you and we'll begin with 
questions.
    Just for the record, I want to make sure we're clear. You 
share my view that it has to be a priority to accelerate the 
transition to a lower carbon economy. Is that correct?
    Mr. Moniz. Certainly, Mr. Chairman. I do, very much. If I 
may add, we are, of course, in a historic trend toward low 
carbon. I agree completely with you, we should pick up the 
pace.
    The Chairman. Now, those who disagree say that renewable 
energy, like hydro and geothermal, carbon capture, they make 
the argument that renewables aren't price competitive with 
traditional power sources. Now the Department of Energy runs 
various programs that finance clean energy research and 
development and innovation. What could you do as Energy 
Secretary to help bring down the cost of renewable energy and 
help our country be globally competitive?
    Mr. Moniz. Mr. Chairman, I think there are several 
directions. But I would emphasize, first and foremost, I 
believe it's the Department's push on the research and 
development agenda to lower costs. In fact, to be honest some 
of my engineering friends don't like, sometimes, the 
characterization. But in the end the goal of innovation in this 
space is, in fact, to reduce the costs so that we can have the 
lowest energy costs across the board.
    In the low carbon agenda, first I think in some cases we 
are seeing remarkable cost reductions already occurring. 
Certainly one area that we have emphasized strongly, solar 
energy has seen absolutely dramatic reductions. Wind is in many 
places competitive.
    In other cases we have still our research jobs cut out for 
us. But I believe again in the all of the above strategy. That 
would include carbon capture and sequestration where cost 
reduction would be important. It will include small modular 
reactors and certainly the breadth of renewables, including 
your, as you label them, the sometimes forgotten renewables 
like small hydro and particularly engineered geothermal.
    The Chairman. Very good.
    Now let me turn to the area where we have an advantage. 
That's natural gas. We've got the lower prices. The world wants 
it. We want to make sure and the committee is already looking 
at this to see if maybe we can come up with a strategy where we 
can have it all, where we can have this manufacturing 
renaissance.
    It may be possible to have some exports. We understand the 
implications for renewables. We're going to try to have it all, 
obviously easier said than done.
    On the issue of prices, which we're going to focus on in 
this committee for businesses and consumers, I'm concerned that 
given our advantage the Department has used some data which is 
outdated, No. 1. and doesn't look at regional impacts the way 
you all have done at MIT. My question here is if confirmed, I 
certainly support you, will you revisit this issue to make sure 
that we get the most current data so that we can really think 
through on a bipartisan basis in this committee, the 
implications on this price issue for natural gas?
    Mr. Moniz. Mr. Chairman, I have emphasized very strongly 
and I think we're in the same place, that we need to have 
strong analysis grounded in the best data. So I think as we 
move forward in making any determinations including those which 
I understand we will have to tackle, if confirmed, in terms of 
the export license question, that we certainly want to make 
sure that we are using data that is relevant to the decision at 
hand.
    The second point on regional issues, of course sometimes, 
the kind of, aggregate will be sufficient. But for many issues, 
certainly all the issues involving energy infrastructure, the 
regional questions are extremely important.
    The Chairman. I appreciate that. The reason I asked it is 
at MIT you have focused on some of these regional impacts of 
gas pricing. That wasn't done in the Administration study. 
That's why I want to work on it with you.
    One last question, if I might, and that deals with fracking 
on natural gas. Your predecessor charged a subcommittee on his 
Advisory Board to look into these various issues. They came 
forward with a number of policy recommendations. In particular, 
they were concerned about the lack of confidence that the 
public has with respect to some of these fracking issues.
    We had a very good dialog in this committee at our first 
hearing with Francis Beinecke, the Head of the Natural 
Resources Defense Council, and my colleague and friend, Senator 
Hoeven, who looked at a variety of approaches including a 
strong role for the states, a set of minimum Federal standards 
to protect the public and particularly, the most comprehensive 
disclosure program that has been seen in this area of the 
fracking chemicals and the like. What could you do as Secretary 
of Energy to make sure that fracking is done in a responsible 
manner and to help address the public's concerns?
    Mr. Moniz. Mr. Chairman, I think it's clearly very 
important to have public confidence in environmental 
stewardship as we produce this resource. Of course the 
Department of Energy is not charged with doing the regulation 
of this, but I believe the Department could contribute to it in 
many ways. For example, one approach could be in the issues of 
methane emissions where, going back to your earlier theme, we 
could use some new data on the emissions.
    I think the Department of Energy would be well positioned 
to work with the EPA, for example, with the industry, convening 
groups and making sure we have the best and most reliable data 
on which to speak about and to make decisions.
    The Chairman. Doctor, thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Dr. Moniz, let's stick with natural gas here for another 
question.
    Clearly a great boom around the country as it relates to 
the shale gas that is being made available. In Alaska, as a 
result of this production boom in the lower 48, we've got about 
35 trillion cubic feet of known gas and perhaps another 300 
trillion cubic feet of both gas both onshore and offshore that 
is effectively stranded because there's no economic way to move 
it to the lower 48 and at least for right now or for perhaps 
going into the foreseeable future.
    The State is looking to what they might be able to do to 
move the gas to Tidewater and then make it available for 
exports. Of course, the DOE study last year that came out at 
the end of last year showed that exports of Alaska gas would 
have no harmful impacts on the Nation's economy. In fact would 
be beneficial to the Nation.
    Now, I'm not going to ask you to prejudge anything in terms 
of what might happen with an export application coming out of 
the State of Alaska. But if you could just provide for the 
committee your general philosophy and views on natural gas 
exports given what we know about the current reserves and the 
market conditions. Are these good or bad for the Nation? Can 
you speak to exports specifically?
    Mr. Moniz. Thank you, Senator Murkowski.
    The first point, of course, I would just note the 
historical fact that Alaska has been exporting LNG for some 
time.
    Senator Murkowski. Forty years.
    Mr. Moniz. But of course it's now diminishing. Certainly 
the large reserve you talk about remains stranded today.
    In terms of exports, while if confirmed, No. 1, I'll have 
to really be in the position then to delve into the current 
situation with regard to the license applications. There 
clearly has to be a public interest criterion applied. I 
believe a natural gas act suggests that one should move forward 
with licenses unless there is a clear public interest issue. I 
would also note that Secretary Chu, I think, did note at one 
point that things like cumulative impacts would be considered 
in the license queue.
    But fundamentally I think all of these issues have to come 
together and make a transparent, analytically based evaluation 
application by application.
    Senator Murkowski. This one should be easy.
    Yes or no? Is hydro power a renewable resource?
    Mr. Moniz. Yes.
    Senator Murkowski. Thank you.
    [Laughter.]
    The Chairman. Good answer.
    Senator Murkowski. Good answer. Good answer.
    [Laughter.]
    Senator Murkowski. I love these short ones.
    [Laughter.]
    Senator Murkowski. You've mentioned, we all talk about an 
all of the above approach to energy. The question that I would 
have of you is how expansive is your view of all when we're 
talking about all of the above? Does that also include coal?
    Mr. Moniz. Yes, it does. I think, in fact I think the 
President has said that and our studies have also said it. We 
see coal as being a continuing major part of the energy supply 
in the United States and certainly in the world. We do think 
that as we go to a low carbon economy we really have to push 
hard on completing the investments that have been made, nearly 
$6 billion on establishing CCS as a viable and cost competitive 
approach.
    I think we have two major tasks.
    We need to make sure through extended storage of large 
amounts of CO<INF>2 </INF>in the various demonstration projects 
that we can provide public confidence into long term storage of 
large amounts of CO<INF>2</INF>.
    Second, I think we need to really focus on innovation that 
can really reduce the cost of carbon capture dramatically.
    The combination of those two things, I think, would have 
coal very, very competitive.
    Senator Murkowski. Then one last question.
    This is relating to the EMP potential attacks, the 
electromagnetic pulse attack or geomagnetic disturbances. We 
know that the discussion about all this is certainly not new. 
Do we have sufficient information to characterize and simulate 
the susceptibility of the power grid to either EMP or GMD 
attacks or do we need more study on this?
    Mr. Moniz. Senator Murkowski, I know I need more study on 
this. I think we do in general. I think this is part of a 
broader issue where we need to introduce robustness and 
resilience into our whole grid for many kinds of natural and 
unnatural threats.
    So I think this is an important area to pick up the level 
of study.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murkowski.
    Senator Heinrich is next. Senator Stabenow I believe has to 
go. Senator Heinrich, do you have 5 minutes that you can donate 
to Senator Stabenow and then you would be recognized next?
    Senator Heinrich. Absolutely. I'd be happy to lend 5 
minutes to Senator Stabenow.
    The Chairman. Ever collegial.
    Senator Stabenow.
    Senator Stabenow. Thank you very much, Mr. Chairman. I did 
enter the room early but my problem was I got here before you, 
so I have to get here after you. So that I'm recognized.
    So Dr. Moniz, welcome.
    Mr. Moniz. Thank you.
    Senator Stabenow. I want to join colleagues in indicating 
that I think we are very fortunate to have your willingness to 
come back into public service.
    Mr. Moniz. Thank you.
    Senator Stabenow. From a Michigan perspective I did want to 
have the opportunity this morning to just reiterate what you 
and I have talked about on so many fronts that not only is your 
department and the responsibilities of your department 
important to our country in a global economy, for the economy, 
for the environment, issues around climate, energy 
independence, but Michigan is very, very engaged in the areas 
that you are involved in.
    As you know my Alma Mater, Michigan State University, 
leading the facility for where isotope research, which as you 
know is critical to basic research for the future, all our 
efforts around advanced vehicle technology, alternative energy. 
I'm very pleased to say Michigan is now No. 1 in clean energy 
patents for the country. So a lot at stake as we go forward on 
jobs.
    I do want to speak and ask you to talk just a little bit 
more about the issue of natural gas as--and I want to thank the 
chairman for raising the issues that he did and the ranking 
member. I know that there are various ways to look at the issue 
around exports. There's certainly other issues as well, safety 
issues, others.
    But when we look at the fact that the world's largest 
manufacturing economy is in America, about 18.2 percent of 
global manufacturing done here and that for the first time in 
13 years we're growing now as of 2010 and creating jobs and 
moving forward. So what we do around exports and pricing, I 
believe, is critical to that growth. The Boston consulting 
group concluded that affordable natural gas prices could lead 
to 5 million new manufacturing jobs.
    My concern goes back to the issue of accurate data when 
looking at the proposals or the efforts that you have to decide 
upon as it relates to export proposals. We've had before the 
chairman of Dow chemical company coming before our committee 
based in Midland, Michigan. They've identified over 100 new 
projects that have been announced through their company alone 
at a value of over $95 billion and that was not including, 
those numbers, in the study that was done by the NERA for the 
Department. I'm concerned that other projects in terms of 
economic impact have not been included as well.
    I'm not certainly an expert on the science of natural gas. 
But I do understand there may be a way to look at this, the 
components of what gas being most significant and the most 
valuable to domestic manufacturing, dry gas having great value 
in exporting. So I wonder if you might speak about, first of 
all, what updated information that you would ask for in 
evaluating the export of natural gas, the applications coming 
before you.
    Do you agree that we need clear criteria for evaluating the 
economic impact? How can we come to a way where we can address 
both the desire and the need and economic impact of export, but 
not lose what is clearly an advantage for us right now in the 
United States which is a growing manufacturing sector that's 
going to bring back middle class jobs to America?
    Mr. Moniz. Thank you, Senator Stabenow.
    Again, building on questions both of the chairman and 
Senator Murkowski. First, it's clear that I have to, if 
confirmed, be able to look really hard at those studies and the 
data that we have. As you've said there are many factors.
    For example, really understanding and observing what 
happens with, kind of, elasticity of production when and if 
there are exports. Are we producing more gas? Are we producing 
more wet gas which provides more natural gas liquids for our 
manufacturing industries?
    So I think there are multiple components. I think the 
important thing, as you've said, is to first of all, note that 
in the overarching public interest criterion the status of the 
domestic natural gas market is clearly right up in that list of 
criteria. We will then move forward from, if I'm confirmed, to 
begin to make.
    I think we have an obligation to make judgments, license by 
license application but using all those criteria including the 
one of cumulative impacts.
    Senator Stabenow. Thank you very much.
    I would just stress again price matters.
    Mr. Moniz. Yes.
    Senator Stabenow. Getting this right is incredibly 
important I think for the American economy on multiple fronts. 
I look forward to working with you.
    Mr. Moniz. Thank you.
    Senator Stabenow. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Stabenow.
    Now with graciousness, Senator Heinrich. We'll go to 
Senator Heller for his 5 minutes and then to Senator Heinrich.
    Senator Heller.
    Senator Heller. Thank you and good morning, Dr. Moniz.
    Mr. Moniz. Good morning, Senator Heller.
    Senator Heller. It's good to see you again. Thanks for 
taking time to have discussions in my office. I think they were 
very, very helpful.
    As we mentioned the Department of Energy has quite a 
presence in Nevada whether those issues are renewable energy, 
the Nevada test site or perhaps Yucca Mountain, it's heavy in 
Nevada. Your comments and the discussions we've had have been 
very helpful.
    I do appreciate your comments on nuclear security in your 
opening statement. The Nevada test site is an important tool 
for our Nation. We seem to combat nuclear proliferation and 
train our military in the prevention, protection response to 
terrorists who would use radiological or nuclear material as a 
weapon of mass destruction.
    But Doctor, by far the biggest question in the minds of 
Nevadans when it comes to Department of Energy is regarding the 
fate of the proposed nuclear waste repository at Yucca 
Mountain. Rather than objectively evaluating Yucca Mountain as 
one proposal among many, the Federal Government attempted to 
shove it down Nevada's throat by designating it as the only 
potential location to be evaluated. Yucca Mountain was plagued 
with problems including falsified science and design problems.
    Given this, it's no wonder that Nevadans don't trust the 
assertions that Yucca Mountain is safe. The people of Nevada 
deserve to be safe in their own backyards. No amount of 
reassurance from the Federal Government will convince us that 
Nevada should be the Nation's nuclear waste dump.
    But I do recognize the need to address the problem of 
nuclear fuel, spent fuel. But it must be solved through careful 
consideration of all alternatives based on credible scientific 
information rather than by politicians here in Washington, DC. 
So given your role the question is, given your role on the Blue 
Ribbon Commission your nomination to head the Department of 
Energy, do you believe that we should look past Yucca Mountain 
toward consent based sitings for long term spent nuclear 
storage?
    Mr. Moniz. Senator Heller, thank you. First let me say that 
the pleasure was mine to be able to speak with you and all the 
other members of the committee.
    Senator Heller. Thank you. Thank you.
    Mr. Moniz. It was very, very helpful.
    There's no question that I will enter the role of 
Secretary, if confirmed, with the idea of advancing the Blue 
Ribbon Commission agenda. First and foremost consent based 
siting is, as you know, a part of that. Much of the work of the 
Commission will require working with the Congress. We've heard 
about the work going on with actually 3 members of this 
committee and Senator Feinstein in addition.
    So I think moving the agenda of storage in parallel and 
aggressively moving the agenda of repositories, moving the 
agenda of deciding what would be the best, kind of, 
reorganization of the program. What are the best authorities to 
assign to that office? All of those agenda items, in my view, 
are linked in order to underpin the success of a consent based 
approach.
    Senator Heller. I appreciate those comments. Frankly I 
appreciate Administration also pushing back on this storage 
site. I hope that with your leadership and your understanding 
of the dangers of, I think, proposed to Nevadans on this 
particular issue that we can get past this issue and find 
reasonable use and reasonable work together on where to store 
this spent fuel.
    You mentioned in your comments also about all of the above. 
I certainly do appreciate that also. Renewable energy is 
critically important to Nevada. We have fantastic solar, 
geothermal resources. We look to continue, continue, looking 
for ways to broaden that development.
    So what role do you see renewable energy playing in our 
overall energy portfolio?
    Mr. Moniz. Senator Heller, I'm extremely bullish about 
this. In fact, if you take a step back it's a pretty remarkable 
story. Much of it's been already said.
    Highest production of oil in 15 years.
    Highest production of gas, ever.
    Two x on renewables just in, I think, 4 years.
    Lowered CO<INF>2 </INF>emissions.
    Greater manufacturing.
    When we take a step back it's been a pretty remarkable run, 
I think, over these last years.
    Now, the low carbon economy is absolutely critical. Of 
course, renewables, nuclear, CCS are the 3 major and well, 
renewables including biofuels, but renewables are absolutely 
central.
    I think wind, of course, already has a significant 
performance in terms of economics and in many areas. There we 
do have work to do. For example it would be wonderful, not for 
Nevada perhaps, but it would be wonderful to really get 
offshore wind to become competitive in price. That will take 
some more R and D.
    Solar is making tremendous advances. In Nevada I think you 
have both the photovoltaic and the concentrated solar options.
    Senator Heller. We do.
    Mr. Moniz. The former, we don't take enough, I think, of a 
look at this. We are down to the order of $1.00 per watt for a 
solar module. We can argue whether it's 90 cents or $1.10, but 
this is fantastic progress.
    On solar thermal as now more and more technology for 
storing the energy for many hours, 4 to 6 hours, comes in then 
the solar becomes much more like a dispatchable resource into 
the grid.
    So I think these are tremendous opportunities.
    Senator Heller. Dr. Moniz----
    Mr. Moniz. You mentioned geothermal, sorry. That's just 
another huge, huge.
    Senator Heller. Dr. Moniz, thank you very much for your 
time.
    Mr. Chairman, thank you.
    The Chairman. I thank my colleague.
    Senator Heinrich.
    Senator Heinrich. Thank you, Mr. Chairman. I have to say I 
agree with you. It was very odd to be on this side of the dais 
and have Senator Bingaman introducing Dr. Moniz on that side of 
the dais. But I'll do my best to carry on New Mexico's legacy 
here.
    I want to stick with one of the issues that Senator Heller 
brought up regarding spent nuclear fuel, a high level waste. As 
you know in January Secretary Chu announced or released a new 
strategy to manage spent nuclear fuel and high level 
radioactive waste. That strategy was very much in response to 
the recommendations of the Department's Blue Ribbon Commission 
that you were a part of.
    DOE's strategy for the management and disposal of used 
nuclear fuel and high level radioactive waste includes plans 
now for both short term consolidated storage and the 
development of a permanent repository. On page 5 of the 
Department's strategy they outline it very clearly and I'm 
going to quote now. ``The Administration also agrees with the 
BRC that a linkage between opening an interim storage facility 
and progress toward a repository is important so that states 
and communities that consent to hosting a consolidated interim 
storage facility do not face the prospect of a de facto, 
permanent facility without consent.''
    What are your thoughts on maintaining that strong linkage 
between the siting of interim storage and final disposal 
facilities so that a State can be sure that interim storage 
doesn't turn into permanent storage?
    Mr. Moniz. Senator Heinrich, I'm, as a member of the 
Commission, I support that fully. Storage is not disposal. It 
is what it says. It's storage on the way to disposal.
    Although I should add, we emphasized as well that one of 
the benefits of a few decades of storage is the option that it 
could be direct disposal of spent fuel. It could possibly in 
the future mean doing some processing of the fuel. But it's the 
same thing as far as the repository. It's either spent fuel or 
high level waste and the linkage is clearly important.
    Senator Heinrich. Thank you.
    I want to talk for a moment as well about technology 
transfer. I know that you spent some time in New Mexico and 
know our two labs at Sandia and Los Alamos well. With their 
sister DOE labs we have an incredible engine that can help 
promote economic development and provide quality jobs 
throughout this country. But I think we can do a better job of 
tapping into these resources.
    Transferring technologies developed by DOE's labs could 
help foster new government/industry partnerships to spur 
technical innovation and boost job creation especially in the 
areas that you've outlined in clean tech and clean energy. I 
know you've had some experience with tech transfer at MIT's 
energy initiative. I wanted to ask you do you think that DOE 
and the labs are doing as much as they can to help facilitate 
that technology transfer? Do you think there are some better 
ways to leverage the laboratory's resources in partnership with 
both universities and the private sector?
    Mr. Moniz. Senator Heinrich, I think that's a very 
important question for the laboratories in their role of 
supporting clean tech and the economy. I mean, I think the 
Department could do more. We actually, in my last go round, we 
did engage in some successful technology transfer, but we also, 
I think, saw that there were other barriers that could be 
lowered.
    So in this case what I think as an example is perhaps we 
could do more and I'd be interested in the feedback. But do 
more in working with the states, for example, because you 
mentioned universities, but it's not only universities. It's 
the investment climate. It's the so called innovation 
ecosystem. Perhaps working collaboratively to build that up it 
will provide, in a certain sense, more pull for the technology 
out of the laboratories.
    Senator Heinrich. Great. I look forward to working with you 
on that. I think one of the important issues is just setting a 
culture that reinforces the idea that this is an important part 
of what the labs do.
    I'll leave you with one quick thought.
    At Los Alamos, LANL has been making really good progress 
toward meeting the commitments to the State of New Mexico that 
they made regarding cleaning up legacy nuclear waste. One of 
the priorities is simply the removal of 3,700 cubic meters of 
transuranic waste that is stored above ground. Unfortunately in 
the FY'13 CR we didn't get the additional 50 million that the 
Obama Administration had requested.
    But I hope to be able to work with you to make sure that we 
continue to prioritize that. The work that they're doing there 
is working. They need to meet those commitments that they've 
made to the State.
    I certainly would appreciate your thoughts, but look 
forward to getting together with you on that and making sure 
that we continue down that road.
    Mr. Moniz. If confirmed, I will be happy to look into that 
and work with you. I don't know the issue at the moment.
    The Chairman. Thank you, Senator Heinrich.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Congratulations again on your nomination.
    Mr. Moniz. Thank you.
    Senator Barrasso. Thank you for taking time to visit with 
me yesterday.
    I wanted to ask about liquefied natural gas exports. In 
2011 you co-authored a report entitled, ``The Future of Natural 
Gas.'' In the report you wrote that, ``American security 
interests can be strongly affected by the energy supply 
concerns of its allies.'' You went on to explain that the 
natural gas cutoff to Europe demonstrated Russia's market power 
in a situation where key allies have inadequate alternative 
supplies of gas.
    I want to show a chart that shows really how vulnerable 
many of our NATO allies are to Russian gas. You'll see that, 
for example Russian gas makes up over 48 percent of the gas 
consumed in Germany, 71 percent of the gas consumed in Poland 
and Turkey, 100 percent in Latvia, Lithuania, Slovakia.
    So in January of this year I introduced bipartisan 
legislation, Republicans and Democrats together co-sponsoring, 
which would expedite LNG exports to NATO allies and to Japan. I 
heard from many of our NATO allies and from Japan that they 
want to buy our gas. We talked a little bit yesterday about gas 
in the global market.
    Do you believe that LNG exports from the United States to 
these countries would strengthen our national security 
interests?
    Mr. Moniz. Thank you, Senator Barrasso. That is a very 
interesting question. I think many dynamics in the gas market 
address this question of working with allies. I just wanted to 
start with that.
    I mean, exports is clearly one. But I would just also note 
that if you look at the last few years just the fact that the 
United States had this gas revolution led to the, essentially, 
the diversion of a lot of LNG that was targeting the United 
States to Europe created a remarkable amount of spot market 
pricing and put pressure on the Russian imports. So I think 
there is many ways in which these dynamics come together.
    One of the things that I've noted and in my opening 
statement as well that we'd like to pursue is the so called 
quadrennial energy review. Now that sounds like a process. But 
I mention it here because the point of it is that it would be a 
mechanism for getting the many different threads of energy, let 
me call it policy, from multiple departments. This would 
include in this case, the State Department, the Department of 
Defense so that our national security interests are part and 
parcel of our energy decisions.
    Senator Barrasso. I want to switch to an issue of nuclear 
energy.
    I'd like to ask you about the United States Enrichment 
Corporation, also known as USEC. I understand you were a member 
of their strategic advisory council from 2002 to 2004. You were 
one of 9 members of the council and you were a paid advisor for 
the work.
    In March a spokesman for USEC, they applauded your 
nomination. The reason I'm asking this is because there have 
been extraordinary steps by the Department of Energy has been 
taking to bail out USEC, a company that Congress privatized in 
1996. Many in Congress have concerns about the Department of 
Energy's agreement with USEC which was announced in May 2012.
    Under that agreement the Department of Energy is in the 
process of giving uranium, publicly owned uranium, in an effort 
to prop up USEC. This agreement has contributed to a near 20 
percent drop in the price of uranium and put new uranium mining 
projects at risk in other locations. It's threatened good 
paying jobs in Wyoming and other states.
    Some have called for you to recuse yourself from decisions 
involving USEC. So the question is, if confirmed, what will be 
your position on using the public uranium for the benefit of 
USEC?
    Mr. Moniz. Thank you, Senator.
    First of all on recusal issues in this and any other cases 
I will always be consulting very closely with counsel. I mean I 
have had no connection with the company for a decade basically.
    I think there are several issues that come in here.
    One is the issue of--which is not directly to your point. 
I'll come back to that in a second, that there is this issue of 
the requirement really to try to maintain an American origin 
enrichment technology for the purposes of national security and 
supportive allies.
    Second however, directly to your point, I think that in my 
own history at the Department previously and I will certainly, 
if confirmed, say absolutely going forward always take into 
account in balancing issues with the health of our domestic 
industry. In my last go around, I mean, that was manifest in 
the way we managed the megatons to megawatts program which in 
fact, pretty much shielded the domestic industry. I think that 
that would be an important criterion in any decision that we 
make.
    I think a system, an integrated uranium plan along these 
lines I think is what we need to go to to deliver.
    Senator Barrasso. Great.
    Finally and briefly, on Friday Energy Daily reported that 
Senator Reid and his staff may be seeking to place the former 
chairman of the Nuclear Regulatory Commission, Gregory Yazgo, 
as a special advisor at the Department of Energy.
    Do you know anything about that? Is there any truth to that 
report, do you know?
    Mr. Moniz. I read that. I have absolutely have nothing 
whatsoever, no communications whatsoever, in any form from 
anyone on that subject.
    Senator Barrasso. Thank you. Thanks very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Dr. Moniz, thank you for being with us. You said that 
you've been married 39.83 years. May I remind you you're under 
oath?
    [Laughter.]
    Senator Franken. Is your anniversary June 10th?
    Mr. Moniz. June 9th. That's with the rounding error.
    [Laughter.]
    Senator Franken. Alright. We'll have to consider.
    [Laughter.]
    Senator Franken. That's my only question. No.
    [Laughter.]
    Senator Franken. When this committee heard testimony from 
former Lockheed Martin CEO, Norman Augustine, on a report by 
the American Energy Innovation Council this group put together 
included a lot of other CEOs, former CEOs. We were told that 
the country has, this is a quote, ``has yet to embark on a 
clean energy innovation program commensurate with the scale of 
the national priorities that are at stake.''
    In fact the council's report shows that in 2010 the Federal 
Government spent $80 billion on defense research, $30 billion 
on medical research, but only $5 billion on energy research. 
This is troubling given that energy is such an important part 
of our national security which the presence of General 
Scowcroft just underscored. In spite of this low funding level 
some of my colleagues on the other side of the aisle are 
critical of government support in the area of energy 
innovation. We tend to hear only the focus on the failures and 
disregard the successes.
    For example, we have heard almost from every member on the 
committee talk about this natural gas boom. The roots of this 
technological revolution are in the eastern shales, eastern gas 
shales projects which was a Federal Government initiative to 
develop the commercial extraction of natural gas from shale. 
Micro-seismic imaging, which is instrumental for fracking was 
developed by Sandia National Laboratory, a Federal energy 
laboratory. It's not just me saying this, former Mitchell 
Energy Vice President, Dan Stewart said and I quote. ``DOE 
started it and now the people took the ball and ran with it. 
You cannot diminish DOE's involvement.''
    My question is I fear that sequestration will further erode 
our efforts to promote energy innovation. How will you use your 
leadership role in the Department to make sure U.S. energy 
innovation remains strong and a priority?
    Mr. Moniz. Thank you, Senator Franken.
    I think this is indeed a very serious issue. I certainly 
endorse what Norm Augustine said. Indeed, if you will allow a 
slight digression, very slight. I would just note that if one 
does very simple arithmetic as a guide to the level of 
investment that might be called for by taking the fraction of 
GDP and energy times 1 percent of GDP for research you come out 
with the numbers that Norm and his colleagues had, roughly 
speaking another $9 or $10 billion would seem to be about the 
right level.
    But I also recognize----
    Senator Franken. That's given our historical investment. In 
other words we are actually investing less.
    Mr. Moniz. We are under investing by a factor of three, 
roughly.
    Senator Franken. Yes. This is at a time when we know----
    Mr. Moniz. Yes.
    Senator Franken. Some must know that we have a climate 
change, some of us believe we have a climate change crisis 
approaching or with us we have--we've had a lot, a lot of--
we're paying for that now.
    So this is under investment at a time when we really are 
seeing a very serious threat to our national security, to the 
world.
    Mr. Moniz. I would agree. I would add that I think there is 
a lot of evidence that we have a lot more capacity to do the 
kind of work that you're talking about. For example, the very 
first solicitation by ARPA-E had a factor of 100 or more 
applications that could be supported.
    Now having said that we recognize that we are in a period 
of tight budgets and so I guess the answer to your question is 
that we will try to leverage the funding, if I'm confirmed, as 
much as we can to try to move technologies to the point where 
the private sector can develop them into material contributors 
to a low carbon economy.
    Senator Franken. I mean, look at the return investment 
though. Look at what we're talking about in terms of natural 
gas. We're talking about natural gas, as the chairman said in 
his opening statement, that it has brought down the cost of 
generating electricity and it has brought down the carbon 
footprint in our country. That's because of DOE research and 
development.
    I think that we're being penny wise and pound foolish by 
disinvesting, under investing, in energy research and 
development. I just want to underscore that.
    There were a lot of other things I wanted to get to. Maybe 
I'll be able to but my time is up.
    Thank you.
    Mr. Moniz. Mr. Chairman, may I just add one comment with 
your permission?
    The Chairman. Of course.
    Mr. Moniz. Because I think it's important to add that the 
unconventional gas boom had some other elements as well. I 
think it's important to recognize all of them.
    That is the DOE, absolutely right, was very important to 
kick this off. But then there came two other aspects.
    One was an extended period public/private partnership with 
industry sharing and industry guidance for the demonstration 
and test drilling phase.
    Simultaneously Congress had a time limited incentive for 
production from unconventional wells.
    The 3 of those came together in a very efficient and 
effective way as we are seeing now as we see the benefit of 
that.
    Senator Franken. That sort of is my point is that there's a 
role for R and D. Then it becomes public/private partnerships 
and then, I mean, that's what the internet was. It was 
initially developed by the government, by the Defense 
Department and we've seen, I mean, and then and we've seen what 
it's become.
    I'm just arguing for not disinvesting in energy research. 
Thank you.
    The Chairman. Very good.
    Senator Scott.
    Senator Scott. Thank you very much.
    Dr. Moniz, good to have you in our committee today. It was 
good chatting with you yesterday. Congratulations on your 
nomination.
    Mr. Moniz. Thank you.
    Senator Scott. Two areas I want to chat about today a 
little bit. One is growing our economy. The second has to do 
with our national security.
    The first, energy production and the distribution of 
affordable energy can be the cornerstone to building our 
economy, creating jobs and strengthening America's economic 
competitiveness. In just 6 short years since the oil boom in 
North Dakota we've seen their per capita income rank go from 38 
to 6th in this country. They have the country's lowest 
unemployment rate.
    So there's no question that our energy economy could be a 
major part of growing our GDP back to 4 or 5 percent range. 
They say we could create around two million jobs in the next 
few years and see trillions of dollars of economic activity in 
our country through our energy economy.
    Second is an issue relating to national security. Our 
national security is an important ingredient in these types of 
energy conversations. One specific area for my concern and 
interest is the MOX facility in South Carolina.
    There is a project, of course, in South Carolina that is 
critical to our Nation in honoring the U.S. Russian plutonium 
disposition agreement to dispose of 34 metric tons of excess 
U.S. weapons grade plutonium. The MOX facility is designed to 
dispose of excess weapons grade plutonium by converting it into 
fuel for commercial nuclear power reactors.
    Dr. Moniz, when you were at DOE during the Clinton 
Administration did you ever participate in any discussions 
about the development of MOX agreement with the Russian 
government?
    Mr. Moniz. Senator Scott, yes, I did. In fact I spent quite 
a bit of time discussing that issue.
    Senator Scott. Yes.
    Mr. Moniz. I mentioned in the opening statement that I was 
deemed the Secretary's lead negotiator for disposition of 
Russian weapon materials and this fell under that purview.
    Specifically, in 1998 we, the Department of State and the 
Department of Energy together established a mutual disposition 
program for 34 tons--and we produced, I believe in the year 
2000 then a signed plan. There at that time there were two 
pathways that were technically laid out. One was the MOX 
approach and the second was a vitrification approach. Then 
that's when the Administration ended and subsequently the 
projects went forward.
    Senator Scott. So what is your view on the MOX approach? Do 
you support it?
    Mr. Moniz. Yes, sir. The MOX approach is certainly one way 
of taking, to clarify, what it will do is it will so called 
change the isotopics of the plutonium to make it less suitable 
for a nuclear weapon.
    Senator Scott. Do you believe the Administration, the Obama 
Administration, has any intention of breaking or sending 
signals to break the U.S./Russia plutonium disposition 
agreement?
    Mr. Moniz. Sir, at this stage I have no information other 
than what's in the public sphere. So if I'm confirmed obviously 
I would be looking into this issue.
    Senator Scott. Are you aware of the fact that we spend 
about $4 billion on that MOX facility and it's about half way 
done, maybe 60 percent done?
    Mr. Moniz. Yes, I think I read 60 percent. Yes, I agree 
with you, Senator.
    Senator Scott. Do you believe that the U.S. should finish 
the project?
    Mr. Moniz. I have to wait for possible confirmation to be 
able to be in a position to understand where we are going with 
that.
    Senator Scott. But do you have an opinion on whether or not 
we should be? There's two options so far, right? There's 
basically two options.
    One is a MOX facility.
    The question really is do you think we continue the work 
that we've invested $4 billion in, 60 percent completion for us 
to honor the agreement that we currently have?
    Mr. Moniz. I certainly think we need to honor our agreement 
with Russia in terms of mutual disposition of plutonium.
    Senator Scott. So if we do not go forward with the MOX 
facility how will we honor the agreement?
    Mr. Moniz. That would have to be looked into if I were 
confirmed. Again, I have no indication of what the path forward 
is other than what I've seen in the public on the MOX plant.
    Senator Scott. So would you say then that we should 
continue forward with the MOX facility?
    Mr. Moniz. I think we need to dispose of the 34 tons of 
plutonium.
    Senator Scott. Right.
    Mr. Moniz. I mean right now what we have is the MOX plant.
    I, you know, I think I need to await confirmation before I 
can----
    Senator Scott. You haven't been there?
    Mr. Moniz. I haven't been there, no.
    Senator Scott. Yes, but do you have an opinion?
    I mean, during the Clinton Administration you were the lead 
negotiator.
    Mr. Moniz. Certainly.
    Senator Scott. In the Obama Administration do we continue 
to work on it? There are basically two paths to go down.
    One being that path that we've already--that's the $4 
billion, 60 percent completion.
    The other path that we haven't started on.
    So my real question was should we continue down this path?
    Mr. Moniz. All I can say, sir, is that, you know, I would 
need to be confirmed, look at what we're doing, look at the 
path forward, look at what the Administration proposes. Then 
work with you and others to push through our commitment to 
dispose of 34 metric tons of plutonium.
    Senator Scott. Do you have any idea what it would cost for 
us to backtrack and start again?
    Mr. Moniz. No, sir, I do not.
    I don't know and again I'm not suggesting that that's the 
plan.
    Senator Scott. Of course.
    Mr. Moniz. No, I mean----
    Senator Scott. Are you aware of any of the penalties that 
the Federal Government would have to pay to the State of South 
Carolina if the facility is not finished on time?
    Mr. Moniz. I don't know exactly. But I believe there are 
some agreements with the State about moving plutonium out of 
the State by a certain date.
    Senator Scott. I think it's 2016. I think it's a million 
dollars a day.
    So the reason why if we're having a conversation----
    Mr. Moniz. Beside that.
    Senator Scott. We consider how to relate how substantial 
even in the economy we have today. So my thought was if it's 
important if we only have two paths that we can consider. One 
path we're on currently which is 60 percent complete. We've 
invested $4 billion.
    The other path we have no idea how much it would cost, when 
we would start and how we would get it finished.
    So my question was should we continue down the path that 
we're on if we're 60 percent finished. We've already made the 
initial investment. We have no clue on the alternative.
    Your answer was you're not sure exactly what we should do 
at this point?
    Mr. Moniz. No, sir, that's not exactly how I phrased it.
    Senator Scott. No, sir, it was not.
    Mr. Moniz. I said, if I'm confirmed then I will certainly 
and certainly with your encouragement look into this with a 
high priority. I'll work with you and others involved closely.
    Let me make no mistake about my commitment to advance the 
agreement to dispose of the plutonium.
    Senator Scott. My questions, finally wrapping up. My 
questions really have to do with the fact that many of the 
rumors that we've heard around the MOX facility and the Obama 
budget has to do with the ability or the probability of a 
reduction in the funding of it. If the funding is reduced by 
50, 60, 75 percent, the ability to finish on time would not 
occur, No. 1.
    No. 2 the impact on that to the Federal Government would be 
hundreds of millions of dollars in penalties.
    Third, maybe perhaps the most important it would be 
breaking the agreement that we have to dispose of the 34 metric 
tons that we signed with the Russian government.
    The Chairman. Senator Scott, thank you.
    Senator Scott. Thank you.
    The Chairman. We have to move along to get everybody in 
before the vote.
    Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    Thank you, Dr. Moniz. I enjoyed our conversation several 
weeks ago. I'm especially appreciative of the partnership 
between the U.S. DOE and the State of Hawaii in the Hawaii 
Clean Energy Initiative.
    As you know we've been able to triple clean energy 
production in less than 3 years. That's substantially because 
of the partnership that we've had. I'd like to ask you a series 
of questions that might be easier than the previous ones.
    [Laughter.]
    Senator Schatz. Specifically in the area of energy 
efficiency and conservation there's been a lot of discussion 
about electricity generation. But one of the areas that I think 
Senator Portman and Senator Shaheen have been working very hard 
on and where I consider to be low hanging fruit is efficiency 
and conservation.
    I'd like you to just articulate the U.S. DOE's position on 
that and how do we advance efficiency and conservation because 
it is one of the few areas where we may be able to make some 
good progress on a bipartisan basis.
    Mr. Moniz. Thank you, Senator Schatz.
    First, let me say just say that I totally agree with the 
inference that energy efficiency demand side activity is 
enormously important. Indeed if one looks at, kind of, a low 
carbon future with low greenhouse gas emissions, for example. 
It's very hard to see how that can happen without substantial 
efficiency gains. That's across the board. It's in 
transportation.
    How do we move that? We have the CAFE standards that the 
Administration has put forward which is critical. But of 
course, now comes the technology development in terms of drive 
trains, light weighting, many, many ways of accomplishing that 
economically.
    It's buildings. Buildings use about 70 percent of our 
electricity, our residential and commercial buildings. This is 
enormously important to address there. There, the low hanging 
fruit is, in fact, quite ripe actually. I would say to mix some 
metaphors.
    In addition to some R and D their cooperation with the 
States and localities, I think, will be very, very critical 
like the race to the top. Concept is one example of something I 
think that we could advance there.
    Finally, industry. I think, industry, of course, is 
probably among those 3 sectors already the leader because of, 
you know, bottom line, concerns. But even there I think there's 
more that we could do to help incentivize, for example, more 
combined heat and power which would be a big step.
    Senator Schatz. Thank you.
    You know in Hawaii we have our particular challenges given 
that each island is its own grid.
    Mr. Moniz. Right.
    Senator Schatz. U.S. DOE has been very helpful in terms of 
integrating unprecedented percentages of intermittent energy 
into our grid. But can you talk just about the national grid 
system? How U.S. DOE is helping both on the cyber side and on 
the energy efficiency and energy management side to kind of 
solve the problems that are emerging over the next several 
years?
    Mr. Moniz. Yes, thank you, Senator.
    If I may go back a step and note that in 1998/1999 we 
initiated a cross cutting portfolio look at the Department's 
research. The first thing that popped out was there was no work 
on grids because it didn't fit into the stovepipes of fossil 
energy or renewables, etcetera. Now of course we have the 
Office of Electricity and Delivery Reliability. The office has 
really, I would say, upped the game certainly using some of the 
stimulus funding, getting smart metering as an enabler, 
supporting research on sensors, controls, is out there.
    I think we need to still do more. I think we need to 
greatly increase our ability to do systems evaluation so that 
we get robustness and resilience of the system again, 
particularly in the face of either natural or unnatural acts 
against the grid.
    Integration is very important. I forget, the chairman 
mentioned in fact, how also the integration of renewables and 
gas was critical to get the kind of back up in the system.
    Senator Schatz. So one of the things that has been very 
productive in the State of Hawaii is the partnership between 
the DOE and the DOD. The Pacific command has articulated 
climate change and energy security as the strategic challenge 
in the Asia Pacific region. So can you talk about how U.S. DOE 
and DOD, I know they're working very well together in Hawaii, 
but what's happening on the national level in terms of that 
partnership?
    Mr. Moniz. Senator, I'll certainly need to learn more about 
it. But I know what is happening in some dimensions, two in 
particular I'll just mention.
    One is the issue of lowering the energy footprint and the 
energy needs in fixed assets like bases and work around 
building efficiency, micro grids integration. I think is a, is 
moving forward and b, can be an important template for then 
spreading out into the more into the economy. Of course on a 
different side there's also the work on fuels and frankly an 
area that I think is very important, the war fighter.
    How do we address the energy needs of the war fighter which 
is an enormous problem for that individual out there in the 
field?
    Senator Schatz. Thank you.
    Thanks, Chair.
    The Chairman. Thank you very much.
    Senator Lee.
    Senator Lee. Thank you very much, Mr. Chairman.
    Thank you, Dr. Moniz for joining me in my office a few 
weeks ago. I greatly enjoyed our visit.
    In March of last year Secretary Chu issued a memorandum to 
Federal power marketing administrations. In that memorandum the 
Secretary proposed some rate structures that would incentivize 
energy efficiency programs, the integration of intermittent 
resources and preparation for electric vehicle deployment for 
these PMAs. There's been some significant concern expressed 
with regard to this memorandum suggesting that the policies 
contained therein might increase the cost of electricity for 
small, municipal and cooperative power systems that purchase 
power from these PMAs.
    How would you respond to those concerns? Do you agree with 
them? Do you think the concerns expressed have been legitimate? 
Do you share them?
    Mr. Moniz. First Senator Lee, let me say that I think the--
we all recognize the core responsibility of the PMAs to deliver 
power as inexpensively as possible to the preference customers. 
That is a very important part of where the PMAs operate.
    Senator Lee. Perhaps the most important point, correct?
    Mr. Moniz. The first priority I believe is there.
    Now, of course, that does also require that the PMAs are 
making sure they're reliable. They are also growing with 21st 
century technology for delivery. My understanding then is that 
with WAPA, there was then a joint team put together to make 
recommendations as to what might be done recognizing the 
importance of maintaining the cost structures.
    The last that I know of is that those recommendations are 
now in front of WAPA to determine what they want to do. 
Although I'll have to look at this more carefully if I'm 
confirmed. But I think again the first priority is clear in 
terms of the cost structure. I would say that it's also 
important to have the PMAs engaged as they wish to be with 
their customers in making sure that they are modernizing.
    Senator Lee. Would you continue to support these policies 
if they would, in fact, significantly raise rates?
    Mr. Moniz. No, well, I think the PMAs and their customers 
would not. Therefore we would not.
    Senator Lee. OK. OK.
    Do you support carbon tax?
    Mr. Moniz. Sir, first of all it's important to say the 
Administration has not proposed a carbon tax and has no plan to 
do so. I think that's the first point.
    The second point is Department of Energy is not the locust 
of discussions about such fiscal policies.
    Our job is to, as I said earlier, our principle job is push 
the technology innovation to get the costs of the low carbon 
technologies as low as possible.
    Senator Lee. Have you, in the past, advocated on this issue 
on one side or the other?
    Mr. Moniz. For example, in 2008 there was an, of course, an 
open letter to the next President, whoever it would be prior to 
the election. That was a time in which there were bipartisan 
discussions of cap and trade systems. I noted what the 
implications of that would be.
    Senator Lee. OK.
    There was a recent GAO report that identified some rather 
significant duplication among the over 80 initiatives that 
subsidize wind energy. These initiatives, as I understand the 
facts to be, incurred nearly $3 billion in obligations for the 
Federal Government. While some of these programs and 
initiatives fall under the Departments of the Interior, 
Agriculture, Commerce and Treasury, a significant number, of 
course, fell under the Department of Energy.
    So leaving aside the separate question of whether the 
Federal were not to be involved in providing such subsidies at 
all, does it make any sense that the Federal Government should 
administer so many of these programs? Should there be so many 
of these recognizing the significant risk and reality of 
duplication?
    Mr. Moniz. Senator, I have to be honest, first of all that 
I'm simply not aware of this report and I'd be happy to look at 
it and get back subsequently.
    Clearly on the one hand I'm very supportive, as we've said 
earlier, of providing the marketplace with low carbon options. 
On the other hand I don't think anyone would support 
duplication of programs if that is in fact the case.
    Senator Lee. Right. So perhaps we ought to look at 
consolidating some of them and thereby reducing duplication.
    Mr. Moniz. I happen to have an open mind and maybe can look 
at the report and get back with you in your office.
    Senator Lee. Great.
    I see my time has expired.
    Thank you very much for your----
    Mr. Moniz. Thank you, Senator.
    The Chairman. Thank you, Senator Lee.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Thank you, Doctor. Again, I enjoyed talking to you and 
appreciate it very much.
    I'm greatly encouraged by our leadership of our committee 
that we will have an all in energy policy. I appreciate your 
indicating that. It's going to take everything that we have in 
this great country to become independent.
    I know in the past many past secretaries have spoken about 
the role that coal plays. As you know coming from the State of 
West Virginia, it's very important. But also it's important to 
the Nation.
    I would like to show you--not the first one, no, basically 
the demand. This comes from Department of Energy. From 1992 to 
2010 this was a demand to load that was expected from each 
category whether it be coal, nuclear, renewables or natural 
gas.
    Then 2010 to 2040 this is what we're expecting to carry the 
load of energy in our country. We know that the rest of the 
world has more of a demand for coal fossil than ever before. 
When you see that you're still, out through 2040, going to be 
depending on 35 percent here. Natural gas goes to 30. Nuke 
stays about the same. Renewables only gets to a high of 16.
    With that being said let me show you the past, from EIA 
again, where your money is being spent. The research dollars, 
61 percent to renewables with only a 16 percent return, as you 
can see. It just doesn't make sense in a business model that 
this would work. But it seems like we're trying to push that in 
a direction where this Administration wants the markets to go 
knowing you're not going to get a return on it.
    The only thing I've asked for is a level playing field. I 
want all. I want wind. I want solar. I want to use everything 
we have in this great country of ours. But we're not all the 
same.
    If by your own estimation you're going to be using this 
much depending for until 2040 until if we have the fuel of the 
future, we put very little. You talked about sequestration. 
We're trying to do everything we can. But the Federal 
Government has never partnered up for a commercial project 
where we can prove that it can be done and, you know, to a 
large coal fired plant.
    The only thing I'm asking, sir, I think, in the realm of 
what you're seeing here as far as where we are, our needs and 
where we're spending our money.
    Put this one down.
    Where we're spending our money. If you just would take a 
serious look at this and see if we can balance this out a 
little bit better. If you're expecting. You've got nothing here 
where fossil is 18 percent. Well 18 percent and you've got 35 
and 30. You've got 65 percent you're depending on fossil. It 
would seem like there would be a little bit of a kind of 
balance or a parody there.
    That's all I can ask on that.
    The other thing I would like to ask as far as how much 
longer do you think taxpayers will have to subsidize 
renewables. Renewables until they are able to compete in the 
marketplace on their own?
    Mr. Moniz. Senator Manchin, by the way, just on the 
comment, I certainly again and as we've discussed, I'm very 
committed to having those carbon capture and sequestration 
projects run forward.
    Senator Manchin. Sir, I appreciate it. I've followed your 
writings and basically your philosophy. You've been very, very 
proactive. We think we can get an all in energy policy. We're 
not asking for anything unreasonable.
    If this is what this country is going to be demanding then 
we can't just villianize.
    Mr. Moniz. Right.
    Senator Manchin. OK. Our little states produce an awful lot 
of energy for this country. We want to continue to do it in the 
best fashion we can. We need a partnership.
    Mr. Moniz. Agreed.
    Then on the second question I personally believe that for 
any energy source we have to help. I think that our role in the 
government, if I'm back in the government, if I'm confirmed, is 
to first of all make sure that the marketplace has options. 
Whereby marketplace I mean all those who make different kinds 
of decisions, investors, companies, public servants, etcetera, 
have the information they need to understand the options to be 
chosen for producing, delivering and using energy under 
whatever are the market conditions at that time. The market 
conditions involve both public and private sector issues.
    So for example, you know, a low carbon future may be being 
called for. It's very important in that context that we 
understand the renewable options, the nuclear option and the 
coal with carbon capture options.
    Senator Manchin. Right.
    The only thing I would ask on that is that do you believe 
and I think you've said, but do you reaffirm and believe that 
basically we should have an all in energy policy using the 
resources we have at our disposal in our great Nation.
    Mr. Moniz. Yes. Yes, I'm very with the President on this 
all of the above approach.
    Senator Manchin. Not putting obstacles to basically or 
unobtainable and unreasonable----
    Mr. Moniz. Again our job is on the innovation side. So 
we're going to push the innovation and----
    Senator Manchin. I've got to work with the APA to be 
reasonable. I understand that.
    Mr. Moniz. All those options.
    Senator Manchin. I just hope that you would be 
understanding where we're coming from and what needs to be done 
to balance this out with some parity.
    Mr. Moniz. I do.
    Senator Manchin. Thank you, sir.
    Mr. Moniz. Thank you.
    The Chairman. Thank you, Senator Manchin.
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Dr. Moniz, welcome and thanks for your willingness to 
serve.
    I've got a series of questions which I'd like to run 
through in my 5 minutes if I may.
    Senator Franken mentioned the importance of energy 
research. Would you be willing to work closely with Senator 
Coons and me as we work to reauthorize the America Competes Act 
this next year which was first passed with 35 Republicans and 
35 Democratic Senators and finally sponsored by the Republican 
and Democratic leader and to do so in a way that we reduce any 
program duplications and ensure that ARPA-E is functioning as 
efficiently as possible?
    Mr. Moniz. Senator, that's a yes.
    Senator Alexander. Good.
    You mentioned the tax credit for unconventional gas. I 
believe that was about 12 years.
    Mr. Moniz. That's correct.
    Senator Alexander. The length of that.
    Mr. Moniz. I believe that's correct.
    Senator Alexander. Do you think that tax credit still 
should be in place?
    Mr. Moniz. For unconventional gas?
    Senator Alexander. Yes.
    Mr. Moniz. Again, sir, it's not in the lane of the 
Department of Energy, but it seems to me that it's done its 
job.
    Senator Alexander. Yes, it's done its job.
    Wouldn't it be a wiser use of whatever--instead of having 
that tax credit in place or other tax credits for oil or gas or 
other forms of energy that have become material. Wouldn't it be 
better to spend that money to try to reach the goal that you 
and I share which would be to double the amount of research in 
energy?
    Mr. Moniz. Senator, I think I'm going to kind of really 
focus on the research area. There's no question, as we said 
earlier, that I believe we have substantial capacity to 
increase our research effectively.
    Senator Alexander. Senator Heinrich asked about linkage in 
the Blue Ribbon Commission. Just to make clear. Am I correct 
that the report which I have before me, the concern in the 
Commission was that it did not want the stalemate over Yucca 
Mountain to prevent movement ahead on the consolidation storage 
sites?
    While it said there needed to be a linkage. That it didn't 
want the linkage to be something that continues this--that 
blocks the delegation of consolidationsites. That in fact you 
said that----
    Mr. Moniz. Right.
    Senator Alexander. Consolidation storage capacity should 
proceed without further delay. Is that not correct? Is that not 
the spirit of the report?
    Mr. Moniz. Absolutely. Absolutely, sir.
    I would just note that yet the linkage did not mean just 
completely parallel development. It meant doing both in 
parallel so that we would have geological repositories in a 
timely way following storage.
    Senator Alexander. Would you agree that the Department of 
Energy's advanced scientific computing research program is the 
best program to bring the United States to the next level of 
high performance computing? You're very familiar with that 
program, I know, from your work.
    Mr. Moniz. I am, sir. The Department has a long history in 
doing this. It's very important we continue.
    Senator Alexander. One of the biggest clean up problems we 
have in the cold war era is mercury contaminated water ways 
near Oak Ridge. We've had a radioactivity problem make great 
progress on that. It will cost billions to clean up the mercury 
so it doesn't get in the water and people eat the fish and then 
have the damage.
    Dr. Chu was very good on this. He helped us move toward a 
focus on this. Would you agree that mercury clean up should be 
a priority? That while we're waiting for the billions of 
dollars to arrive to clean it up, finally, that a good 
temporary strategy would be to build a facility at the head of 
the creek where most of the contaminated water is, intercept 
the water from it and remove the mercury before most of it gets 
in our water ways?
    Mr. Moniz. Senator Alexander, I'll have to look in the 
details of that facility which I have not done. But clearly 
protecting the safety and health of our citizens is paramount.
    Senator Alexander. Following up Senator Manchin's question 
on carbon capture. It seems to me that one way to develop 
additional support for energy research would be to continue the 
research in ARPA-E which is looking for alternate ways to 
capture carbon and turn it into something commercially useful 
other than carbon capture. Carbon capture and sequestration 
might turn out to be too expensive for many parts of the 
country.
    It seems to me the holy grail of energy, after 
unconventional gas would be to find some way to find a 
commercial use for carbon that comes from gas and coal plants. 
Would you think it's a good idea for ARPA-E to continue to 
invest in research that helps find ways to capture carbon from 
existing coal and natural gas plants other than or in addition 
to sequestration?
    Mr. Moniz. Yes, sir. Beneficial use of CO<INF>2</INF> of 
course would be a tremendous advance. I do note that today we 
are deploying around 65 million tons of CO<INF>2</INF> to 
produce around 300 thousand barrels of oil in enhanced oil 
recovery.
    That's one form of beneficial use. But of course that can't 
be used everywhere in the country. So looking at alternative 
approaches is quite important.
    It has to be an application, of course, of big scale.
    Senator Alexander. Yes.
    Mr. Moniz. Because there's so much CO<INF>2</INF>.
    Senator Alexander. Thank you, Dr. Moniz.
    Thank you, Mr. Chairman.
    The Chairman. Alright. Let's see.
    It's Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Dr. Moniz, I look forward to working with you once you're 
confirmed on a host of issues. I'm proud to say that Colorado, 
I believe, is a model in its pursuit of true energy security. 
If you look across our State we rely on renewables, wind and 
solar, to be specific and we also have traditional fuel 
sources, as you know, like coal and natural gas. I'd like to 
take my time as Senator Alexander did to focus on some over 
arching issues at DOE, but also on some Colorado specific 
issues as well.
    You're familiar with the National Renewable Energy Lab, 
NREL, as we know it. It's a crown jewel. I was out at the wind 
test site just a few weeks ago and had the opportunity to climb 
up one of the turbines that's being used for research jointly 
by NREL and SIEMENS. What I saw firsthand besides incredible 
views was a really impressive public/private partnership.
    Could you comment on your vision for those kinds of 
partnerships? How do you come at that? How is DOE going to 
continue to support such partnerships?
    Mr. Moniz. Thank you, Senator Udall. First of all, I'm just 
an enormous fan of private/public partnerships. So I would be 
seeking, if confirmed, all kinds of ideas as to new ways of 
moving forward.
    I think at NREL they have, in fact, I think pioneered some 
ways of doing this which is terrific. I would just, without 
being specific because I don't have a specific at the moment, I 
think that we should think about having ways of having 
regional, regionally, focused industry working with public or 
quasi public sectors to focus on moving solutions that are 
regionally appropriate. Because again, this was raised earlier 
that the regional issues for solving our energy problems, I 
think, are very big. We could probably do more with public/
private in that context.
    Senator Udall. I look forward to working with you in that 
regard.
    I know you and I have a shared interest in small modular 
nuclear reactors, so called SMRs. In fact it's an area I think 
you know of strong bipartisan agreement on the committee. The 
Ranking Member, Senator Murkowski, and Senator Bingaman, the 
former chairman, worked over the past two Congresses to 
encourage DOE's work to accelerate our understanding of how we 
might use SMRs.
    Could you articulate your views on the viability of SMRs 
and how do you see the current DOE program moving forward when 
you're confirmed?
    Mr. Moniz. I should say, if confirmed.
    Senator Udall. I know you have to say, if. I will say, 
when.
    Mr. Moniz. Thank you.
    I've also testified, I think, before this, no, before the 
Appropriations Committee, excuse me, on SMRs. I think that it's 
a very promising direction that we need to pursue. I would say 
it's where the most innovation is going on in nuclear energy.
    I think the issue which remains to be seen and can be 
determined only when we, in fact, do it, is to what extent will 
the economics in manufacturing lower the costs relative to 
larger reactors. I think that could be--there's a great 
potential payout there which goes on top of what are typically 
very attractive safety characteristics, for example in the 
design of these reactors.
    Senator Udall. Let me move to climate change.
    I was pleased and enthused at Senator Wyden, Chairman 
Wyden, talked about climate change. It's happening in Colorado. 
We've had unprecedented droughts. We've had low snow years. We 
have forest ecosystems that are being savaged by the bark 
beetle. We had enormous fires last year.
    I think it's time to act. I think there's great opportunity 
presenting itself to us in the context of national security, 
job creation, of course the environmental benefits.
    So would you talk for the remaining time about how a 
balanced energy portfolio can and could reduce carbon emissions 
and slow climate change? As I pointed out earlier we're a State 
that's rich in both renewable and traditional energy resources. 
How do you see the development of both traditional and 
renewable resources reducing carbon emissions and curbing 
climate change?
    Mr. Moniz. Easy question in 28 seconds. I certainly agree 
that the scientific basis for warranting action is completely 
clear. There could be legitimate discussions about exactly what 
one does and at what pace, etcetera.
    What do we need to do? It's as you said--go to a low carbon 
economy.
    That will include, as we've said, and you know I've been 
quoted and many others have been quoted. For example, natural 
gas among traditional sources as, in this country, being a 
bridge. We are seeing that. We saw that with the EIA 
announcement yesterday in terms of the lowest CO<INF>2</INF> 
emissions that we've had in quite some years in this country 
with natural gas playing an important role in that.
    But assuming that we do go to a very low carbon economy at 
some point in the future, even natural gas will require 
capture, for example, as would coal. While we are also 
deploying the carbon free initiative--options of well, for 
power, renewables, nuclear and of course, efficiency as an 
important part of that story, plus the hydrocarbons with carbon 
capture.
    Senator Udall. Thank you for that. Again, thank you for 
your willingness to serve.
    I'd add one editorial comment which I don't expect you to 
respond to, but I have great affection for my friend from West 
Virginia. I looked with interest at the charts he presented. 
One of the things you have to take into account, however, is 
the external cost of using coal verses renewables verses 
natural gas. The charts that he displayed did not include those 
external costs.
    I'll leave it there.
    Thank you, again.
    Mr. Moniz. Thank you.
    The Chairman. Thank you, Senator Udall.
    Senator Flake is next.
    Senator Flake. Thank you, Mr. Chairman.
    Thank you, Doctor. Thank you for coming by my office. I 
enjoyed the meeting.
    Mr. Moniz. Me too.
    Senator Flake. In that meeting we talked a little about the 
Navajo generating station in Northern Arizona or the NGS. The 
EPA has issued a--proposed a regional haze rule that would 
require the plant owners to install the most expensive mission 
control technology that's known as SCRs. Now they did this even 
though the National Renewable Energy Laboratory, which Senator 
Udall referred to, which you will oversee, found that the 
visibility benefits are suspect at best.
    In January the Secretaries of Interior, Energy, as well as 
EPA have formed a task force to look at this, issued a joint 
statement to collectively find a solution for NGS. If confirmed 
will you commit to working with all of the interested parties, 
including the Senate here, to find a solution that upholds the 
trust obligations that Secretary of Interior is charged with to 
honor its water delivery commitments, does not add to the 
national debt.
    Is that something that you see yourself working hard on or 
can you work with us on?
    Mr. Moniz. Senator Flake, it's of course as you've said, I 
mean, clearly the decisionmaking here is with Department of 
Interior and EPA. But I think the Department of Energy has 
resources that I can use for analysis. I would be happy to work 
with you and others to apply those to provide--to make sure we 
have good data.
    Senator Flake. We appreciate the work and the research that 
DOE has done in the past which shows that the cost benefit 
analysis--it's tough to apply or tough to justify the proposed 
rule of the EPA given the benefits or lack thereof as studied 
by DOE. So I hope that you'll assert and defend the research of 
DOE in this regard.
    Mr. Moniz. I will indeed, yes.
    Senator Flake. Thank you.
    Just for a second on cyber security. The President just 
issued an executive order regarding cyber security for the 
electric grid. However FERC and other organizations have issued 
some kind of mandatory enforceable standards that were supposed 
to take place in 19 or I'm sorry, 2005. We're a long way from 
there. Then the world has certainly changed in that regard and 
the threats are different.
    What do you see the role of DOE in this regard to ensure 
that our electric grid is protected on basic cyber security 
attacks or cyber attacks, I should say?
    Mr. Moniz. Yes, thank you, Senator.
    I think cyber security really is one of the greatest 
threats that we face in multiple contexts. As we know our 
companies and as I know just in reading, the Department of 
Energy and its facilities need too, a lot of protection against 
cyber attack. Specifically on the grid I think we need to bring 
together the assets across the Department from the CIO to 
Intelligence to the Electricity Office.
    We have a lot of assets, we, the Department of Energy, I 
should say.
    Senator Flake. Right.
    Mr. Moniz. The Department of Energy has a lot of assets 
also in its National Security labs on cyber security. So I 
think it's two things.
    One is we need to work on the technologies, the sensors, 
controls, distributive decisionmaking technologies, integration 
systems.
    But we also need to work, in my view, combining the 
national security assets with the energy system to forge a 
maximally resilient system.
    Senator Flake. Is your vision compatible with the 
President's executive order?
    Mr. Moniz. Completely, yes, sir.
    Senator Flake. Alright.
    Mr. Moniz. Yes.
    Senator Flake. Thank you.
    Senator Cantwell [presiding]. Thank you. I'm happy to take 
over for Senator Wyden, who had to run to the Finance Committee 
for a second and fortunate for me I'm actually next on the list 
too.
    [Laughter.]
    Senator Cantwell. So I don't know how I got that good. But 
following me will be Senator Risch.
    So Dr. Moniz, thank you very much. You and I have had many 
conversations about a variety of issues. But obviously first 
and foremost on my list is Hanford and Hanford cleanup. I want 
to get a couple off the list.
    First of all, I hope that you'll make it a priority to 
visit Hanford very soon in your tenure as Secretary of Energy.
    Mr. Moniz. If I'm confirmed.
    Senator Cantwell. If confirmed.
    Mr. Moniz. I certainly will. If I may say, Senator 
Cantwell, I think the--particularly seeing the recent DNFSB 
letter laying out the issues.
    My plan would be to get hard briefings immediately.
    Go to the site because I think you need to be there to 
understand the issues.
    Come back.
    Work with the chairman, work with you, Representative 
Murray and make sure we get a plan together going forward and 
do that expeditiously.
    Senator Cantwell. Great. That was first and foremost.
    Second, we always have to remind ourselves that this has to 
be based on good science and good timeframes. So you believe in 
living up to the tri-party agreement?
    Mr. Moniz. The tri-party agreement is an agreement that we 
have to strive to satisfy. I will also be straight forward in 
opening a discussion if I think that there are challenges that 
are rooted in the science and technology. Certainly my intent 
is to work with you and the other members to adhere to the 
agreement.
    Senator Cantwell. But you believe in that document as an 
agreement by the Federal Government to those milestones?
    Mr. Moniz. It is an agreement with milestones.
    Senator Cantwell. OK, great.
    What about this issue of the supplemental and how it 
impacts Hanford cleanup? Do you think that this is an important 
enough issue that we shouldn't be looking at ways to cut 
funding if that means not living to the tri-party agreement? 
I'm not trying to get you to make a forward looking statement.
    Mr. Moniz. Right.
    Senator Cantwell. As it relates to the Administration and 
the budget as much as I'm trying to emphasize. Do you believe 
in cutting the budget, including Hanford cleanup, if it's going 
to miss the milestones?
    Mr. Moniz. Clearly, I support trying to meet the milestones 
and that will require having the budget to do it. Again, I 
don't know what the budget is. I don't know the path forward.
    I can assure you that I will work with you and the other 
involved members to try to do the best we can a, to get the 
resources and b, to use what resources we have most 
effectively.
    Senator Cantwell. I think I mentioned to you in my office, 
I'm literally for Energy Secretaries for life or until Hanford 
is cleaned up.
    Mr. Moniz. Or until Hanford is cleaned up.
    Senator Cantwell. Because every time a new Administration 
or new Energy Secretary comes in somebody comes up with a 
brilliant, oh this is the best way to do it. This is how we're 
going to do it. So and they come up with a new idea.
    It usually ends up costing millions or billions of dollars. 
Then they thwart it or we throw it out or we basically say no, 
you can't clean up 97 percent of the tank waste. You have to 
clean up 100 percent of the tank waste.
    I wanted to get your thoughts on the issue of the 
commission you served on and separating out military waste 
because one of the issue that has thwarted us in looking at the 
larger nuclear waste repository issue is that Hanford has--will 
have with the VIT plant producing vitrified logs, a need for 
storage of this military waste. Should we move forward on 
looking at that as a solution of separating the military, the 
defense waste, from other waste?
    Mr. Moniz. Senator Cantwell, that was a very spirited 
discussion in the Blue Ribbon Commission. The origin of it is 
that clearly the conditions that led to the decision in the 
1980s to co-mingle are no longer arbitrative. So therefore a 
re-look is certainly in order. The Blue Ribbon Commission 
recommended that. If I'm confirmed, I really want to push that 
evaluation.
    Senator Cantwell. OK. You mentioned in your testimony about 
smart grid. Obviously we want our national laboratories to move 
forward on that. Obviously we would love you to visit PNNL 
while you're also out in the Northwest.
    But making a commitment to our national laboratories in 
development of smart grid technology, I'm hoping that you're 
going to move forward on where Secretary Chu has been on 
developing a more concentrated strategy for our national labs.
    Mr. Moniz. I believe that we----
    Senator Cantwell. I just want to clarify, not concentrated 
as in only one lab as much as make a focus of national----
    Mr. Moniz. No, no, no. Yes.
    Senator Cantwell. Yes, thank you.
    Mr. Moniz. Thank you for the clarification. But I feel that 
the Department and the labs work best when working together in 
a strategic way on the major mission priorities. The grid is 
one of those.
    So frankly I'm going to be looking, I think, to working in 
a somewhat different way with the laboratory directors so that 
frankly they are engaged more in the strategic decisions about 
where we all go together.
    Senator Cantwell. Thank you.
    Senator Risch.
    Senator Risch. Thank you.
    I'd like to thank you for taking the time and coming to my 
office and meeting with me. I thought that was very helpful. I 
appreciate it.
    I want to underscore again the conversation we had about 
the cleanup at the Idaho National Laboratory. Probably out of 
all the projects you've got going on that incorporates your 
philosophy. You said so in your statement here. I was glad to 
see this where you acknowledged that the cleanup from the cold 
war is a legal and moral imperative.
    Probably the closest one you have is in Idaho. I want to 
encourage you to continue to keep your foot on the accelerator 
on that because that's one where you can actually have a 
victory. Get the cleanup done over there. I think it would be 
good for the DOE's image and good for the Federal Government's 
image to get that done.
    I thank you for listening to me on that. I want to 
encourage you to continue along that line.
    Second, I'd like to hear your ideas. We talked a little bit 
about this, but I'd like to hear your ideas. You just touched 
on it briefly with what you're thinking about the laboratories.
    I'd like you to elaborate on that a little bit. Because as 
we all know we're heading into an era where Federal spending 
is, because of the skyrocketing costs of the social programs 
that we have, other Federal spending is going to be crimped 
back aggressively, I think. I think the sequester that we saw 
is just the tip of the iceberg to what's coming.
    What are your ideas about operating the laboratory, the 
national laboratories, and how you're going to move forward 
with that given the more restrained Federal spending climate 
that we're going to be in?
    Mr. Moniz. Senator Risch, again on the first point, I think 
we had a good discussion. We're on the same page, I think, 
there.
    With regard to the laboratories, the--first I think there 
are some statements that are important to make which are, in 
some sense, independent of the budget levels. I don't know what 
the budget levels are going to be. I've said in my, well, in my 
written testimony that, you know, there's no question DOE has 
an unparalleled national laboratory system to pursue its 
multiple, complex missions.
    What I was trying to communicate in the last response is 
that I think that we can improve the way in which, particularly 
the labs, the laboratory directors are engaged with the 
department, not just as kind of performers, but as part of the 
planning of where we're going. So in the Idaho case, for 
example, there would obviously be a special role in nuclear 
energy where Idaho is the lead laboratory. So John 
Grossenbacher should be part of the discussion about where 
we're going together with his fellow lab directors who are 
heavily engaged.
    Senator Risch. He's the right guy for that job, by the way.
    Mr. Moniz. Yes, yes.
    Senator Risch. Incredibly good at what he does.
    Mr. Moniz. I've known John for many, many years. It's quite 
effective.
    So I think in ways I don't quite yet know, but if confirmed 
I really want to treat them much more as resources for how we 
plan going forward. I'd like to see the laboratories have 
relatively more of their work performed by significant 
multidisciplinary teams who are managing a big mission 
challenge for the Department and for the country with multiple 
years. I think the labs work best and most effectively when 
they have kind of a, you know, the kind of long term commitment 
to manage a hard problem.
    Also, that's how they complement most the universities in 
terms of ways of working.
    So that's kind of my philosophy. Then we've got to try to 
fit that into the size of the bucket that we see coming 
forward.
    Senator Risch. Thank you so much. I appreciate your 
thoughts on that.
    Mr. Moniz. Thank you.
    Senator Risch. Thank you, Madame Chair.
    Senator Cantwell. Thank you.
    Dr. Moniz, before my colleague leaves from the Northwest I 
wanted to bring up an issue about cost based power in the 
Bonneville Power Administration. Obviously one of the issues 
that we care deeply about is to make sure that we continue that 
and that the Northwest delegation, you know, EPA ratepayers, 
you know, there's always an attempt every few years to try to 
re-focus that.
    I wanted to get your commitment on continuing to make sure 
that BPA has strong jurisdiction within the Department of 
Energy relative to other ideas that people have about living up 
to the structure of BPA and how it exists today.
    Mr. Moniz. Senator Cantwell, I think there's no question.
    First of all, I understand completely the importance of the 
PMAs in hard regions of the country. Bonneville is certainly a 
major player. We are committed, I think to maintaining sound 
management. The commitment to delivering low cost power to the 
customers and working with BPA and the interested members in a 
collaborative way also to make sure that they are, you know, 
developing in a way that's important technically and important 
for the Northwest.
    Senator Cantwell. I also wanted to get your comments 
quickly. I don't know if, I think Senator Wyden is making his 
way back here. So if he gets here in time we won't recess. But 
if he doesn't I'll have to recess for a short period of time 
and then pick back up when he does come back from a vote.
    But I wanted to get your comments on the Manhattan Project 
National Park which is preserving the B reactor at the Hanford 
site and Department of Energy's commitment to moving forward on 
that with, obviously, Interior and also on land exchanges. Part 
of the land that we've been successful in moving forward on at 
Hanford has given us the ability to say that once this cleanup 
is there and completed that there's a possibility to move 
forward with moving that land into other functions once the 
cleanup is completed. So I wanted to see if you know of any 
reason why that would be held up in the future, either of those 
projects.
    Mr. Moniz. No, I don't. I know of the projects. I know of 
the, of course, the desire for beneficial use of additional 
land in there for economic development, Senator. But I don't 
know them in depth. I will certainly work with you on that. I 
certainly see no reason why that wouldn't go forward.
    But again, I will be happy to work with you and your office 
on that.
    Senator Cantwell. OK. Then lastly, I know my colleague at 
the beginning of his statement had a chance to talk to you 
about renewable energy, but as part of the mix in portfolio. Do 
you see an opportunity looking back at some of the resources 
that we have been talking about as a way to better streamline? 
When you look at the marketplace and how things are being 
financed for clean energy solutions, do you see a better way 
for us to make continued progress on clean energy solutions in 
the development of new technology?
    Mr. Moniz. I'm certainly aware and very interested in a 
number of discussions about different approaches such as, you 
know, extension of mass limited partnerships, REITs to clean 
energy. If those prove to be--and I know in here members are 
also interested in those approaches, those or others that can 
help move a lot of, kind of, private capital into the game 
would be very, very, very interesting. I would love to work on 
those with the members.
    Senator Cantwell. I was thinking a little more in the sense 
of the Small Business Administration has been a very big 
catalyst for luring private sector dollars into, but by coming 
up with a very cost effective cheap capital to help secure 
private sector investment. My question, we've had a lot of this 
conversation on this committee about the loan guarantees and 
the complexity of what it takes the Department of Energy to 
sign off on a project. But when you think of something in a 
more turnkey style where a little bit of Federal dollars could 
be leveraged 20 to 30 times by the private sector in more of a 
model that would be simple in the context of the great thing 
about renewable energy and electricity is that you actually 
have a revenue source because of the power that's being 
generated.
    So I just wondered if you had thoughts about that?
    Mr. Moniz. I think I'm going to need to listen on that and 
get more good ideas. But again the general idea of finding 
mechanisms, especially to leverage private resources, I think, 
would be very, very effective.
    Senator Cantwell. Thank you so much.
    Mr. Moniz. Thank you.
    Senator Cantwell. Senator Portman.
    Senator Portman. Thank you, Madame Chair. I appreciate it. 
You're a good filibusterer.
    [Laughter.]
    Senator Portman. That means you're a good Senator.
    Thank you, Dr. Moniz, for your time today and for having 
the ability to join me yesterday to have some good discussions 
about many of these issues.
    I appreciate what you said earlier in response to Senator 
Udall on the small nuclear modular reactors. As you know the 
SMR program is very important to our State. I think it's 
critical to our energy future and in terms of low carbon future 
certainly nuclear power needs to play a role. I'm not going to 
ask more questions about it because I thought you answered the 
question appropriately to say that you do support the 
deployment and moving forward with the understanding that we 
need to look at the cost side.
    You also talked about fracking and horizontal drilling 
today. I was here for part of your testimony on that as well as 
your response to some questions. As you know it's critically 
important to our State. You and I talked about the importance 
for our energy future, but also for our economy and 
specifically the renaissance of manufacturing or at least the 
potential for it if we don't screw it up.
    Meaning that having that feed stock is important for a 
petrochemical business, but also having that affordable, steady 
supply of natural gas is critical for other energy intensive 
industries. We're seeing some exciting possibilities in Ohio 
and around the country. As you know, companies being able to 
relocate back into States and to add employment at a critical 
time when, as we've seen in that latest jobs numbers, we need 
those jobs badly and particularly the good paying jobs that 
result.
    So those aren't questions I'm going to ask. I'm just going 
to assert on the record that you agree with me on that.
    By the way, Ohio has put in place regulations, actually 
they date back to the 1970s, as you know, and recently updated. 
We want to be sure it's going to be done in an environmentally 
safe way and the State is handling it. So I would appreciate 
your sensitivity to that as well.
    An issue that has come up apparently to attention today 
already is enriched uranium. I believe one of my colleagues on 
the Republican side asked a question about the barter 
agreements and related it to USEC and the so called American 
Centrifuge Project. Those are unrelated.
    As you know the agreement has to do with the cleanup. The 
cleanup is ongoing at the Portsmouth gaseous diffusion plant 
which is in Ohio in Pike County. The cost of that, as you know, 
is significant and the bartering of uranium from the DOE 
stockpile has been critical to keep that project alive. We 
should all be for that because it enables us to ensure that 
there's adequate funding for demolition and waste disposal 
which will save money to the taxpayers over time.
    We also, I think, need to be clear that this directly 
offsets an equal amount of taxpayer funds who would otherwise 
be used. But I just wanted to clarify on the record that barter 
agreement which I support is critical to our cleanup efforts in 
Piketon, Ohio at the Portsmouth Gaseous Diffusion Plant is the 
one related to the barter agreement not the centrifuge 
technology. It's separate.
    Mr. Moniz. Right.
    Senator Portman. So let me ask you a quick question on 
that. Do you intend to continue this program on the barter side 
understanding that the stockpiles are limited?
    Mr. Moniz. Yes, I believe there's an agreement in place 
that already has the forward limits, at least on bartering. I 
think that's part of the overall uranium strategy and the 
cleanup strategy and our ability to pay for it.
    Senator Portman. Thank you.
    With regard to the American Centrifuge Project, as you 
know, I've been involved in this for the last decade. It's 
something that I think is critical for our energy security, 
certainly to have enriched uranium for our power plants. But 
it's also critical for our national security in a few ways.
    One, of course, is we need tritium for our nuclear arsenal. 
I know you're an expert on this. It encourages me that you're 
stepping up to take on this role because I think we need right 
now to focus on that issue.
    Then second, of course, with regard to nuclear 
proliferation we want to be able to tell other countries that 
we have the ability to supply them this enriched uranium. They 
don't need, frankly, to go down that track themselves without a 
domestic source. Obviously it's impossible for us to do that.
    Finally the nuclear Navy, you know, our nuclear Navy 
reactor program depends on this enriched uranium.
    As you know we have this technology at Paducah only now and 
that Paducah plant is being phased out. It requires a lot of 
energy. It's 60 years old. It's inefficient, outdated 
technology. Everyone acknowledges that.
    So what I, if I could, ask you a couple questions.
    One, do you agree with Secretary Chu, who testified on this 
as did Assistant Secretary Peter Lyons that the United States 
must have technology for a fully domestic source of enriched 
uranium to support our nuclear weapons program and the Navy 
nuclear reactor program.
    Mr. Moniz. Yes, sir. It's a requirement that we have 
American origin technology for enrichment.
    Senator Portman. Do you agree that international agreements 
including treaties prevent us from purchasing enriched uranium 
from foreign owned companies for military purposes?
    Mr. Moniz. That is certainly my understanding, yes. Yes.
    Senator Portman. So, again, I appreciate your interest and 
involvement. I know you visited the plant before. As I told you 
yesterday, extend an invitation for you to visit again.
    There are about 120 centrifuges in place. They're moving 
forward with the R, D and D program which has been supported by 
DOE. They expect to have that program completed by the end of 
this year. At that point they'll be amending their application.
    I would ask you today, if confirmed, will you personally 
focus on this application to ensure that this loan guarantee 
program gets the attention it deserves?
    Mr. Moniz. Yes, sir, I will. Certainly the, as you imply, I 
mean the next months will be very important to demonstrate the 
cascade performance.
    Senator Portman. Thank you, Dr. Moniz.
    The final thing I want to ask you about it energy 
efficiency briefly. I know the chairman, who has now returned, 
and I wanted to wait and talk about it in front of him because 
it's always good to talk in front of the chairman about 
something he has said. So that he might actually have a hearing 
on your bill.
    But he indicated he is interested in moving forward with a 
hearing on S. 1000 which was legislation that Senator Shaheen, 
a former member of this committee and I introduced last year. 
We're planning on reintroducing it. We think it will be--the 
legislation will be broadly supported again by a broad range of 
individuals and companies and trade associations including on 
the energy efficiency side, but also a lot of manufacturers who 
are interested in the technology.
    So I would ask you today would you be willing to work with 
us on that to ensure that energy efficiency becomes a focus of 
this Congress and a continued focus of yours. I know you have 
an interest in it.
    Mr. Moniz. I would be very eager to do so. I think 
efficiency, as we discussed, is just an absolutely central part 
of our strategy going forward.
    Senator Portman. I am concerned a little bit about what I 
see happening at DOE under the current leadership with regard 
to the role of the advanced manufacturing office. The direction 
of R and D at the Department seems to evolve a lot. It's 
changing again.
    As I see it this clean energy manufacturing initiative 
that's housed in the Advanced Manufacturing Office is an 
example. According to your Web site it focuses on the--well not 
your Web site.
    Mr. Moniz. Not you----
    Senator Portman. My Web site, soon to be yours. American 
competitiveness and clean energy manufacturing will 
strategically invest in technologies such as solar panels, 
carbon fiber additive manufacturing. To me this seems like a 
shift away from the traditional role of providing energy 
efficiency, deploying technology so it's research rather than 
the deployment. I know that some in the industrial sector are 
concerned about that.
    Is this a mission of the Advanced Manufacturing Office? It 
seems like it's more the mission of ARPA-E in the Office of 
Basics--or the Office of Science, Basic Science. Is it the role 
of the Advanced Manufacturing Office to invest in manufacturing 
of solar panels, for instance or is it more for deployment of 
this technology?
    Mr. Moniz. Senator, I'm going to have to, I think, study 
that, if I'm confirmed, and try to understand the various roles 
and who has what. I do think that it is important somewhere in 
the Department, certainly, to support innovation in 
manufacturing processes because that's an important part of 
cost reduction.
    Second I think it's important to also do what I think you 
inferred to and was done 15 years ago in a program called, 
Industries of the Future which was convening our energy intense 
industries to understand the road maps to improve efficiency 
and save money for them and make them more competitive as a 
result.
    Senator Portman. Yes, I think if you wouldn't mind taking a 
look at that, that would be much appreciated.
    Mr. Moniz. I will do that.
    Senator Portman. I think what you'll find is a lot of the 
industrial sector like the Industries of the Future program. I 
think that's the more appropriate role for that office, not 
suggesting that science and research shouldn't also be done in 
other offices. But this office is the one that exclusively is 
involved in this deployment of the technology and as you say 
providing, kind of, a road map for efficiency.
    I have way overstepped my bounds in terms of time, Mr. 
Chairman. But I appreciate your indulging me. Thank you for 
your comments on efficiency earlier.
    The Chairman [presiding]. Senator Portman, thank you.
    I think you and Senator Shaheen have really been a model 
for going after energy in a bipartisan way. We're going to work 
very closely with you. My view on your energy efficiency bill 
is we ought to bulk it up as strongly as we can because I think 
this is clearly a path forward and there's bipartisan support 
for it. So I look forward to working closely with you.
    The Senator from North Dakota, Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    I particularly came back because I wanted to hear the 
insightful questions offered by the distinguished Senator from 
Ohio, but also to greet Dr. Moniz. As so many have said, thank 
you for taking time to visit with me.
    Mr. Moniz. Thank you.
    Senator Hoeven. I appreciate it. I appreciate your very 
open, congenial attitude about talking with us. I hope and 
believe that will translate into the working relationship as 
well.
    Let me start off my questions with hydraulic fracturing. I 
know you've had some questions on hydraulic fracturing. But my 
first question is do you see hydraulic fracturing across the 
country as the same? In other words is hydraulic fracturing in 
New York and Pennsylvania the same as hydraulic fracturing in 
North Dakota the same as hydraulic fracturing in Texas? Is it 
all just the same?
    Mr. Moniz. They all involve hydraulic and they involve 
fracturing. However, the applications are quite, quite 
different. The shale plays are quite different and----
    Senator Hoeven. Right.
    So you'd say that there's tremendous differences as far as 
hydraulic fracturing in different places across the country, 
right?
    Mr. Moniz. Hmm-hmmmm.
    Senator Hoeven. Therefore, would you say a one size fits 
all approach is the right approach, never as if it's completely 
different across the country does a Federal one size fits all 
approach for every situation work?
    Mr. Moniz. Senator Hoeven, again, what I would say is that, 
you know, first of all at a very high level what is, I think, 
needs to be, kind of, uniform is we need to have best practices 
being used everywhere across the country. Now what those are 
will vary by site. I think there's no question that the states 
will have a very important role.
    Again, the DOE is not doing regulation. But I think just 
the physical realities called for for states to be heavily 
engaged.
    Senator Hoeven. So combining those--and I understand 
obviously EPA is the primary regulator. Your responsibility is 
to help us develop energy and do it with good stewardship. Of 
course, that's what we want. We look forward to working with 
you in that endeavor.
    But based on the things that we're talking about, the fact 
that hydraulic fracturing is different across the country and 
that a one size fits all approach doesn't work, then do you see 
opportunity for the states to really take a lead role and help 
us develop these incredible resources with some fundamental 
safeguards. For example, making sure we have transparency and, 
you know, obviously there's some things that may be common 
across the country. But really isn't there an opportunity here 
to build on a State's first approach?
    Mr. Moniz. I think you're, again, when you say things like 
transparency again is something that is, kind of, a ubiquitous 
principle. Clearly the companies coming in, they are, you know, 
advancing the process according to the local geology. There's 
local water issues to be addressed.
    Once again, I think, there's no doubt. Again, DOE will not 
be involved in regulation. But in terms of some of the 
technology developments, we might be. Those could be applied in 
different ways. Certainly looking at things like the integrated 
use and disposal of water is a place where, again, there may be 
some research developments which could be quite helpful and 
applied in different geologies.
    Senator Hoeven. In order to get to energy security I 
believe we've got to find ways to empower investment. That 
takes some flexibility. But by empowering investment you drive 
the technology deployment that produces more energy with better 
environmental stewardship. Clearly you're going to have a role 
in doing that.
    How do you intend to promote that role? I'm using hydraulic 
fracturing as an example because look at the amazing 
opportunity we have if we empower that investment? How do you 
propose to do it?
    Mr. Moniz. In general looking forward I must say it would 
be wonderful to replicate the historical success of how DOE 
public/private partnerships and policy all come together to 
have take off really, lift off, in a major part of our energy 
sector. So I think those are the kinds of areas that I'd like 
to work with you and others.
    Senator Hoeven. Would you be willing to work with me on the 
type of State's first legislation that would empower more 
investment, as I've described, in things like hydraulic 
fracturing, carbon capture and sequestration and other energy 
development? Are you willing to work on that?
    Mr. Moniz. In this sense----
    Senator Hoeven. Not only the technology----
    Mr. Moniz. Yes.
    Senator Hoeven. But the legal, tax and regulatory 
environment. Because we're going to have to do both to really 
get to the kind of energy security we want.
    Mr. Moniz. Senator Hoeven, I think that really would not be 
appropriate for the Department of Energy to work on that 
legislation directly. However, I would note that one of the 
initiatives that we hope to move forward, again, the so called 
quadrennial energy review which is exactly an environment in 
which all of the relevant agencies across the government will 
be coming together to try to advance a coherent policy. I think 
in this particular sphere the QER would try to address the 
issues that you've raised.
    Senator Hoeven. Mr. Chairman, if I may ask for just a 
couple minutes?
    How do you see advancing clean coal technology and carbon 
capture and sequestration? You've either got to reduce the cost 
or create revenue sources or both? How do you propose to do 
that?
    For example, do you see working with MIT and the Energy 
Environmental Research Center at the University Of North 
Dakota? Is that a way to do it?
    Right now we seemed to be stalled. How do we get that ball 
rolling?
    Mr. Moniz. Since I will be recused from working with MIT, I 
guess it will have to be North Dakota.
    Senator Hoeven. Good answer.
    [Laughter.]
    Mr. Moniz. I think the, again, I think there are various 
different issues to be addressed to get CCS advanced.
    One is long term and I prefer decadal projects of injecting 
large amounts of CO<INF>2</INF>, monitoring it, etcetera. That 
is essential for getting public confidence and getting a 
regulatory system in place. That we can accomplish using some 
of the projects that are now being funded with this nearly $6 
billion.
    On the cost reduction for carbon capture it is, I think, 
and for the beneficial uses of CO<INF>2</INF> both. These are 
areas still in research. I take, in kind of a strange way, I 
take comfort and have confidence that's there's a lot of run 
room to get these costs way down because we haven't done very 
much yet in terms of novel approaches to carbon capture, for 
example or utilization.
    The one exception to utilization is enhanced oil recovery. 
Probably in your part of the world there may be opportunities 
there because I mentioned earlier already we are producing 300 
thousand barrels of oil per day from CO<INF>2 </INF>EOR. The 
estimates are maybe a factor of 10 more is possible. If we can 
do 3 million barrels a day of enhanced oil recovery from 
CO<INF>2 </INF>and pay the CO<INF>2 </INF>capturer $20 or $30 a 
ton and have that cost down. Suddenly we have a very 
interesting situation.
    Senator Hoeven. Dakota Gasification Company currently takes 
coal and gasifies it producing synthetic methane and then 
captures the CO<INF>2</INF>, compresses it, puts it in a 
pipeline and uses it for tertiary oil recovery in the Canadian 
Weyburn oil fields.
    Mr. Moniz. Right.
    Senator Hoeven. There is a lot we can do partnering 
traditional and renewable sources. Are you committed to helping 
us do that and finding ways to drive that forward? It's going 
to take pushing the envelope on some of these things and 
getting people to come together from both the renewable and the 
traditional camps.
    Are you willing to do it? How do you plan to do it?
    Mr. Moniz. The President is an all of the above person. I'm 
an all of the above person.
    Senator Hoeven. But in a practical way you can help drive 
that process?
    Mr. Moniz. I'd be happy to work with you on that, yes.
    Senator Hoeven. Thank you.
    Mr. Moniz. Yes.
    The Chairman. The Senator from North Dakota knows that I'm 
going to work very closely with him on these issues. I'm 
looking forward to coming out to North Dakota and looking at 
your communities that are addressing these questions.
    Senator Hoeven. Mr. Chairman, we appreciate that very much. 
Thank you.
    The Chairman. Thank you.
    Dr. Moniz, just on the point of best practices there's an 
area you'll be able to help us with pretty quickly. The 
committee is going to start natural gas workshops here next 
month. One of them will be on environmental issues and 
particularly with respect to Federal lands.
    It would be natural to have your expertise with respect to 
best practices and part of what you were addressing with the 
Senator from North Dakota. So we'll follow up with you on that.
    Mr. Moniz. Great. If I'm confirmed I'd be happy to 
cooperate.
    The Chairman. Let me ask you about one other question 
quickly and then I want to turn to Hanford because we have the 
good fortune of having my colleague, Senator Cantwell, here. 
I'm going to work very closely with her and the Washington 
delegation on all of those issues.
    The one question before we get to Hanford is the issue of 
energy storage. This has been a source of some frustration both 
for me and for the committee because, as you know, this is a 
field with great promise. This is really a catalyst for the 
expanded use of renewables, particularly when you're talking 
about solar and wind and sources that are intermittent. If we 
can get a serious effort underway in this country to promote 
energy storage, this could really be a spark in the area that 
you and I have been talking: expanding renewables and driving 
the cost down.
    In the past I've introduced, as a member of the Finance 
Committee, tax legislation, for example, to catalyze investment 
in the private sector. But what's been frustrating is trying to 
get the Department to put in place an actual plan on energy 
storage. In effect, to get all those cubicles in the building 
down there, I guess it's the old Forest building together and 
work with the private sector and work with the research 
community to actually develop a technology plan for energy 
storage.
    We have been trying for 3 and a half years, Dr. Moniz, to 
get a response to this request. So my question to you is, as 
you know, I support your candidacy here. Will you commit within 
30 days after you are confirmed to get the committee an actual 
plan on energy storage?
    Three and a half years.
    Mr. Moniz. Yes. First of all, as you know, I completely 
share your view that large scale storage is a key enabler and 
we should be pushing it.
    Second, in my last go round, as you say, working across the 
cubicles was in fact a signature of what we did in terms of 
portfolio development. I will do that again.
    I will definitely push this plan aggressively. I'm 
reluctant on the 30 days, to be honest.
    The Chairman. You want 60 days?
    [Laughter.]
    The Chairman. Let's continue these discussions. I hope you 
see.
    Mr. Moniz. Yes.
    The Chairman. The sense of urgency here. I wouldn't be 
pushing for a date certain if it wasn't for the fact a, this is 
such a promising field, b, it is directly related to the area 
you and I share which is tapping the opportunity for driving 
down the cost of renewables and c, we've been asking for 3 and 
a half years.
    So we'll continue the discussion and think about 60 days.
    Mr. Moniz. I will think about 60 days. I would say my only 
reservation in that is that I feel it's very important to 
convene appropriate individuals, not just from the building, 
but from universities, laboratories, industry and that process 
may take a couple of months.
    The Chairman. That's 60 days.
    Mr. Moniz. But I think expeditiously, yes.
    The Chairman. Great.
    Why don't you--let's leave this. Give us within 30 days a 
date when we'll have it, alright?
    Mr. Moniz. Bingo.
    [Laughter.]
    The Chairman. That wasn't water torture.
    [Laughter.]
    The Chairman. Let me turn to the question of Hanford. As I 
said I've been talking to our Washington colleagues, Governor 
Inslee, the chairman in the House, Doc Hastings, when I was up 
and of course, my friend, Senator Cantwell here.
    I am not a scientist, Dr. Moniz. I have been digging into 
this, you know, Hanford issue now for decades. Sometimes you 
feel on Hanford the more you learn, the less you actually know 
because it is obviously an extraordinarily complicated topic.
    What I have given great weight to over the years is when 
you have an independent, government board layout specifically 
what the problems are. I'm going to ask unanimous consent to 
put into the record the analysis done for me by the Defense 
Nuclear Facilities Safety Board that was done last week and 
without objection that will be done.
    As you know, Dr. Moniz, you and I have gone through some of 
this before. We had a pretty spirited discussion about some of 
these challenges in this hearing room in 1997 when you came 
before us to be confirmed as Under Secretary of Energy. The 
problem, obviously, as documented by the Defense Nuclear 
Facilities Safety Board, has not gone away. Not only are the 
older single shell tanks leaking, but now the first double 
shell tank is beginning to leak. The board noted there's a 
continuing threat of fire and explosions in the tank farm from 
the generations of hydrogen gas. This is a problem that has 
gone on for decades.
    Now the board in their letter also outlines a long list of 
unresolved design issues, starting with the risk of hydrogen 
explosions in the waste treatment plant as well, lack of 
adequate information about the wastes that are going to be 
processed, problems with the design of the waste mixing system 
in the plant, problems with the potential erosion and corrosion 
of the piping in the plant, and problems with the electrical 
system in the plant, to name a few. Again, these are the 
findings by the Defense Nuclear Facilities Safety Board. This 
is not a bunch of people who sort of dabble at it. These are 
independent experts.
    I've got a couple of questions and then I certainly want to 
let my colleague have the last word on this issue. So my 
question to you to begin: Is the Department of Energy's status 
quo at Hanford acceptable to you?
    Mr. Moniz. No, sir, it is not.
    The Chairman. Would you like to outline at this point 
because I have a number of other questions. Going in what is 
your assessment of what needs to be done recognizing that 
you're going in. But we also recognize that you have 
considerable expertise in this because you've got this history. 
Let's get your take on what needs to be done.
    Particularly given the fact that, as the years have gone 
by, the price tag has gone up. Billions of dollars involved. 
What is your take about what the Department of Energy needs to 
do given that you have said the status quo is unacceptable?
    Mr. Moniz. Senator Wyden, let me ask you first, say, going 
back to the spirited discussions that you referred to that when 
I was Under Secretary you pointed out some issues that frankly 
I was--had not been aware of. I think we made some progress on. 
They range from science like really advancing the beta-zone 
science to managing some of the issues that we had at that 
time.
    I think we were successful with moving the K-basin fuel, 
for example, away from the Columbia River. We also, I think, 
addressed at that time the, for lack of a better term, the 
hydrogen burp problem that we had, particularly in one of the 
tanks.
    Now we come today and first I wanted to say that I read 
this very thoughtful DNFSB letter that you requested. Let me 
comment maybe along the lines of the 3 areas that they bring 
out. By the way I mentioned earlier to Senator Cantwell that I 
want to, upon confirmation, assuming I am confirmed go into 
this quite deeply.
    Secretary Chu, I mean, obviously was very much looking into 
this. I might even note that my first meeting with him, the 
first issue he raised was the Hanford technical situation. So I 
will really study this very hard first.
    Second, I will want to go out to the facility to the site, 
understand it in detail.
    I will want to meet, in a serious way, with the DNFSB after 
I've learned more.
    Then, I think, we need to work together to get a real plan 
put forward as soon as we can to go forward.
    Now on the 3 areas.
    The first was with the tank farm. For example, I mentioned 
that we, I think, did resolve that hydrogen burping issue then. 
We had the watch list, etcetera. But of course, hydrogen is 
constantly evolving and 5 of the double shell tanks are in fact 
showing these periodical leases.
    I think DNFSB had recommended and I believe the Department 
adopted recommendation in terms of the ventilation system and 
understanding air flows individually through each tank. Make 
sure we are always well below any risk level in the hydrogen. 
That would be a very important thing to understand in detail 
and to follow up on.
    On the waste treatment facility plant, the WTP, I'm again 
beginning to understand some of the challenges there. As far as 
I could see the statements made by the DNFSB in their letter 
regarding the technical issues are very much along the lines of 
what I heard in my initial, at least, briefing on this subject. 
So there's seems to be agreement, at least, on the major 
challenges. It doesn't make them easy to solve.
    Characterization of the waste remains a challenge. That's 
an area I want to drill down into very hard and make sure we 
understand what the options are.
    Third was the safety culture. There the DNFSB did say that 
the Department had taken a number of positive steps in this 
direction. More work was to be done. I think we have to take 
the attitude that it's simply unacceptable not to have the 
safety culture in a place where we want it to be.
    So those are the 3 key issues. As far as the technical path 
forward and the plan, I suspect the second of those, the waste 
characterization, the feed into a pre-treatment plant, the 
vitrification plant, the issues of the black cells are those 
that we will have to make sure we are on the right track. Then, 
if we are, go do it.
    The Chairman. Let me just spend a couple minutes in each 
one of those areas starting with the tank leaks.
    Now, I think you're aware that when I was a member of the 
House, legislation was passed that would call for the 
monitoring and management of the tanks at risk for leak or 
explosions. The Department since declared that what was on that 
watch list was stabilized. Now we have this recent announcement 
that at least 6 and as many as 20 tanks may be leaking.
    Here's what has troubled me. Again, Senator Cantwell and I 
have talked about this in terms of the role of the Department, 
what the Department's role has been in this. The Department has 
apparently told the committee staff that it would take 2 years 
just to decide whether or not the tanks are going to be 
officially declared as leaking tanks. It's hard to tell the 
people of the Pacific Northwest that it's going to take 2 years 
to determine whether tanks that look like they are leaking are 
in fact officially leaking.
    So I want to again stress the role of the Department of 
Energy here. I don't think it's acceptable to just say we're 
going to take 2 years to make a determination. Will you look at 
that issue specifically and get back to me?
    Mr. Moniz. I will.
    The Chairman. All the members of the Northwest 
Congressional Delegation. It goes right to the heart of the 
responsibilities of the Department.
    Mr. Moniz. I will.
    The Chairman. OK.
    Now on the vit plant, a question with respect to Secretary 
Chu, again, going to the role of the Department. Earlier this 
year Secretary Chu expressed his confidence that construction 
could be restarted on some parts of the waste treatment plant 
other than the pre-treatment facility. The Department has 
suggested that it can simply bypass the pre-treatment facility 
and send radioactive waste directly to these glass, you know, 
melters.
    The safety board, again going to the role of the 
Department, points out that these other parts of the waste 
treatment plant were never designed for, I guess, conceptually 
it's called the direct feed.
    Mr. Moniz. Direct feed.
    The Chairman. Will you address these concerns and get back 
to us? Again they come from the safety board, address these 
concerns about design problems at the waste treatment plant?
    Mr. Moniz. Yes, sir. I certainly saw that in the letter 
very, very sharply, this issue of alternative strategies and 
the board raising potential problems with that. So that's an 
area that's going to need a really deep, deep consideration.
    It's critical because of the whole waste pre-treatment 
plant.
    The Chairman. Finally, as you know, there's been this great 
debate about the safety culture there. Some make this point and 
others make another point. I understand that.
    I met with the whistle blowers when I was at Hanford 
recently. Will you commit to meeting with the whistle blowers 
as well? These are people with extensive scientific experience 
in many instances.
    I think it would go a long way if you would send a message 
that--and I was very glad that you told Senator Cantwell that 
you'd be out for a visit. I think it would go a long way if you 
say that you would personally meet with a group of the whistle 
blowers. We can get you the names and the Washington delegation 
can as well.
    Mr. Moniz. I would be happy to. In addition to meeting, of 
course, with the contractors etcetera and making it clear that 
what the expectations are in terms of the safety culture.
    The Chairman. Let me see if Senator Cantwell has additional 
questions and comments.
    Senator Cantwell. Thank you, Mr. Chairman.
    I certainly welcome your leadership. I don't think I've 
been at a hearing where Hanford and Hanford cleanup has been 
mentioned so many times by the chairman of the committee. So I 
certainly welcome the focus and welcome your visit to the 
Pacific Northwest and your visit at Hanford.
    I guess as I have looked at this over 12 years the 
complexity from the science side of this has always interested 
me. As I said in my statement earlier that I think oftentimes 
people come in as a new Secretary and/or individuals underneath 
the Secretary and propose new ideas. I could provide the 
committee with a long list of those. Some of them have not gone 
so well.
    But I guess from the perspective of some people who've 
talked about reprogramming dollars, which is always a concern, 
away from Hanford because of not being able to understand or 
crack the science. I guess I'm asking you, Dr. Moniz, whether 
you think that this is an issue that we don't know the answers 
on a scientific basis, or yes, these are problems, but any 
project of this magnitude and size is going to have problems 
from a scientific perspective that we have to solve.
    I guess my question is do we know what the issues are? Are 
they solvable scientific problems? Are you committed to making 
sure that the Department of Energy puts forward a budget that 
will help us solve these in a timely fashion so we aren't 
waiting 2 years to find out an answer about tank waste?
    Mr. Moniz. Senator Cantwell, on the first question about 
the scientific situation. I mean, that's what I really have to 
do to make my own mind up I have to go look at it carefully. My 
guess is that I'll come to the conclusion that the key 
uncertainties are identified. But there may be still some 
specifics in there where we'll have to do a little more work.
    That's only a guess. But for example, I mean, I know going 
back years at how different the understanding of the waste 
composition is in different tanks to make sure we understand 
how we can get those tanks--how we can get those wastes 
characterized adequately and maybe mixed in the right way to be 
able to feed the pre-treatment and/or WTP.
    So I think that's the level at which I intend to look at 
this. I can't answer your question today. But I can assure you 
for one thing I'm not out to invent a new theory of these 
wastes. I'd like to be as pragmatic as we can to move the 
project forward.
    Obviously it's been a challenge.
    Senator Cantwell. But I guess what I'm asking is, I'm 
trying to separate out the two different issues.
    One is whether we know enough about the science or are 
these impossible scientific questions. I think that is a little 
more known quantity.
    This perversion that some people are apt to constant--I 
mean, first of all this is one of the largest nuclear waste 
cleanups in the entire world, not just in the United States, so 
the complexity of that process.
    Mr. Moniz. Yes.
    Senator Cantwell. In my mind is a separate issue from the 
complexity of the science and trying to distinguish what are 
big bumps in the road that need to be overcome from a process 
perspective, which are different from the scientific questions.
    It's obviously hard before you dig in to give us a concrete 
answer on the science. But do you see anything at your first 
look at this that these are scientific questions that can't be 
answered?
    Mr. Moniz. I certainly, at this stage, know of no question 
that cannot be answered. I'm just reserving judgment until I--
actually I'd be very surprised if there were a question that 
could not be answered. I was really thinking more about has 
been answered.
    Senator Cantwell. OK.
    Mr. Moniz. That's really the issue.
    Senator Cantwell. So you think these are challenges that 
can be met from a scientific perspective and obviously we need 
to focus on the process here and make sure that the process 
goes smoothly.
    Mr. Moniz. Right.
    Senator Cantwell. I don't know if you have any thoughts on 
that given the magnitude and scale of this project? I have 
always questioned the challenge of how hard it is given the 
size and scale of the vit plant. But that yes, we have to have 
accurate assessments and plans in place. But every step in the 
process, obviously, we find more and more information that we 
have to tackle and understand.
    Mr. Moniz. What I would call part of the process 
uncertainty is--and I just don't know the answer, the level to 
which the systems engineering integration has been done to make 
sure all the pieces are coming together in a way that makes it 
as resource efficient as it can be because I think the resource 
efficiency is going to be important for us to try to move this 
in a, you know, the most timely way.
    Senator Cantwell. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Dr. Moniz, Senator Cantwell obviously makes a number of 
important points. Let me, if I might, just take it in a 
slightly, you know, different direction. I mean, I think it's 
understood that there are tough calls to me made here.
    I was struck at the time that I was up recently in the 
information about the leaking tanks had come out. The Governors 
of Oregon and Washington, you know, two very good Governors, 
very much committed to improvements and reforms, said, well we 
ought to just get some new tanks. Having talked on a bipartisan 
basis then with the Washington Senators and Chairman Hastings I 
think there was a general sense, well, let's see if that's the 
best use of scarce dollars because we're at $12 billion plus, 
you know, at a time of budget sequestration and programs for 
the vulnerable are at stake.
    I think what we're trying to convey is the sense of 
urgency. I believe you have the scientific expertise to come 
in, particularly now since you've said business as usual at the 
Department of Energy on Hanford is unacceptable to you. I think 
that's a powerful statement. I hope it will be regarded by all 
concerned that this is a time to really go forward in a 
thoughtful way, but also in a manner that reflects the urgency 
of the situation.
    This is the most contaminated piece of Federal property. It 
adjoins the life blood of our region, the Columbia River. We've 
got to turn this around.
    That's why when I heard that it was going to take 2 years 
to determine whether tanks that look like they are leaking are 
officially leaking, I said, we've got to get Dr. Moniz in there 
and something like that has got to be addressed. We can't wait 
2 years. That's not acceptable from a public health and public 
safety standpoint to the people of the Northwest.
    Finally let me just say that I've been pleased this morning 
at the breadth of encouraging words you've received from 
Senators on both sides of the aisle. I've heard one Senator 
after another say, Dr. Moniz, I appreciate your reaching out 
and discussing x subject or y subject. I think it's an 
indication that Senators of both parties and all political 
philosophies recognize that this gridlock and this partisan 
bickering on the energy issue which has gone on now for months 
and months has got to give way to some problem solving.
    You have the expertise. It is clear that you've built a lot 
of good will with Senators on both sides of the aisle. I plan 
to support your nomination. I hope we can move expeditiously.
    Let me also say, just as a procedural matter, that all 
Senators will have until noon tomorrow to submit additional 
questions for the record and for you, Dr. Moniz.
    With that, the Committee on Energy and Natural Resources is 
adjourned.
    [Whereupon, at 1:07 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Responses of Ernest J. Moniz to Questions From Senator Wyden
    Question 1. On March 16, 2012, the current Secretary sent a memo to 
the Administrators of the Power Marketing Administrations, (PMAs) the 
Bonneville Power Administration (BPA), the Western Area Power 
Administration (WAPA), the Southwestern Power Administration (SWPA) and 
the Southeastern Power Administration (SEPA) requesting that they 
modify their operations, practices and policies to facilitate 
integration of renewables into the grid and other steps. In the 
Northwest, the Secretary's memo created an uproar because it was seen 
as an effort to manage BPA from Washington, DC instead of in the 
region. In response to the outcry over the proposal, it was narrowed to 
consider only WAPA and a stakeholder process was carried out. The end 
result were recommendations from the Western/DOE ``Joint Outreach 
Team'' on March 6, 2013, most of which require that WAPA consider 
various measures. Will you commit to consult with this Committee and 
key stakeholders before implementing any of the Joint Outreach Team 
recommendations?
    Answer. I have read Secretary Chu's March 16, 2012, memo to the 
Department's four Power Marketing Administrations (PMAs) and subsequent 
March 1, 2013, memo to the Western Area Power Administration (WAPA) 
with the final recommendations of the DOE/WAPA Joint Outreach Team 
(JOT). If confirmed, I would consult with this Committee and key 
stakeholders on implementation of the recommendations, and to do so in 
collaboration with the new Administrator of WAPA, Mark Gabriel, and the 
DOE Deputy Secretary.
    Question 2. There is a great deal of discussion at the Department 
of Energy regarding the possible establishment of what is known as an 
``Energy Imbalance Market'' to facilitate the sale of ancillary 
services needed to integrate variable renewable power sources such as 
wind and solar into the grid. While I generally support efforts to 
promote renewable energy, the Northwest energy market is different from 
other regions. Any effort to promote renewables through new markets 
must take into account the region's unique features and be consistent 
with the obligation of BPA and the other PMAs to provide cost-based 
power to their customers. Will you commit to consult with me and 
stakeholders in the region prior to the Department of Energy, including 
BPA and WAPA, adopting any public position on such proposals?
    Answer. Yes, if confirmed, I will commit to consult with you and 
stakeholders in the region prior to adopting a public position on such 
a proposal.
    Question 3. The four PMAs share a common mission of delivering 
federal hydropower power at cost to publicly-owned utilities. However, 
each serves a different region and operates in different ways. Perhaps 
the most notable difference is that promotion of energy efficiency and 
renewables is an express and core statutory mission of BPA, whereas 
that is not the case with the other PMAs. There are activities the 
smaller PMAs can undertake that benefit renewable energy without 
adverse impacts on their own customers, in particular the WAPA 
transmission system. But care must be taken when doing so. Will you 
commit to take the differences between the PMAs into account when 
developing PMA policies?
    Answer. Yes, if confirmed, I will commit to taking into account 
these differences.
    Question 4. The PMA Administrators currently report to the Deputy 
Secretary of Energy. Will you commit that the PMAs will continue to 
report to the Deputy Secretary in order to assure that significant 
power marketing issues receive appropriate consideration in the Obama 
Administration?
    Answer. If confirmed, I intend to have the PMAs continue to report 
to the Deputy Secretary. I also note that the PMAs have been and will 
continue to be important to the Obama Administration.
    Question 5. PMA ratepayers pay the full costs, with interest, of 
the PMAs' power and transmission systems. Will you commit to oppose the 
privatization of the PMAs and commit to oppose any other proposals 
designed to transfer the value of the PMAs' power and transmission 
systems outside of their respective regions?
    Answer. I am not aware of any effort within the Department to 
privatize the PMAs. If confirmed, I commit to abiding by the governing 
statutes of each PMA.
    Question 6. Will you continue to support regional preference for 
BPA as required by law?
    Answer. If confirmed, I commit to abiding by the governing statutes 
of each PMA, including BPA.
    Question 7. The Congress gave BPA administrative and financing 
flexibilities to allow it to operate in a business-like manner. Will 
you commit to refrain from bureaucratic administrative directives that 
limit BPA's ability to perform its mission efficiently and consistent 
with its business needs?
    Answer. If confirmed, I commit to ensuring each PMA is able to 
perform its mission as efficiently and effectively as possible.
    Question 8. Before proposing any legislative or administrative 
actions which could change the power and transmission operations of 
BPA, will you commit to first discuss and vet those ideas with me and 
my colleagues from the Pacific Northwest and a broad range of regional 
stakeholders?
    Answer. If confirmed, I commit to working with you and the 
Congressional delegation in the BPA region, as well as BPA customers 
and stakeholders, on any major actions that would change the power and 
transmission operations of BPA.
    Responses of Ernest J. Moniz to Questions From Senator Murkowski
    Question 1. How would you characterize our nation's competitiveness 
in the energy sector compared to the rest of the world--in terms of 
technology, specifically, but also in other respects?
    Answer. First we must note the stunning developments of the last 
four years in terms of America's energy competitiveness. Domestic oil 
production has gone up every year, reaching the highest level in well 
over a decade, and the International Energy Agency has predicted that 
the US will be the world's largest producer within a decade. Domestic 
natural gas production has reached the highest level ever, stimulating 
new manufacturing activity and helping to drive CO<INF>2</INF> 
emissions to the lowest level in many years. Renewables have doubled in 
that period. The challenge is to sustain this highly competitive 
position, especially as we continue to move towards a low carbon 
economy both on the supply side and by enhancing efficiency.
    If confirmed, one of my primary responsibilities as Secretary of 
Energy will be to help maintain the US position of global leadership 
and international competitiveness through energy innovation. To do so, 
it is essential that we continue to invest in basic energy science and 
technology development, supported by a range of incentives to promote 
our economic and national security, protect consumers and the 
environment, and help ensure that the government works as an effective 
partner with the private sector.
    I also think that ARPA-E, the EFRCs and the innovation hubs--
relatively new DOE programs focused on strategic basic energy science, 
transformational technologies and key links in the energy value chain 
including academia, industry and finance--will help maintain US 
economic competitiveness. DOE's national laboratories are another 
critical element for maintaining this competitive edge. These labs 
aggregate enormous talent and brainpower, and provide large platforms 
for a range of energy research activities, including computational, 
simulation and modeling capabilities among others.
    Finally, as I noted in my testimony, I intend to work with the 
White House and other agencies to implement the recommendation of PCAST 
that there be a Quadrennial Energy Review, focused on developing and 
implementing a roadmap for transforming how we produce, distribute and 
use energy. Such a review must necessarily focus on improvements in the 
suite of existing energy technologies, at the same time it enables 
investment in and deployment of new technologies to support a low-
carbon energy future. The appropriate sequencing of these investments 
and the underlying incentives the federal government might employ to 
maximize their value and impacts should also be an important component 
of such a review. This approach will provide key underpinnings for the 
President's all-of-the-above energy strategy, which I strongly support.
    Question 2. The Department of Energy has consistently 
underperformed other Federal agencies in using highly qualified small 
and disadvantaged business to achieve their programmatic goals. There 
is concern that DOE may have missed valuable opportunities to 
contribute to the economic recovery by failing to use such businesses. 
If confirmed, will you commit the Department to meeting its assigned 
goals for contracting with small, disadvantaged business?
    Answer. The President's ambitious energy goals cannot be met 
without harnessing small business innovation and talent. If confirmed, 
I will look into the Department's performance with respect to meeting 
its prime small business contracting goals and commit to identifying 
and implementing strategies towards achievement of its programmatic 
goals.
    Question 3. DOE's tardiness in response to questions for the record 
(QFR) last year was indefensible. The Committee held a hearing on DOE's 
budget in February 2012 but did not receive the agency's answers for 
the record until late December--a full 10 months later. The Committee 
also conducted a hearing on the Clean Energy Standard in May of 2012 
and did not receive answers to written questions until this year, 
January 2013. This is obviously unacceptable. Will you commit to this 
Committee that the Department will respond in a timely manner to QFRs 
posed to DOE witnesses?
    Answer. If confirmed, I can commit to responding to the Committee's 
questions in a timely fashion to the best of my ability.
    Question 4. The recent Executive Order on cybersecurity and the 
accompanying Presidential Policy Directive identify DOE as the sector 
specific agency for energy for implementation purposes. Please discuss 
your vision for the agency's role in this process. Do you anticipate 
needing additional Congressional authority to deal with cyber threats 
and vulnerabilities?
    Answer. If confirmed, I would fully expect the Department of Energy 
to continue to execute its responsibilities as the Energy Sector-
Specific Agency, as it has since 2003. If confirmed, I intend to study 
our existing authorities carefully to make an informed judgment on 
whether additional authorities would be necessary.
    Question 5. Given the priority of the Electricity Sub-sector 
Coordinating Council and the Electricity Sector-Information Sharing and 
Analysis Center in the Executive Order's efforts on cybersecurity and 
information sharing, please detail how DOE will continue to support 
these efforts.
    Answer. I understand that the Department supports efforts of the 
Electricity Sector Information Sharing and Analysis Center (ES-ISAC) at 
NERC to enable sector-wide cybersecurity coordination, trust, and 
engagement among participants, as well as rapid analysis and 
information sharing with the sector and its partners. The ES-ISAC 
serves a vital role within the Electricity Sector to increase the 
knowledge and understanding of physical and cyber threats that could 
potentially affect sector operations and grid reliability across the 
United States. ES-ISAC, in collaboration with the Department of Energy 
and other partners, should serve as the primary communications channel 
for the Electricity Sector and enhance the ability of the sector to 
prepare for and respond to cyber and physical threats, vulnerabilities, 
and incidents.
    Question 6. Please explain your view of the role of DOE's Office of 
Electricity Delivery and Energy Reliability (OE) in the cybersecurity 
effort. How do you anticipate OE working with the Federal Energy 
Regulatory Commission and the North American Electric Reliability 
Corporation on cybersecurity issues?
    Answer. The Office of Electricity Delivery and Energy Reliability 
(OE) plays an important role in protecting energy infrastructure from 
cyber attacks. I understand that OE has ongoing efforts to improve 
cybersecurity technologies and capabilities through research and 
development, as well as to enhance situational awareness and further 
operational capabilities that strengthens cybersecurity protections and 
to increase the resiliency of the Energy sector. If confirmed, I intend 
to work closely with the Federal Energy Regulatory Commission (FERC) 
and the North American Electric Reliability Corporation (NAREC) on 
cybersecurity issues.
    Question 7. In the past you have described environmental challenges 
related to unconventional gas development as ``manageable.'' Is this 
still the case? Please elaborate.
    Answer. The current increase in domestic shale gas production 
provides important economic and energy security opportunities for the 
United States. To sustain public confidence and fully realize the value 
of these resources, we need to develop them safely and responsibly and 
minimize their environmental impacts. This is challenging but 
manageable in the sense that best practices using available 
technologies can in fact minimize the environmental footprint. New 
technologies can shrink that footprint even more.
    Question 8. You have also expressed the importance of natural gas 
as part of the U.S. energy portfolio. Do you continue to believe that 
natural gas is an important piece of an ``all of the above'' energy 
strategy for the U.S.? Please elaborate on the role you foresee natural 
gas playing in helping move our economy forward.
    Answer. Natural gas is a key component of the Administration's all-
of-the-above energy strategy and an important part of the nation's 
energy supply. A highly successful mix of federal research support, tax 
policy and public-private partnerships has enabled us to affordably 
produce the nation's abundant shale gas resources; US reserve estimates 
now exceed 100 years of supply at current rates of consumption.
    Natural gas and natural gas liquids also play a key role in 
economic development. Low US natural gas prices compared to those in 
other gas-consuming markets in the world are helping to reinvigorate 
key manufacturing and chemical businesses. Furthermore, the market-
driven increased use of natural gas in power generation has helped to 
mitigate CO<INF>2</INF>, criteria pollutant and mercury emissions from 
the power sector.
    Question 9. If confirmed, what role do you believe the Department 
should play in ensuring the continued and increased production of 
natural gas, particularly on federal lands where development has not 
kept pace with production on state and private lands?
    Answer. As you know, the Department of the Interior and the 
Department of Agriculture are the lead Federal Agencies responsible for 
managing oil and gas development on federal lands. However, I believe 
DOE can play a role in promoting best practices related to natural gas 
extraction, helping to promote technology development and technology 
transfer for environmentally responsible production, helping to convene 
industry discussions, and engaging in data collection.
    Question 10. As you know, the public comment period on the 
Department's LNG export study is over. The purpose of this study was to 
help inform the public interest determination the Department must make 
to approve natural gas exports to countries with which the U.S. does 
not have a free trade agreement. Importantly, the macroeconomic 
analysis completed by NERA at the Department's request found that the 
U.S. would experience net economic benefits from increased exports of 
LNG under all export scenarios analyzed, and the greater the level of 
exports, the better for the U.S. economy. Do you support LNG exports? 
Do you believe existing laws and regulations are sufficient to move 
forward and review the pending applications? If confirmed, what are 
your plans to ensure these applications are reviewed, as required by 
law, and decisions made on a timely basis?
    Answer. The President is committed to the safe and responsible 
production and use of natural gas, and I share this commitment. With 
regard to exports of natural gas, I am aware that the Department has 
pending decisions for applications to export LNG to non-FTA countries. 
My understanding of the Natural Gas Act is that when considering 
applications to export to non-FTA countries, the statute requires the 
Department to conduct a public interest determination review prior to 
the issuance of authorization orders. If confirmed, I am committed to 
ensuring that DOE makes transparent decisions in the public interest 
based on unbiased analysis and that it acts on these applications as 
expeditiously as possible.
    Question 11. The EPA is in the process of writing rules related to 
climate change and other issues, which will have a significant impact 
on every facet of the nation's energy sector, including new and 
existing coal plants. I remain concerned about the impact of these and 
other rules on the affordability and reliability of our energy supply. 
In the past, DOE has often advocated for energy supply--including 
affordability and reliability--but that role has diminished 
substantially in recent years. What role do you see DOE playing in 
these ongoing EPA rulemakings? How will you assert yourself in the 
interagency processes related to them? Will you commit yourself to a 
more vigorous engagement in favor of energy supply on behalf of DOE in 
interagency collaboration and interagency review related to 
environmental policies and rules?
    Answer. DOE, as the preeminent supporter of federal energy research 
and technology development, including significant analytical, modeling 
and simulation expertise, often has a role in supporting EPA and other 
agencies on the rulemakings and regulations being developed to protect 
public health and safety.
    If confirmed as Secretary, I will work to ensure that these 
capabilities are used adequately to help meet the nation's needs for 
affordable, reliable, clean and secure energy supplies while addressing 
the significant environmental challenges associated with energy 
production and consumption. I also hope to help strengthen the 
interagency review processes through the Quadrennial Energy Review 
recommended by PCAST; this recommendation necessarily envisions a 
strong role for the Department of Energy both for developing energy 
solutions and informing larger policy decisions about energy and its 
impacts on the environment.
    Question 12. Specific to coal-fired power, do you think that 
compliance with EPA rules should be possible with commercially 
available technologies, or do you think it is defensible to write them 
in a way that essentially bans new coal plants, shuts down some 
existing coal plants, and causes fuel-switching on a large scale?
    Answer. While EPA is responsible for the regulation of coal-fired 
power plants, the Department of Energy is well-positioned to work with 
the EPA, industry, and other stakeholders to help inform its decisions. 
DOE also supports research on technologies to enable an affordable 
transition to a low carbon economy, including carbon capture and 
storage (CCS) for coal plants. The objectives of the CCS program are to 
understand long-term storage and to reduce the cost of CO<INF>2</INF> 
capture. Since 2009, DOE has invested nearly $6 billion in CCS 
development; if confirmed, I will continue this commitment, within the 
budget constraints set by the Congress.
    Question 13. DOE has recently embarked on an internal assessment of 
all of the R&D work and other activities related to the energy-water 
nexus. How can DOE work with other agencies and organizations (e.g., 
DOD, DOI's Bureau of Reclamation, EPRI, utilities) to productively 
address future coordination, best practices and R&D needs? How do you 
see the work of DOE being most effective in helping to reduce the risks 
and intensity of the energy-water relationship?
    Answer. The water-energy nexus is a growing policy concern and 
challenge. Relevant authorities are distributed across many agencies; 
even within DOE, these issues cut across many programs. Fully 
understanding the implications of this challenge also needs to be 
informed by sound, consistent and systematic data bases.
    DOE can play a leadership role by bringing more analytical capacity 
and capability to issues at the energy-water nexus, drawing on 
expertise in R&D programs and engaging the strengths of the national 
labs. Through the Quadrennial Energy Review, DOE can also provide a 
platform for multi-agency engagement with the energy-water nexus. 
Importantly, many issues surrounding the energy-water nexus affect 
assets owned and operated by private sector entities; developing 
public-private partnerships in this area can help leverage DOE 
capacity.
    If confirmed, I look forward to continuing the Department's focus 
on understanding and reducing risks related to the water-energy nexus.
    Question 14. There is broad consensus that legislation to deal with 
the long-standing issues of nuclear waste stockpiles in this country is 
a top priority. The DOE has recently issued its response to the BRC 
recommendations. What is your view on the path forward vis-a-vis the 
BRC recommendations and DOE's response?
    Answer. I believe the Administration's response to the BRC 
recommendations reflects its broad agreement with those 
recommendations, including the BRC's call for a consent-based siting 
process, prompt efforts to develop consolidated storage and disposal 
facilities, the establishment of a new organization dedicated to 
implementing a nuclear waste management program and empowered with the 
authorities and resources to succeed, and timely access to funds 
dedicated to the waste management mission in the amounts needed. 
Clearly, implementation of most of these recommendations will require 
legislative action by Congress, and I am encouraged by the commitment 
of the leadership of Senate Energy and Natural Resources committee and 
the Senate Energy and Water Appropriations subcommittee to craft 
legislation along the lines of the BRC report. If confirmed, I commit 
to work with you and other interested members to help develop 
legislation to establish a nuclear waste management program consistent 
with the BRC and Administration goals and then to implement the program 
with high priority.
    Question 15. The Department of Energy has signed an agreement with 
Babcock & Wilcox as the initial winner of the SMR Licensing Technical 
Support Program for their mPower design. A second SMR funding 
opportunity announcement was recently issued for up to two more 
designs. What role do you envision for small modular nuclear reactors 
in the domestic and international energy markets in the future?
    Answer. Small modular reactors (SMRs) have considerable potential. 
SMRs can be made in factories and transported to sites where they would 
be ready to ``plug and play'' upon arrival, reducing both capital costs 
and construction times. The smaller size also makes SMRs ideal for 
small electric grids and for locations that cannot support large 
reactors, as is the case in many international settings. In addition, 
the modularity offers utilities in both developed and developing 
markets the flexibility to scale production as demand changes and to 
spread out capital commitments and manage risk, potentially leading to 
more favorable financing terms than would be available for today's 
reactors of 1000-1600 megawatts (electric) Furthermore, most SMR 
designs have very attractive safety and security features. The US has 
an opportunity to lead the market globally, creating manufacturing jobs 
and business opportunities.
    In order to realize the promise of SMRs as the next generation of 
nuclear energy technology, the economies of manufacturing (learning by 
doing, quality assurance, dedicated work force,.) need to be 
demonstrated.
    Question 16. With the attempted withdrawal of the Yucca Mountain 
license application and the proposed termination of the only expressly 
identified permanent repository for high-level radioactive waste and 
spent nuclear fuel, do you believe that the fees so far collected and 
deposited in the Nuclear Waste Fund under Section 302 of the Nuclear 
Waste Policy Act of 1982 are in excess of the amount needed to meet the 
repository's costs? Do you believe an adjustment of the fee is in 
order?
    Answer. My understanding is that this issue is currently being 
litigated in federal court, and I am not familiar with the details of 
the arguments in that litigation. I understand that the Secretary makes 
an annual determination about the fee adequacy and his most recent 
Nuclear Waste Fund fee adequacy assessment did not propose an 
adjustment at the present time. If confirmed, I would look forward to 
learning more about the analysis that has gone into determining 
adequacy so as to guide future determinations.
    Question 17. What are the research priorities in the advanced 
reactors program and how are these going to be implemented given 
current budget constraints?
    Answer. I believe advanced reactors offer potential advantages of 
improved safety and reliability, economics, sustainability, and 
proliferation resistance and physical protection. Some advanced 
reactors and fuel cycles may offer waste management benefits. Improved 
safety and reliability can be achieved from the use of passive safety 
features, advanced fuels and inherently safe design features. I 
understand that DOE is currently focused on two primary advanced 
reactor candidates-high temperature gas reactors and sodium-cooled fast 
reactors. Through DOE, the U.S. currently chairs the Generation IV 
International Forum, comprised of thirteen countries working together 
to lay the groundwork for the fourth generation of advanced nuclear 
energy systems. If confirmed, I will work to leverage efforts with 
universities, industry and the international community as necessary in 
these times of fiscal constraint.
    Question 18. What is your view of future nuclear waste reprocessing 
needs and associated R&D needs?
    Answer. The Department has an advanced fuel cycle research and 
development program to help develop potential future options for 
nuclear waste reprocessing. I support targeted investments in R&D that 
explores these potential long-term options, even as we move forward in 
the near-term with implementing the Administration's nuclear waste 
management strategy focused on interim storage and permanent disposal. 
This is consistent with the Blue Ribbon Commission recommendations.
    Question 19. Many within the domestic fusion industry believe that 
they are ready to move beyond the science focus on how to achieve 
fusion to a more energy-focused program on fusion materials and 
technology. What is your view on the future of fusion energy? With the 
debate between funding ITER or funding our domestic industry, are we 
seeing leadership on fusion energy move overseas? Can the United States 
financially continue its support for both the international ITER 
project while building upon the success that our domestic companies are 
having in the fusion industry?
    Answer. ITER is a partnership of 6 countries and the European 
Union, and is the culmination of decades of magnetic fusion research. 
ITER is based on decades of effort by the international science 
community to establish the scientific basis for fusion energy and 
demonstrate the transformative potential of fusion as an energy 
resource. It is my understanding that 80 percent of the U.S. 
contribution to ITER is spent domestically, with in-kind components 
built in the U.S. and delivered to the project site in France. The US 
fusion science community also plays a strong role in developing 
modeling tools that will be important for understanding the 
experimental data. Consequently it is fair to say that the US is among 
the fusion R&D leaders even though ITER is in Europe.
    I believe it is also essential that we invest in innovative fusion 
concepts and plasma science in our universities and laboratories. The 
Office of Science has a long tradition of working with its various 
science communities for setting strategic priorities. If confirmed, I 
intend to strongly support the established procedure of seeking 
research community input for long range planning within realistic 
budget profiles, both for fusion and for other Office of Science 
programs.
    Question 20. Do you view the EMP issue as a national defense issue, 
a power issue, or both?
    Answer. EMP is both a national defense and power issue. If 
confirmed, I intend to study the EMP issue further and evaluate the 
adequacy of current R&D efforts.
    Question 21. What do you view as your responsibility, if confirmed 
as Secretary of Energy, to protect the nation's electric grid in the 
event of an EMP attack? How do you view the role of FERC and NERC in 
dealing with these issues?
    Answer. DOE has worked very closely with NERC on a geomagnetic task 
force to develop recommendations for industry in response to a space 
weather EMP event. I understand that DOE also co-sponsored and 
partially funded a study with FERC on the effects of geomagnetic 
induced currents on our electric grid. That study led to the 
establishment of NERC's GMD (Geomagnetic Disturbance) Task Force in 
addition to a High-Impact, Low-Frequency Events Working Group also 
facilitated by NERC. If confirmed, I expect to continue this close 
collaboration.
    Question 22. What are your thoughts on the 2004 and 2008 EMP 
Commission reports?
    Answer. My understanding is that these two EMP Commission reports 
were prepared for the Department for Defense (DoD). These reports 
exclusively focused on nuclear attacks, where DoD has the lead in 
response, rather than a space weather event, which would fall under the 
jurisdiction of the Department of Energy. If confirmed, I will review 
the report with an eye towards any further actions that the DOE should 
take now.
    Question 23. What is your view of the role of the DOE national labs 
in advancing technology R&D and basic science research for DOE and the 
nation given recent reports that raise doubts and questions about 
duplication of efforts across the lab complex and diminished focus on 
original mission areas?
    Answer. I am guided by the principle of making the most efficient 
use of our precious research funds, and if confirmed, I will evaluate 
the merits of all of the Department's research efforts to ensure that 
we are not wasting money through duplication. I will say, however, that 
in my experience critics of research areas often see duplication 
because they are not looking at projects or programs with sufficient 
granularity and may miss key distinctions. If confirmed, I will enhance 
the mechanisms for coordinating laboratory institutional plans with 
each other and with the DOE research portfolio structure.
    Question 24. What, in general, is your view of where this nation 
should be headed in development and promotion of renewable energy? What 
types of technologies should we be promoting, at what level of 
budgetary effort, and how do we avoid picking ``winners and losers'' in 
funding renewable energy research?
    Answer. If confirmed, my attention on renewables will focus on 
three things: lowering the cost of renewable technologies to achieve 
price competitiveness with traditional sources of energy; accelerating 
the transition to a low-carbon economy; and assuring we have the key 
enabling technologies needed to enable renewables deployment at scale 
(21st century grid, energy storage, energy critical materials,. . .). 
This will entail an integrated portfolio management approach across DOE 
offices and activities, as well as engagement with the private sector, 
academia and the national labs.
    If confirmed, the relative maturity of the technologies will be 
evaluated against key strategic goals and funding levels. It is my 
intention that the Quadrennial Energy Review and the subsidiary 
Quadrennial Technology Review, both recommended by PCAST, will help 
inform our renewable energy research and development investments, 
including their sequencing and what types of policies or incentives 
might accelerate the wide-scale deployment of renewable technologies. 
For renewable electricity, wind and solar will continue to be advanced, 
but ``forgotten renewables'' such as novel hydropower and geothermal 
technologies are also promising.
    As discussed at my confirmation hearing, both the American Energy 
Innovation Council, a group of leading CEOs, and PCAST came to the 
conclusion that Federal energy science and technology funding is about 
a factor of three too low, but budgets are likely to be constrained for 
the next several years. If confirmed, I hope to work with the Congress 
to seek creative ways to expand clean energy research, development, 
demonstration and deployment, including through expanded public-private 
partnerships.
    Question 25. Hydropower provides the largest amount of renewable 
electricity in the United States today. Indeed, hydropower provides 
almost two-thirds of all renewable generation and 8 percent of total 
U.S. electricity generation. In Alaska, hydropower accounts for 98 
percent of renewable generation and approximately 24 percent of total 
electricity generation. Alaska is aiming to grow our hydropower 
resources to meet pressing energy needs. What is your view on the role 
of hydropower as part of our nation's electricity portfolio--now and in 
the future?
    Answer. Hydropower is a key contributor today and is an important 
part of the President's all-of-the-above energy strategy. I believe 
that further innovation and advancement of hydropower technologies are 
both possible and necessary to lower the costs of initial 
installations; minimize environmental impacts in a timely, low cost 
way; encourage the development of new hydropower generation, including 
micro-generation; and lower the costs of pumped hydro storage, an 
important storage option for other power generation technologies. 
Hydropower is also poised to expand internationally and novel 
technologies, such as small hydro, could present interesting business 
opportunities.
    Question 26. In addition to being a renewable energy resource 
itself, hydropower provides electric grid benefits to integrate other 
variable energy resources, such as wind and solar, and ensure 
reliability. In fact, U.S. hydropower is being asked to do more in 
these areas than many other sectors. Yet, historically, the DOE 
Waterpower R&D program (for both hydropower and marine and hydrokinetic 
technologies) is one of the lowest funded and minimally staffed 
programs in the EERE Office. What is your opinion on R&D funding for 
conventional hydropower? For marine hydrokinetics?
    Answer. Hydropower plays an important role in meeting our nation's 
energy needs and can become even more important as a storage vehicle 
for large scale renewables. It is my understanding that DOE's Water 
Power Program is committed to developing and deploying a portfolio of 
innovative technologies for clean, domestic power generation from 
hydropower, waves and tides. As we discussed, there is renewed interest 
and promise in technologies such as small hydro, and perhaps 
significant business opportunity as well. If confirmed, I will review 
the status, scale and priorities of the Water Power Program in the 
context of the Quadrennial Technology Review update.
    Question 27. The 2007 Energy Independence and Security Act 
contained grants programs to aid in the actual construction of 
renewable energy projects (Section 803 for all renewables and Section 
625 for geothermal projects in high-cost areas). DOE, however, has 
never proposed to fund these programs, even in the 2009 American 
Recovery and Reinvestment Act which funded numerous programs authorized 
by the 2007 energy bill. What is your view of these statutory 
provisions to construct renewable energy projects?
    Answer. Geothermal could be an important generation technology as 
it is a renewable form of energy capable of providing baseload power 
without the need for large scale storage. I support the President's 
all-of-the-above energy strategy, and the increased deployment of 
geothermal and renewables more broadly is an important part of that 
plan. If confirmed, I will review these sections of the Energy 
Independence and Security Act and integrate these considerations into 
the Quadrennial Energy Review process.
    Question 28. Do you commit to upholding the statutory mission of 
the Power Marketing Administrations (PMAs) to give preference to 
public, municipal, and rural electric customers, and market PMA power 
at the ``lowest possible rate consistent with sound business 
practices''?
    Answer. Yes, if confirmed, I will abide by the governing statutes 
of each PMA.
    Question 29. As you may be aware, there was significant bipartisan 
and bicameral concern over a March 16, 2012 memorandum by Secretary Chu 
to the Power Marketing Administrations, directing significant changes 
in the way the PMAs operate. That memo called for the PMAs to undertake 
work outside of their mission to market federal hydropower to 
preference customers--such as serving as test beds for cybersecurity 
and advancing electric vehicle deployment. I was one of approximately 
160 signatories to a June 5, 2012 letter to Secretary Chu expressing 
concern with this unilateral directive and asking for stakeholder 
collaboration. Do you support the policy directives outlined in 
Secretary Chu's March 16, 2012 memo? If so, please explain your 
rationale. How do you intend to handle the concerns raised by Congress 
with regard to the PMAs? Do you expect the preference customers to pay 
for the policy initiatives set forth in the Chu memo?
    Answer. I have read Secretary Chu's March 16, 2012 memo, and, if 
confirmed, I look forward to further understanding the unique 
challenges and opportunities faced by each PMA. I pledge to work with 
you and the stakeholders in each PMA region to ensure the PMAs are 
operating as efficiently and effectively as possible, both now and in 
the future.
    Question 30. It is my understanding that while Secretary Chu's 
March 16, 2012 memo endorsed an energy imbalance market (EIM) for the 
Northwest, the Department's final recommendations instead noted the 
ongoing Northwest Power Pool effort to consider an EIM, including its 
costs and benefits. Do you support utilities' efforts to evaluate these 
tools at the regional level with regional solutions, as opposed to a 
top-down federal directive?
    Answer. I fully recognize and appreciate the benefits of 
collaborative regional evaluation and solutions to the challenges and 
opportunities of an EIM. If confirmed, I will work with the Northwest 
Power Pool to jointly determine the best mechanisms for capturing 
economies of scale within the Pacific Northwest.
    Question 31. What role do you envision for OE in terms of grid 
reliability and resiliency, such as in dealing with major storms like 
Sandy? Or, in dealing with anticipated plant closures or natural gas 
supply and co-ordination issues that could adversely impact the 
nation's grid system?
    Answer. The Office of Electricity Delivery and Reliability (OE) 
serves as the federal government's energy sector specific agency in 
responding to energy emergencies and national security, both physical 
and cyber. To that end, OE is prepared to respond to all hazard events 
and situations that disrupt energy supplies and systems.
    Recent events, such as Superstorm Sandy, have reinforced the need 
for a reliable and more robust Federal analytical ability to not only 
help emergency responders but enhance predictive capabilities to 
identify at-risk assets in advance of events and also to advice key 
decision makers about necessary response actions.
    Currently, OE has the capability to conduct risk analyses and 
reliability assessments of the nation's energy systems. I understand 
that OE plans to expand this capability by developing simulation and 
predictive analytic tools that are critically needed to provide real 
time situational awareness to assist federal, state and local agencies 
in their coordination and response to energy supply disruptions such as 
electricity and fuel outages. This capability provides decision makers 
with mitigating solutions for energy resilient approaches. In addition, 
it can highlight co-dependencies of different energy and communication 
infrastructures and their importance for emergency response 
prioritization.
    Question 32. The Weatherization Assistance Program under EERE, 
which has been around since 1976, has come under some serious scrutiny 
since it received $5 billion under the American Recovery and 
Reinvestment Act (ARRA). This included several reports by the DOE's 
Inspector General detailing waste, fraud and abuse throughout the 
program. Now that the ARRA funds for weatherization are exhausted, 
proponents of the program say that it needs substantially more funding. 
Additionally, the program is due to be reauthorized, and there are 
proposals to ``enhance'' it. In your view, what does the future hold 
for the Weatherization program?
    Answer. I support the President's strong commitment to energy 
efficiency and conservation, which included his recently announced goal 
to double American energy productivity by 2030. The Weatherization 
program plays an important part in helping accomplish that goal.
    It is my understanding the program has largely been successful and 
has produced tangible results nationwide but, if confirmed, I will 
carefully review the IG's recommendations, ensure they are being 
implemented, and work to ensure that the program works to meets it 
overall goals while maintaining the highest standards for transparency 
and accountability. If confirmed, I will work to ensure that all 
personnel in the Department act as responsible stewards of taxpayer 
dollars; waste, fraud and abuse is unacceptable.
    Question 33. Since 2008, the Alaska Housing Finance Corporation's 
(AHFC) Weatherization Program has invested more than $205 million to 
improve the energy efficiency of an estimated 10,500 Alaska homes used 
by lower-income renters and owners, serving primarily the elderly, 
those with disabilities or families with children younger than age six. 
In the past, DOE has been supportive of these efforts and ``AKWarm,'' 
the Home Energy Rating software program that has been used in Alaska 
for many years. The IRS, however, has yet to approve AKWarm for use in 
the calculation of energy consumption, denying Alaskans important tax 
benefits for energy efficiency. Will you commit to work to resolve this 
issue?
    Answer. While I am not familiar with this specific issue, if 
confirmed, I will ensure that the appropriate DOE program staff work 
with the IRS, stakeholders and your office to better understand these 
concerns with the goal of finding reasonable and timely solutions in 
accordance with applicable laws, regulations, and Administration 
policy.
    Question 34. The Department of Energy has been establishing energy 
conservation standards for consumer products since 1979. Over the 
years, many of these products have been regulated to the point where 
there may be little more opportunity for increased energy savings, but 
there could be significant costs associated with such an effort, 
including financial burdens to large and small manufacturers and job 
losses. At what point does the agency consider that, as a practical 
matter, a product is at the limits of its efficiency or cannot be made 
more efficient given marketplace or manufacturing realities? Is there a 
next step, which may include the use of efficiency systems, 
encompassing buildings and consumer products as a whole and not a 
prescriptive product-by-product approach? Please elaborate.
    Answer. It is my understanding that energy efficiency standard 
programs have reduced manufacturers' regulatory burden and costs, and 
therefore costs to consumers, by providing single national standards in 
place of a patchwork of state-by-state standards. The Rulemaking 
Standards in place have been authorized by Congress and it is my 
understanding that the current process engages stakeholders across the 
spectrum to mitigate any potential issues regarding cost-effectiveness, 
technical feasibility, or economic impact. Cost-benefit analysis is an 
important part of the process. If confirmed, I pledge to pursue 
policies that will achieve the President's energy efficiency goals and 
will work to gain a better understanding of the program to help ensure 
its success. It is my intention, if confirmed, to enhance the 
analytical capabilities of the Department to enable us to better 
understand, calculate and maximize energy savings from systems. The 
Quadrennial Energy Review process recommended by PCAST should be 
informed by and include such analysis.
    You also raise an important issue about the efficiency of systems, 
such as whole buildings including their energy-consuming devices and 
operations. However, I am not now familiar with the state of analysis 
concerning system versus component efficiency tradeoffs. If confirmed, 
I would like to consult with the appropriate stakeholders and the 
Congress to explore approaches to measuring and encouraging system 
efficiency.
    Question 35. Regarding product standards, there have been instances 
of consensus agreements among product manufacturers and non-government 
energy efficiency advocates submitted to the DOE. However, the agency 
has not taken advantage of these consensus agreements. Is it correct to 
say that if the agency adopted these consensus agreements, they could 
save both money and time in bypassing the lengthy regulatory process? 
Is there some reason why the DOE would not accept an appliance 
efficiency standard consensus agreement and instead go through the 
rulemaking process?
    Answer. I am not familiar with the details of these consensus 
agreements and the Department's response. However, if confirmed, I 
commit to working within DOE and with the appropriate stakeholders to 
better understand the issues associated with these consensus agreements 
with the goal of finding the least costly, most effective solutions.
    Question 36. Alaska has more than 25 billion known barrels of Heavy 
Oil in tar sand deposits at the Hartselle and Kuparuk River oil 
fields--more than the conventional oil likely to be produced at the 
neighboring Prudhoe Bay oil field over its entire life. But producing 
that oil is going to require new technologies, research that is not 
economic for any one company to conduct. In your view, what is the role 
of the Department, if any, to conduct research into heavy oil 
extraction technologies?
    Answer. I appreciate the potential of Alaska's reserves of heavy 
oil. As you know, development of heavy oil extraction technologies has 
not been a significant part of DOE's R&D portfolio. That said, the safe 
and environmentally sustainable production of America's energy 
resources are a core mission of DOE's Office of Fossil Energy. In a 
challenging budget environment, DOE must work with Congress to make the 
most effective use of limited taxpayer dollars across the entire 
research portfolio. If confirmed, I commit to working with you to 
examine whether expanding DOE's R&D portfolio to advance research into 
heavy oil extraction should be part of a comprehensive national energy 
policy. Public-private partnership opportunities should be explored.
    Question 37. My home state has vast potential conventional 
geothermal power resources which could be further boosted by means of 
Enhanced Geothermal System technology. What is your view of the role 
that geothermal should play in the nation's future energy mix and what, 
if any, types of new research would you like to see the Department fund 
(and at what level)? DOE has provided financial assistance to several 
geothermal projects in Alaska, including at Naknek, Chena Hot Springs, 
and Pilgrim Hot Springs. Do you support continuation of such assistance 
for geothermal research and demonstration projects?
    Answer. Geothermal is an important generation technology in several 
parts of the US. It is a renewable form of energy capable of providing 
baseload power without the need for large scale storage. I support the 
President's all-of-the-above energy strategy and the Department's role 
in driving down renewable energy costs to accelerate the transition to 
a low-carbon economy; the increased deployment of geothermal and 
renewables more broadly is an important part of that plan.
    A 2006 report on the Future of Geothermal Energy concluded that, 
with a reasonable amount of R&D, Enhanced Geothermal Systems (EGS) 
could provide 100,000 MWe of baseload electric generating capacity in 
the US by 2050. Research was called for in drilling, power conversion 
and reservoir technologies. If confirmed, I will commit to evaluate 
geothermal technology costs and opportunities in the Quadrennial Energy 
Review process recommended by PCAST.
    Question 38. Currently in Alaska there is a debate on whether to 
build a pipeline to bring natural gas from the North Slope to fuel 
electricity production for Southcentral Alaska, or whether it makes 
more sense for the long-term to build the gas-turbines for electrical 
generation close to the Prudhoe Bay gas wells and then send the power 
by high-voltage, Direct Current (DC) transmission lines south to the 
state's urban population centers. What is your view about the potential 
for DC transmission to be truly cost competitive in the future against 
more local electrical generation?
    Answer. I understand that high cost and scarcity of electricity are 
consistent problems throughout Alaska and that utilizing currently 
stranded natural gas could have a major economic impact. Without 
examining the problem more closely, I am not able to provide a 
definitive response to your question at this time. However, if 
confirmed, I would be happy to work with you, your staff, Alaska 
stakeholders, appropriate DOE and national lab technical staff, and 
outside experts to examine the options you have put forward and other 
possible solutions to using Alaska's stranded gas assets and to 
addressing electricity needs in rural and remote Alaska.
    Question 39. In the past your Department maintained an Arctic 
Energy Office that was based in Fairbanks, Alaska that was devoted 
specifically to Arctic energy research. Over its roughly seven year 
existence under the National Energy Technology Lab's direction, the 
office did some excellent work on coal, heavy oil, carbon capture and 
storage, and enhanced oil recovery utilizing carbon dioxide. That 
office closed effectively two years ago. In your view, does DOE need to 
continue to do energy research with a specific Arctic focus? If so, how 
do you envision such research being conducted and funded in the future 
for all forms of energy research, not just methane hydrate research?
    Answer. I am aware of the value that Alaska's congressional 
delegation places on this research. The Arctic is drawing increasing 
attention and scrutiny for its energy production potential, accompanied 
by significant environmental and logistical challenges. If confirmed, I 
look forward to hearing your thoughts on the importance of this work 
and how you envision it resuming in a budget constrained environment.
    Question 40. What is your view of the federal role in promoting 
methane hydrate utilization through research? A recent Japanese test 
that followed up on DOE's research last year in Alaska seemed to 
confirm that methane gas can be freed from icy, crystaline structures 
and produced like conventional natural gas. The implication of that is 
profound, since Alaska's Prudhoe Bay holds a known mean estimate of 
85.4 trillion cubic feet of methane hydrates, Alaska is expected to 
contain between 560 and 600 trillion cubic feet of hydrates on shore 
and up to 32,000 trillion cubic feet offshore--and all of America's 
land and waters likely contains up to 200,000 trillion cubic feet of 
methane hydrates (more than a 1,000 years of natural gas reserves at 
current American consumption rates). In Fiscal Year 2012, DOE conducted 
a major test on Alaska's North Slope to see if methane hydrates could 
be ``unlocked'' and made to flow to the surface. The test, partially 
underwritten by the Japan, Oil, Gas and Metals Corp., showed that 
methane hydrates can be produced by pumping carbon dioxide underground 
to ``free'' the gas. But the Department's budget for Fiscal Year 2013 
contains less than $5 million to advance the research. What is your 
opinion of the research and would you support a more robust research 
effort by the Department's National Energy Technology Lab (NETL) into 
production of hydrates?
    Answer. The Department of Energy's Office of Fossil Energy and the 
National Energy Technology Lab supports a number of research projects 
in unconventional natural gas production, including projects focused on 
the potential of methane hydrates. If confirmed, I will ask for an 
update on the DOE/NETL methane hydrates research portfolio and evaluate 
the future research effort in the context of the Quadrennial Technology 
Review update.
    Responses of Ernest J. Moniz to Questions From Senator Cantwell
    Question 1. Dr. Moniz, I am impressed with your knowledge and past 
work on Hanford issues as Undersecretary of Energy. While Hanford 
cleanup makes up a significant portion of the overall DOE budget, not 
every Secretary has focused on this national need and clean-up 
obligation. I believe your background will be a tremendous asset 
because we need an Energy Secretary ready to hit the ground running on 
Day One. I thank you for your willingness to serve and pursue a second 
tour.
    While there is substantial progress being made at Hanford, we still 
face many challenges. Thanks to heroic efforts by Tri-City workers, we 
are making real tangible progress in cleaning the site up. This is not 
an easy job, in many cases Hanford workers have to invent new 
technologies to try and clean up some of the most complex, toxic brews 
on the planet.
    We are also thankful for the boost of funding in the 2009 stimulus 
bill, which put us on track to reduce the active cleanup footprint of 
the Hanford Site by 90 percent by 2015. That reality is allowing us to 
start imagining a bright new future for Central Washington and the 
Hanford site. But we still have a long way to go.
    Besides the challenges of dealing with tank waste and vitrification 
issues, I want to be sure you are aware that cleanup of both the 
Columbia River Corridor and the Central Plateau is critically important 
to the environment and public health.
    In addition to the tank waste, the Central Plateau has nearly 2,000 
cesium and strontium capsules containing over a hundred million curies 
of radioactivity, roughly 2,300 metric tons of spent nuclear fuel, 
plutonium-laced solid waste, groundwater contamination, and the 
Plutonium Finishing Plant.
    Dr. Moniz, are you committed to the current plan to reduce the 
footprint of active cleanup at Hanford by 90 percent over the next few 
years? Will you commit to a balanced cleanup approach at Hanford that 
will continue making progress across the Hanford site? And will you 
fight for a budget that will make that possible? As the prime contracts 
at Hanford are extended or renewed, are you committed to finding ways 
to leverage local businesses more, stretching dollars further?
    Answer. I am aware significant progress has been made in reducing 
the footprint at Hanford with the help of the Recovery Act, and there 
is continued momentum toward achieving a 90 percent reduction in the 
site's footprint. If confirmed, I look forward to visiting the site 
early in my tenure as Secretary to see the progress that has been made 
and learning more about the plans to achieve that 90 percent reduction. 
I certainly support that goal.
    I recognize that there are two distinct cleanup efforts underway at 
Hanford; one administered by the Richland Operations Office, and the 
second administered by the Office of River Protection. If confirmed, I 
will work to ensure that the budget is adequate to continue each of 
these clean-up efforts.
    I am strongly committed to ensuring that DOE remains a constructive 
partner in regions where it conducts business.
    Question 2. Dr. Moniz, about a year and a half ago, Secretary Chu 
decided to reorganize the Office of Environmental Management and place 
it under the National Nuclear Safety Administration (NNSA). I opposed 
that move because I was concerned that nuclear clean-up would result in 
less focus from senior DOE officials. And that the Office of 
Environmental Management might have to compete with funds with NNSA.
    Are you aware of this reorganization, and if so how do you think it 
worked out. Would you be willing to rethink this decision or take some 
other action to make sure the nuclear waste clean-up gets the attention 
it deserves?
    Answer. I am aware that the Department shifted the Environmental 
Management Program to report to the Under Secretary for Nuclear 
Security instead of the Under Secretary but have no specific knowledge 
about any impacts of the change. If confirmed, I am committed to 
ensuring the Environmental Management program has the leadership 
support it needs within the Department and, in consultation with 
Congress, will examine the range of organizational and reporting 
options for this office as part of my commitment to elevate the focus 
on management and performance at DOE. I do agree that the issues at 
Hanford and at other sites require attention at senior levels in the 
department.
    Question 3. I appreciate Secretary Chu's efforts to get the Waste 
Treatment Plant on track. But like Chairman Wyden, I still have 
significant concerns. Construction is on hold at the Pretreatment 
Facility. And limited construction at the Waste Treatment Plant only 
resumed recently.
    While the Energy Department continues its review, a number of new 
approaches have already been proposed. I am concerned about shifting to 
a fundamentally new approach. Frankly, the first thing I think is 
``here we go again.''
    Every few years, the Energy Department seems to come up with a new 
Hanford cleanup scheme that it promises will be safer, cheaper, and 
will finish the job sooner. Yet, we've been down this road before. The 
Energy Department has already attempted and abandoned several different 
strategies for treating and disposing of Hanford's tank waste.
    In 1989, its initial strategy would only have treated part of the 
waste. DOE spent $23 million dollars before abandoning this approach.
    In 1991, DOE wanted to complete a waste treatment facility before 
the rest of the details were fully developed. DOE spent $418 million 
dollars on this strategy.
    In 1995, a new plan to privatize tank waste cleanup was begun. 
After spending $300 million dollars, almost entirely on plant design, 
DOE terminated this plan due to its escalating costs and uncertain 
prospects.
    Since 2000, DOE has been following the current strategy to 
construct the Waste Treatment Plant under a fast-track, design-build 
approach. The current strategy has hit bumps along the way. 
Construction on the pretreatment and vitrification plants was halted 
for more than a year beginning in 2005. And the Tri-Party Agreement was 
subsequently renegotiated in 2010.
    As this long track record tells us, alleged shortcuts usually turn 
out to have a lot of mud and thorn bushes along the way. In fact, 
previous promises that a new course will expedite the construction 
process have resulted in just the opposite.
    We need to stick to the legally binding milestones already in place 
under the Tri Party Agreement and continue working to meet them.
    Dr. Moniz, are you committed to the general strategy that has been 
in place since 2000 for constructing the Waste Treatment Plant? Do you 
think the Waste Treatment Plant can be completed within ten years? Do 
you believe the fast-track, design-build approach still makes sense, or 
do you agree with GAO's recent recommendation that construction should 
not resume until the design and solutions to the remaining technical 
challenges have been verified? What are you going to do different from 
your predecessors to make progress cleaning up Hanford?
    Answer. As I understand the circumstances, the key elements and 
facilities of the WTP project remain in place. The primary challenges 
are the technical issues associated with the project and identifying 
appropriate pathways for resolving those issues. As you mentioned, some 
construction activities have been halted pending resolution of certain 
technical issues but construction continues at three of the five 
facilities without the same technical problems. While I don't have a 
detailed understanding, I have been informed that the halting of 
construction while technical issues are being resolved is a prudent 
course of action. Further, it appears that shifting away from the 
design-build approach for all facilities while the technical issues are 
resolved at just two of them would introduce unnecessary cost increases 
and schedule delays.
    If confirmed, I will give this project high priority and will be 
fully briefed on its status. I plan to implement an integrated, 
systematic and comprehensive process that ensures we effectively 
address the full spectrum of issues. As I noted in my hearing, if 
confirmed, I plan onvisiting the site early in my tenure so I can see 
some of the issues firsthand and talk with the project managers on the 
ground. I will also, if confirmed, address any remaining issues with 
safety culture and will meet with various stakeholders, including 
``whistle blowers''. If confirmed, I will discuss the tank farms and 
the WTP with the DNFSB. And, finally, if confirmed, I will then put 
forward the plan that I intend to execute. I am committed to a path 
forward that will ensure WTP will operate safely for its design life 
and achieve its cleanup purposes.
    Question 4. The Energy Department's original estimates projected 
the Waste Treatment Plant being completed by 2011 at a cost of $4.3 
billion dollars. In 2006, DOE revised the estimates to completion by 
2019 at a cost of $12.3 billion dollars. Although a new baseline has 
not been developed yet, the cost will likely be more than $13 billion 
dollars. And the 2019 completion date remains uncertain.
    What do you think has contributed to these significant delays and 
cost increases, and what can be done to prevent these going forward? 
How would you rank the following in terms of being the most to blame: 
inherent technical challenges, DOE's management and oversight, and 
budget levels?
    Answer. The Waste Treatment and Immobilization Plant is a highly 
complex facility with first-of-a-kind applications of many advanced 
technologies. Throughout the design of WTP, numerous technical issues 
have been resolved, but others remain. I understand the Department and 
the Defense Nuclear Facilities Safety Board are in agreement on the 
outstanding issues that need resolution. To best assess the challenges 
facing the project-whether it be technical concerns, DOE's management 
and oversight, and budget levels-I need to have a better understanding 
of the project as it stands today.
    If confirmed, I would plan to be fully briefed on the status of the 
project, then visit the site for a first-hand look, meet with the 
DNFSB, and put forward an executable plan. I intend to implement an 
integrated, systematic and comprehensive process that ensures we 
address the full spectrum of issues effectively.
    Question 5. When the Waste Treatment Plant begins producing 
vitrified logs of high-level waste, this defense nuclear waste will 
need a disposal site years before an interim or permanent site is ready 
for civilian nuclear waste.
    As I have stated before it is unacceptable for Hanford to be the de 
facto repository for the vast majority of the nation's high-level 
radioactive defense waste. As the Defense Nuclear Facilities Safety 
Board's letter last week to Chairman Wyden stated, ``[t]he Board 
believes that prolonged storage of waste in the Hanford Tank Farms 
represents a potential threat to public health and safety.'' That's why 
I have made clear that I will not support any nuclear waste bill that 
does not address our nation's defense nuclear waste.

          a) Defense and civilian nuclear waste are very different 
        animals, and frankly I believe our nation made a mistake when 
        we choose to comingle them in the early 1980s. And I was 
        disappointed that the Blue Ribbon Commission, on which you 
        served, did not address the defense waste issue head on.
          b) Dr. Moniz, do you think that defense and civilian waste 
        pose different and unique challenges and therefore should be 
        addressed separately?
          c) Do you think we should prioritize figuring out where our 
        military waste can be disposed of first and foremost?
          d) Do you think tackling defense waste first could serve as 
        an example for the Blue Ribbon Commission's recommendation that 
        we should dispose our nuclear waste in consenting communities?

    Answer. There are certainly a number of differences between 
civilian and defense nuclear waste. In contrast to civilian reactor 
spent nuclear fuel (SNF), defense high level waste (HLW) does not have 
a potential energy value and is also very much bounded in its amount 
since we have no plans to produce more weapons material. The HLW 
packages will also be quite different from SNF. It is also clear that 
some of the reasons for the co-mingling decision of the 1980's may look 
different today. For these reasons, the Blue Ribbon Commission, on 
which I served, recommended that the Department conduct a study of the 
current policy of ``co-mingling'' defense and civilian nuclear waste. 
If confirmed, I intend to conduct such a study and report back to 
Congress expeditiously in order to inform your deliberations on 
potential nuclear waste management legislation.
    Question 6. When we met in my office, you mentioned that you 
regretted the Blue Ribbon Commission wasn't able to address defense 
nuclear waste better.

          a) What are some of your ideas on the topic that you wished 
        were included?
          b) Do you believe salt caverns offer a good geologic medium 
        for high level waste disposal? Will you commit to continuing to 
        explore that possibility?

    Answer. The BRC did not have the time or resources to study 
adequately and reach a consensus on the question of whether defense and 
civilian waste should be managed separately, and we therefore called 
for a study of the current policy of ``co-mingling'' defense and 
civilian wastes.
    Sound science must be the basis in determining the adequacy and 
performance of a geologic repository, and moving forward will require 
re-examining multiple geologies and geochemistries (shale, granite, 
salt,. . .). Alternate concepts, such as the deep borehole approach 
discussed in the BRC report, also need examination. Additional research 
is needed to assess the performance of high-level waste in salt 
disposal. I am aware that the Department is conducting research on the 
behavior of salt in the presence of heat-generating sources under 
geologic repository conditions and look forward to learning more about 
the Department's latest work.
    Question 7. Within a few years, 90 percent of Hanford site will be 
cleaned up. As cleanup finishes, the Tri-Cities community is looking to 
diversify its economy. To that end, Congress provided the Energy 
Department with the authority to transfer nuclear defense properties 
over to economic development. DOE completed a Comprehensive Land Use 
Plan in 1999 and a 2008 update identified nearly 10 percent of the 
Hanford Site that could be used for industrial development in the 
future.
    Dr. Moniz, do you agree that, when suitable, Hanford land should be 
made available to the community for economic development to help its 
transition as cleanup is completed?
    If confirmed, will you make sure the review process for a proposal 
to transfer 1,641 acres to the local community for the establishment of 
an energy and industrial park is given sufficient attention and is 
completed as soon as possible? The Energy Department has been reviewing 
it for almost two years now.
    Answer. As Hanford site remediation is completed, the Department 
intends to transition areas that have been cleaned up and are safe for 
other uses. I support the Department's activities working closely with 
local communities, stakeholders, Tribes and other entities to identify 
appropriate opportunities to transition available land. I am aware of 
the proposal to transfer some of the Hanford land and, if confirmed, I 
will ensure the review process underway gets proper attention and is 
completed as expeditiously as possible.
    Question 8. The Pacific Northwest has a long tradition of local, 
collaborative decision-making to resolve difficult challenges. This is 
especially true with issues related to our clean and affordable 
hydropower system that is the backbone of our economy. Working together 
with regional electricity ratepayers, the Bonneville Power 
Administration (BPA) has achieved about 5,000 average megawatts of 
conservation since 1980; integrated over 4,400 megawatts of wind and 
other renewable sources of power, achieving one of the highest 
penetration rates in the nation; added more new transmission in the 
last ten years than any other region; and led efforts to test and 
deploy smart grid technology.
    I was pleased during our meeting last month that you said that you 
do not see the Power Marketing Administrations (PMAs) as laboratories.

          a) Are you committed to upholding BPA's requirement for cost-
        based rates?

    Answer. If confirmed, I commit to abiding by the governing statutes 
of each PMA, including BPA.

          b) Are you committed to opposing the privatization of BPA and 
        the other PMAs as well as any other schemes, such as market-
        based rates, designed to transfer the value of the PMAs' power 
        and transmission systems to the Treasury or other regions?

    Answer. I am not aware of any effort within the Department to 
privatize the PMA's. If confirmed, I commit to abiding by the governing 
statutes of each PMA.

          c) Will you categorically rule out efforts to weaken BPA's 
        jurisdiction relative to FERC and DOE?

    Answer. If confirmed, I commit to abiding by the governing statutes 
of each PMA, including BPA, and abiding by the Federal Power Act to the 
extent it relates to the PMAs.

          d) Are you committed to consulting with the Pacific Northwest 
        delegation, Congressional Committees of jurisdiction, and 
        relevant stakeholders, and BPA ratepayers before issuing any 
        memorandums, directives, or initiatives associated with BPA?

    Answer. If confirmed, I commit to working collaboratively with 
Congress and BPA stakeholders on any major actions impacting BPA.

          e) BPA and public power and investor-owned utilities have 
        worked within the Northwest Power Pool to determine whether 
        there would be benefits from an Energy Imbalance Market or 
        other market-driven efficiencies. Are you committed to working 
        with the Pacific Northwest delegation on this, and do you agree 
        that regional processes and solutions should be respected and 
        acknowledged?

    Answer. I fully recognize and appreciate the benefits of 
collaborative regional evaluation and solutions to the challenges and 
opportunities of an EIM. If confirmed, I will work with the Northwest 
Power Pool to jointly determine the best mechanisms for capturing 
economies of scale within the Pacific Northwest.

          f) BPA, as well as other PMAs currently report to the Deputy 
        Secretary of Energy. Will you commit that BPA and the other 
        PMAs will continue to report to the Deputy Secretary in order 
        to assure that power marketing issues receive a high level of 
        visibility within the Administration?

    Answer. If confirmed, I intend to have the PMAs continue to report 
to the Deputy Secretary. I also note that the PMAs have been and will 
continue to be important to the Obama Administration.
    Question 9. I believe that putting a price on carbon is necessary. 
It will unleash American ingenuity to diversify our energy mix and 
reduce our carbon intensity. But a price on carbon is not sufficient. 
We must also make critical investments in research and development and 
in the electric grid. Integrating renewables into the grid demands new 
investments in the grid itself.
    Washington state passed a renewable portfolio standard seven years 
ago. Since then, renewable energy has taken off faster than anyone 
could have imagined. Wind, for example, now accounts for over 3,000 
megawatts of my state's power capacity. Integrating this much wind into 
the grid so fast has produced challenges. In my home state, we have so 
much wind power that at a few high-water, low-demand periods it 
actually had to be shut off.
    The past two Springs, many wind farms were asked to shut down 
simply because we had too much cheap power. Too much cheap power that 
is both clean and sustainable should be a boon for our economy--not a 
burden to bear.
    A study by the Electric Power Research Institute estimated that the 
net investment necessary to create a power delivery system of the 
future would be between $17 and $24 billion dollars per year over the 
next 20 years. That same study found that every dollar of investment in 
the grid would return four dollars of benefits such as reduced outages, 
increased efficiency, and lower demand for energy at peak times.
    Washington state has been leading on realizing this smart grid of 
the future that we so urgently need. The Pacific Northwest National 
Laboratory led a study to determine how willing homeowners are to use 
smart grid technologies; what benefits they found in being able to 
control their energy use according to pricing; and how much money they 
could save.
    Unfortunately, we're not making these critical investments. The 
Department of Energy's 2011 Quadrennial Technology Review confirmed 
this, stating simply that we are ``underinvesting in activities 
supporting modernization of the grid.''
    This underinvestment delays the nation's transition to a more 
resilient, reliable, and secure electricity system that integrates 
renewables into the system.

          a) Do you think a smart grid should be part of the 
        Administration's ``all-of-the-above'' energy strategy?

    Answer. In this year's State of the Union address, the President 
highlighted the grid as a priority, and I am totally aligned with this 
position. In my statement to the Committee, I wrote that ``a 21st 
century electricity delivery system, including cybersecurity and a high 
degree of resilience to disruptions, is vital and deserves increased 
attention in the next years.'' I support the investments made in the 
DOE Smart Grid program. This included $4.5B in Recovery Act funds for 
the Smart Grid Investment Grant Program, demonstrations, as well as 
other efforts. The implementation of smart grid technologies is 
revolutionizing electric delivery in the United States to meet the 
needs of the 21st century economy. The transformation to a smarter grid 
will increase the reliability, efficiency, and security of the 
country's electrical system; encourage consumers to manage their 
electricity use; reduce greenhouse gas emissions; and allow the 
integration of all clean energy sources and electric vehicles into the 
grid of tomorrow.

          b) Do you agree that grid modernization efforts and making 
        the grid smarter are important parts of bringing more clean 
        energy online?

    Answer. I agree with the statement.

          c) I and several other Senators support the concept of an 
        Electricity Systems Innovation Hub. We have been perplexed, 
        however, by funding proposals for this Hub that would carve the 
        required funds out of base DOE programs that are delivering 
        significant returns to U.S. taxpayers and consumers. None of 
        the DOE Hubs established to date have been funded in this 
        manner. Do you intend to pursue an Electricity Systems 
        Innovation Hub, even if it comes at the expense of ongoing 
        programmatic activities?

    Answer. I am not aware of the details of the Electricity Systems 
Innovation Hub funding request. If confirmed, I will evaluate the 
proposal to determine its impact, if any, on other programmatic 
activities. I do believe that more focus on Electricity Systems is 
warranted, and I also support the hub concept for advancing selected 
technology development.
    Question 10. Working with stakeholders, I am drafting on 
legislation to take the next steps to modernizing our electric grid. 
The Smart Grid legislation that I authored and incorporated into the 
2007 Energy Bill laid the groundwork for the work going on today, but 
there's much more we can and should be doing.
    The 2007 legislation also allowed us to secure $4.5 billion in the 
2009 Recovery and Reinvestment Act to invest in smart grid development. 
That investment was leveraged many times over by the private sector, 
but it's still just a start to modernizing our nation's energy grid.

          a) How will you ensure that we continue to make progress on 
        modernizing our grid?

    Answer. Future energy demands will require that we achieve grid 
modernization. These demands include the need to increase efficiency 
and enable greater use of renewables and distributed energy sources 
such as electric vehicles, demand side management and energy storage 
while maintaining the reliability, security, and affordability of 
electric power delivery. The grid needs to be more robust and flexible, 
as well as secure and resilient, to meet our need for a prosperous 
economy and a sustainable environment. I support the Administration's 
efforts to continue to look for new ways to work with the electricity 
sector and state and local governments to modernize grid 
infrastructure, facilitate development of new tools to empower 
customers to make smart energy decisions, and protect our critical 
infrastructure from threats. This requires supporting the development 
of tools and simulation software, such as GridLAB-DT at Pacific 
Northwest National Laboratory (PNNL) under funding for Office of 
Electricity in collaboration with industry and academia. Continuing our 
work toward a stronger, smarter, cleaner electric system will benefit 
American families and communities, and ensure our Nation remains 
competitive and innovative in a 21st century economy.

          b) Can you please tell the Committee how you intend to work 
        with the electric utility industry, particularly to facilitate 
        a ``twenty-first century'' grid?

    Answer. The Department is leading national efforts to modernize the 
electric grid, and enhance security and reliability of the 
infrastructure. If confirmed, I intend to continue the ongoing efforts 
to engage the electric utility industry and other stakeholders, 
providing technical assistance and hosting numerous conferences, 
workshops, webinars, peer reviews, on a range of key topics from 
renewable energy integration to microgrid energy storage to cyber and 
physical systems security. If confirmed, I intend to build on my 
experience of the last decade to convene industry, environmental 
groups, academics, investors, policy makers and others for constructive 
and consequential discussions about the grid and other critical energy 
issues.

          c) In the wake of Superstorm Sandy and other major weather 
        events in recent years, we are increasingly aware of the 
        weaknesses in our electricity grid. Electricity is increasingly 
        vital to all parts of our public safety, health and economic 
        wellbeing. Do you intend to focus on working with local 
        utilities to use smart grid investments to increase grid 
        reliability and resiliency?

    Answer. The Department has a long history of working with local 
utilities and if confirmed, I intend to focus on working with local 
utilities to use smart grid investments to increase transmission and 
distribution system reliability and resiliency.

          d) Investments in our electricity infrastructure through the 
        Recovery Act-funded projects have accelerated the adoption of 
        new and critically important technologies and systems by the 
        utility industry. How will DOE build on these investments and 
        ensure that these investments across the country don't slow 
        down now that the ARRA funding is coming to a close?

    Answer. I believe it is important to continue targeted investments 
to promote the resiliency of our electricity infrastructure. If 
confirmed, I intend to work with Congress to identify ways to continue 
this support in a cost-effective manner.

          e) Do you believe OE's role goes beyond just R&D to, for 
        example, facilitating utilities in moving toward a ``twenty-
        first century'' Grid?

    Answer. DOE's Office of Electricity Delivery and Reliability (OE) 
has a very important role to play in not only R&D efforts to modernize 
the grid, but offer technical assistance to utilities and other 
stakeholders, as well as serve as the sector specific agency tasked 
with responding to emergencies impacting the nation's critical energy 
infrastructure.
    Question 11. Dr. Moniz, we clearly have to make some difficult 
choices with regard to the allocation of funding across energy R&D and 
other technology specific incentive programs. While there have been 
major improvements in many of these technologies in recent years, they 
still have some way to go before they can compete on an equal footing 
with fossil fuels and seize the expanding world market for clean 
energy.

          a) What is your sense of the future with respect to the 
        competitiveness of renewable energy technologies? When might we 
        expect them to be competitive in the marketplace on their own?
          b) Some have argued that the percentage of funding for R&D on 
        certain energy sources is out of proportion to their current 
        mix in the energy system. Do you agree that R&D funding for 
        mature and incredibly profitable fossil fuel technologies 
        should exceed funding levels for cleaner and more distributed 
        renewable energy sources?
          c) In your view, what are the most economically efficient 
        policies to increase U.S. energy diversity without the need for 
        government to pick technology or special interest winners or 
        losers?
          d) Do you agree with the many energy experts who argue that a 
        predictable price on carbon designed in a way that minimizes 
        price volatility is the most economically efficient and 
        technology neutral way to realize greater energy efficiency and 
        diversity?

    Answer. I am very optimistic that renewable energy will be quite 
competitive sooner than many think, so long as a strong commitment to 
R&D is sustained both by government and by the private sector. My view 
of the R&D portfolio is that it should be structured so as to provide 
low-cost technology options in a timely way for a future marketplace 
that internalizes environmental, security and other public good 
considerations. Therefore, given the importance of a low-carbon 
economy, a high priority for the portfolio is R&D for ``zero and low-
carbon'' technologies--renewables, nuclear, CCS, and associated 
enablers.
    If confirmed, my approach to R&D portfolio management will have 
several linked elements: portfolio development organized around 
strategic goals; institutionalized portfolio analysis; roadmapping of 
key technology directions; R&D oversight. These elements will span 
multiple program offices and be the core of the Quadrennial Technology 
Review process.
    To carry out the R&D, I support the innovative approaches put into 
place at the DOE over the last four years. They are well matched to 
DOE's energy mission and it is important that they make multi-year 
commitments to the performers. The Energy Frontiers Research Centers 
are funding small teams to seek scientific breakthroughs that will 
remove barriers to important energy technology development. ARPA-E is 
supporting high-risk projects that can move into the marketplace. 
Innovation Hubs support large multi-disciplinary collaborative teams of 
scientists and engineers who work along the entire innovation chain as 
appropriate, with clear goals aligned with DOE mission areas. If 
confirmed, I intend to review the performance and outcomes of each of 
these approaches so as to optimize the expenditures of taxpayer 
dollars.
    The Administration has not proposed a carbon tax nor does it have 
plans to do so.
    Question 12. National scientific user facilities like the 
Environmental Molecular Sciences Laboratory and Atmospheric Radiation 
Measurement Program located in Washington state play a central role in 
the U.S. research ecosystem by providing thousands of scientists access 
to unique instruments, expertise, and facilities. As state and federal 
budgets endure ongoing downward pressure in coming years, the 
importance of user facilities will grow since they are shared resources 
available to the entire scientific community. What is your vision for 
the future of DOE's stewardship of national scientific user facilities 
and what assurances could you provide that investment in them will 
remain a priority under your leadership?
    Answer. I am committed to the importance of user facilities at the 
national labs. They are a pillar of the US research infrastructure, 
with over 29,000 lab, university, and industry researchers dependent on 
their availability. They are essential for training large numbers of 
graduate students who will be among our future scientific leaders. 
Indeed, with constrained budgets, we must assure that these facilities 
maintain a reasonably high level of availability for user experiments. 
If confirmed, I will emphasize science community input to reach a 
balance between facility operation for research and researcher support.
    Question 13. DOE's Biological and Environmental Research (BER) 
Program supports critical and unique climate science programs, 
including the Atmospheric Radiation Measurement program and others in 
the high performance computing and modeling areas. These programs are 
rapidly advancing our understanding of the climate system and climate 
change impacts. Assuming DOE will be under ongoing budget pressure and 
its climate programs will continue to elicit close scrutiny from some 
Members of Congress, what assurances could you offer that these 
programs will remain a priority under your leadership?
    Answer. The President has been clear that tackling climate change 
and enhancing energy security will be among his top priorities in his 
second term. Programs like the Biological and Environmental Research 
Program are critical in that effort because we cannot address these 
problems without the capability to measure and track them. If 
confirmed, I will make it a priority to ensure that we maintain our 
ability to do so.
    Question 14. The United States is a key partner in several 
international ``big science'' projects including the International 
Thermonuclear Experimental Reactor (ITER) and BELLE 2 high-energy 
physics project.

          a) In your estimation, how important are these projects to 
        the advancement of the science frontier?
          b) How would you work to ensure that the United States 
        remains a strong and reliable partner in international projects 
        such as these?

    Answer. ITER is a partnership of 6 countries and the European 
Union, and is the culmination of decades of magnetic fusion research. 
ITER is based on decades of effort by the international science 
community to establish the scientific basis for fusion energy and 
demonstrate the transformative potential of fusion as an energy 
resource. It is my understanding that 80 percent of the US contribution 
to ITER is spent domestically, with in-kind components built in the US 
and delivered to the project site in France. If confirmed, I will work 
to make the most effective use of our research spending.
    In particle physics, the value of international collaboration has 
been seen in two high profile discoveries within the last year: the 
apparent discovery of the Higgs boson at CERN, with extensive US 
participation, and the first hints of dark matter detection in a US led 
experiment on the International Space Station.
    Such massive projects could not be carried out by one country alone 
and provide great value to American scientists in addition to pushing 
the frontiers of our understanding of nature. If confirmed, I will 
pursue such relationships where the US has the most to gain from the 
international partnership. We must enter into such collaborations only 
with the solid support of the relevant research community and a 
commitment that all parties will meet their obligations.
    Question 15. The DOE Biological and Environmental Research Advisory 
Committee recently called for a plan to accelerate U.S. leadership in 
biodesign by creating a ``biosystems frontier network,'' building on 
the existing expertise and facilities of Office of Science/Biological 
and Environmental Research Program facilities. To what extent would 
biodesign be a priority for DOE under your leadership?
    Answer. The Biological and Environmental Research Program has 
carried out much important research over the years. I am aware that the 
Biological and Environmental Research Advisory Committee (BERAC) 
recently recommended a Biological and Environmental Research System 
Network as its highest priority, and the biosystems frontier network is 
an important part of that concept. Its purpose is to advance biosystems 
engineering to enable synthetic biological solutions to energy and 
environmental problems. If confirmed, I will have to look more deeply 
at the BERAC recommendations to see how DOE can best position itself to 
be a meaningful contributor to biodesign.
    Question 16. The Department of Energy's Basic Energy Sciences (BES) 
Program established the Energy Frontier Research Center (EFRC) program 
in 2009 to bring national labs, universities, and industry together to 
focus in a concentrated way on the nation's energy ``grand 
challenges.'' The initial 5-year award period for the 46 EFRCs expires 
at the end of 2013.

          a) What is your assessment of the performance of these 
        centers and, as Secretary, would you support the continuation 
        of the EFRC program?
          b) What is your vision for the EFRC program and what role in 
        it do you foresee for the national labs?

    Answer. In my opinion, the EFRC program was established in an 
exemplary way, attracting considerable community input to define the 
key basic science barriers to transformative clean energy technologies. 
I feel that this is the kind of program that brings DOE's longstanding 
successful basic science programs to bear directly on the agencies 
mission objectives in energy technology. Anecdotally, I have seen the 
EFRCs at my home institution do excellent work, including spinning out 
a solar energy startup. I have heard similar good reports about several 
other EFRCs but would need a systematic assessment to guide future 
decisions. If confirmed, I will work closely with the DOE research 
leadership to evaluate the merits of EFRCs and all of the Department's 
research efforts to see what has worked effectively and what can be 
improved. I will be guided by the principle of making the most 
efficient use of our research funds to advance the DOE missions in 
energy, science, security and remediation.
    Question 17. The United States faces stiff competition in the race 
to exascale computing, and losing this race could have very serious 
implications for our future national security and economic 
competitiveness.

          a) Under your leadership, what actions would the Department 
        of Energy take to ensure U.S. primacy in high performance 
        computing generally and in being first to achieve computing at 
        exascale?
          b) How would you expand the role of high performance 
        computing in DOE's applied energy programs, particularly in 
        those that have not historically integrated computing into 
        their programmatic activities?

    Answer. DOE has a strong tradition in supercomputing and our 
current programs are second to none. I would note that DOE currently 
has world's fastest computer at the Oak Ridge National Laboratory, and 
ORNL also leads an innovation hub on the application of large scale 
modeling and simulation to nuclear reactors. This is a good example of 
expanding the role of high performance computing. When I served in the 
Department as Undersecretary, expanding the role of high performance 
computing to science and energy programs, in addition to nuclear 
weapons, was a priority. Exascale computing is an important goal for 
the Department to pursue, and it is a critical mission for DOE to 
remain at the forefront of this field. If confirmed, I am committed to 
advancing large scale computation and its application across all of 
DOE's missions.
    Question 18. DOE supports energy storage development through the 
Office of Electricity and Energy Reliability, ARPA-E and the recently 
launched Office of Science Energy Storage Hub. However, given the 
importance that grid-scale energy storage will have in a clean energy 
future, it will be vital to ensure continued investment in development 
of cost-effective grid storage technologies, and DOE should have a 
leadership role in expanding efforts to both develop such technologies 
and to facilitate their deployment, field testing and evaluation.

          a) Under your leadership, how will DOE invest in further 
        development and deployment of grid energy storage technologies?

    Answer. Energy storage technologies have the potential to play a 
major role on the electric grid, both for integrating renewables and 
for improving the grid's efficiency and reliability. While pumped hydro 
has been widely deployed for years, other storage technologies--
electrochemical and flow batteries, compressed air, flywheels, and 
thermal storage--are becoming viable for grid use. Accelerating 
progress on these technologies and deploying them onto the grid is an 
important national strategic goal.
    DOE plays a vital role in achieving this goal. DOE R&D has directly 
contributed to bringing these technologies to their current levels, and 
it should continue to do this work. DOE should also work with private-
sector partners to demonstrate energy storage in real-world grid 
applications, to help utilities and financiers understand the 
performance and cost of these technologies and gain confidence in 
investing in them. And DOE should work closely with FERC and other 
regulators, to reduce or eliminate regulatory barriers to energy 
storage.
    Internally, DOE has several offices that work on grid-scale energy 
storage, including the Office of Electricity, the Office of Energy 
Efficiency and Renewable Energy, the Office of Science, and ARPA-E. The 
offices coordinate their activities through the cross-cutting ``Grid 
Tech Team''. If I am confirmed, I will focus closely on expanding this 
coordination. I will also focus on ensuring that DOE's technology 
development roadmaps for these different energy storage technologies 
are clear, and have wide input from the private sector.
    With both good internal coordination and close partnerships with 
the private sector and regulators, DOE can play an effective and 
impactful role in advancing the national strategic goal of advancing 
energy storage technologies for the grid.
    Finally, if confirmed, I intend to provide the Committee with a 
timeline for development of a grid energy storage technology roadmap.

          b) Should tax incentives, similar to those employed for 
        renewable energy deployment, be used to facilitate grid energy 
        storage deployment?

    Answer. Tax incentives do not fall within the purview of the 
Department of Energy.
    Question 19. Secretary Chu has reengaged the national laboratories, 
as federally funded research and development centers (FFRDCs), in the 
challenges currently facing the Waste Treatment Plant (WTP) at Hanford. 
This has given them a leadership role in developing the technical 
understanding essential for the project's success. In your previous 
tenure as DOE Under Secretary, you engaged the national laboratories in 
similar fashion through the Groundwater Vadose Zone Integration 
Project-designed to understand the nature and migration rates of high 
level nuclear waste leaking from Hanford's underground tanks.
    If confirmed, will you continue to rely on the national 
laboratories' leadership in devising technically-grounded strategies 
addressing critical issues facing the Department?
    Answer. Yes. Our national laboratories are a tremendous resource 
that should continue to address the nation's scientific and technical 
challenges.
    Question 20. The DOE national labs make significant contributions 
to national security through various DOE, DOD, and intelligence 
community efforts. The recently signed NDAA officially designates the 
three NNSA nuclear weapons labs (LANL, LLNL, SNL) as `national 
security' labs, ignoring the significant and important contributions 
made by other DOE labs, most notably PNNL, ORNL, and INL. How do you 
plan to ensure that these and other labs are fully and directly engaged 
in the national security enterprise?
    Answer. As you indicated, several DOE national labs managed by the 
science and energy offices--most especially PNNL, ORNL and INL--have 
significant national security roles in addition to those carried out by 
the NNSA labs--LANL, LLNL, and SNL. The latter have the lead for 
nuclear weapons stockpile stewardship, while they all have substantial 
responsibilities for the department's broad security and intelligence 
functions. Conversely, the NNSA labs contribute significantly to the 
science and energy technology missions of the Department. All of them 
are important partners with universities and industry as well. Clearly, 
the seventeen national laboratories need to be seen as a system 
addressing the complex security, science, energy and environmental 
missions of the DOE and as part of the broader American research 
enterprise. If confirmed, I intend to work closely with all of the 
national labs to use their complementary capabilities in service of the 
DOE missions in a coordinated and cost effective manner.
    Question 21. The DOE and its national laboratories have made 
significant investments in cyber security research and technologies. 
How would you ensure that the capabilities stewarded at DOE's national 
laboratories are appropriately leveraged and utilized by other U.S. 
agencies and critical infrastructure stakeholders to help the nation 
address its cyber security challenges?
    Answer. The President has recognized cyber-security as one of the 
major security challenges facing the United States, with the challenges 
ranging from protection of energy infrastructure from internet attacks 
to avoiding intellectual property and sensitive data theft to defeating 
cyber warfare. The DOE has a special role in that it has both 
responsibility for domestic energy infrastructure reliability and 
resilience and significant capabilities that serve multiple security 
and intelligence agencies. These capabilities reside primarily in the 
national laboratories. If confirmed, I assure you that the national 
laboratories will collaborate with key stakeholders to address cyber-
security challenges. Furthermore, I will engage the cyber-security 
resources across the department to enhance coordination and overall 
effectiveness.
    Question 22. A recommendation by the Department of Energy's 
Inspector General to consider shuttering some of DOE's national 
laboratories has not gained a lot of traction. DOE IG Gregory Friedman 
suggested a ``BRAC-style'' commission should be formed to examine 
consolidating parts of DOE's lab and technology complex, including its 
nuclear weapons laboratories. What are your thoughts on consolidation 
of the DOE National Laboratory system?
    Answer. I am not aware of any plans currently underway to create a 
``BRAC-style'' commission to examine the national labs, nor is that 
something I am planning to do if confirmed. That said, particularly in 
this era of tightened budgets, it is helpful always to evaluate where 
waste can be eliminated or efficiencies gained in order to put our 
research funding to the best use.
    Question 23. To realize the Department's mission of solving our 
nation's grand challenges in energy, environment, and national 
security, the science and technology developed at the Department's 
national laboratories must ultimately be commercialized and deployed. 
To strengthen the Department's commercialization activities, this 
Committee created the position of Technology Transfer Coordinator in 
Title X of the Energy Policy Act of 2005. Despite hiring a Technology 
Transfer Coordinator and the President issuing a Presidential 
Memorandum on Accelerating Technology Transfer and Commercialization of 
Federal Research in Support of High-Growth Businesses, 
commercialization seems to remain a relatively low priority across the 
Department, and our national laboratories still lack many of the tools 
necessary to commercialize technology and work with industry. 
Specifically,

          a) Do you plan to give the national laboratories greater 
        flexibility to support commercial application of potentially 
        transformative technologies, specifically allowing the use of 
        laboratory overhead funds for Technology Maturation, a purpose 
        that seems completely consistent with Stevenson Wydler 
        legislation and will most likely improve the likelihood that 
        such technologies are transferred to the commercial marketplace 
        for the benefit of the American economy?
          b) The Technology Transfer Coordinator recently stepped down. 
        This provides you with an opportunity to strengthen the 
        position and elevate the role of technology transfer within the 
        department. What actions will you take to increase the 
        effectiveness and impact of the Technology Transfer Coordinator 
        position?
          c) Technology Transfer is currently a low priority that 
        receives very little weight in DOE's annual lab contractor 
        performance evaluation plans. Do you support elevating 
        technology transfer in these plans so that transferring R&D 
        into the marketplace and ensuring that taxpayers and the 
        American economy are able to realize the full economic impact 
        of Federal R&D investments is a significantly weighted and 
        evaluated activity at national labs?
          d) National labs have a new Tech Transfer mechanism for 
        engaging non-federal entities, called Agreements for 
        Commercializing Technology (ACT), which is being piloted by 
        many of the labs. The advantages of ACT are many: 1) ACT allows 
        the lab management contractor to assume risks that the federal 
        government cannot, such as providing performance guarantees and 
        advance payment; 2) ACT allows for the use of commercially 
        friendly terms and conditions highly valued by industrial and 
        other non-federal parties; and 3) ACT provides for speed of 
        contract execution thereby allowing an ACT agreement to be 
        completed in a fraction of the time of previous DOE-approved 
        mechanisms. Unfortunately, this contract vehicle is not 
        universally available. Currently, companies that have received 
        federal funding and want to access the capabilities of a 
        national lab are prohibited from using ACT to partner on a 
        project involving federal funds, a restriction that does not 
        exist for other technology transfer vehicles employed by DOE. 
        By continuing the restriction, taxpayer funded technologies are 
        put at a disadvantage, with greater barriers to successfully 
        returning benefits back to the economy. Do you support removing 
        this restriction?

    Answer. I believe that technology transfer has to be a priority of 
the Department, because it is primarily through that transfer that 
DOE's research efforts have a substantive effect on the country's 
energy problems. This pertains not only to R&D at the national 
laboratories but also to the many universities that have energy-related 
research support from the DOE. This is an issue that I have focused on 
both in my previous role as the DOE Undersecretary and while leading 
the MIT Energy Initiative.
    If confirmed, I will certainly be appointing a new Technology 
Transfer Coordinator, and I will place additional emphasis on this 
function. I also support providing more flexibility for the 
laboratories and for their arrangements with industry partners. The ACT 
approach is a good example in that the agreements can align better with 
industry practice than is the case for traditional CRADAs. ACT 
agreements also allow greater flexibility with IP. I was not aware of 
the ACT restriction on certain business partners. If confirmed, I will 
seek to understand the basis for the restriction and, in consultation 
with Congress, act accordingly.
    Further, if confirmed, I hope to explore the possibility of working 
with states and localities proximate to the national laboratories to 
enrich the local ``innovation ecosystem''. This can be a major 
multiplier on technology transfer actions within the labs themselves.
    Question 24. Dr. Moniz, over the past several years the 
Confederated Tribes and Bands of the Yakama Nation have been frustrated 
by the lack of a proper government-to-government relationship with the 
Department of Energy regarding their unique interests in Hanford clean-
up. As I understand them, the Yakama Nation's primary concerns are 
DOE's interpretation of Treaty rights at Hanford, possible redefinition 
of high level waste and on-site disposal, cultural resource protection 
and compliance with laws and regulations, and recent funding cuts which 
disallow Yakama government participation in the cleanup process.
    If confirmed, will you commit to meet with the Yakama Nation for 
government-to-government consultation on Hanford?
    Answer. Yes. I am committed to the government-to-government 
consultation with federally-recognized Indian Tribes. I am aware of the 
longstanding relationship the Department has with the Yakama Indian 
Nation and, if confirmed, I intend to fulfill this well-established 
commitment of government-to-government consultation. If confirmed, I 
would look forward to meeting with the tribal elected leaders during a 
visit to the site.
    Question 25. Dr. Moniz, on February 16, 2012, Energy Secretary Chu 
testified before the Senate Energy Committee on the Department of 
Energy's budget request for Fiscal Year 2013. Following that hearing, 
Committee members submitted a number of additional and follow-up 
questions for the record as part of their responsibility to provide 
oversight for the Energy Department and safeguard the use of taxpayer 
dollars. Unfortunately, Senators did not receive responses to their 
questions until December 21, 2012.

          a) Do you believe that Administration's apparent 
        unwillingness or inability to respond to Congressional 
        inquiries for over ten months (and on Christmas week) inhibits 
        Congress' ability and responsibility to conduct oversight over 
        the Energy Department and respond to the concerns of the 
        stakeholders they represent?
          b) If nominated, what would you do differently to ensure a 
        more timely response to future questions for the record 
        whenever the Energy Department testifies before the Senate 
        Energy Committee?
          c) If nominated, will you commit to answering the Senate 
        Energy Committee's questions for the record following the 
        Department's testimony on the fiscal year 2014 budget request 
        within 30 days?
          d) And if there is a delay past 30 days, perhaps due to the 
        OMB clearance process, will you inform the Committee as to the 
        reasons for these delays?

    Answer. If confirmed, I can commit to responding to the Committee's 
questions promptly to the best of my ability. If confirmed, I will 
instruct my staff to do everything possible to respond to Committee 
questions in a timely fashion.
    Question 26. As I understand it, today the U.S. has produces 
roughly 280 million gallons of methanol, primarily from the steam 
reformation of natural gas, and by 2015 that number will increase to 
one billion gallons. On the ground that means three methanol plants 
will be reactivated in Texas and a fourth will be moved from Chile to 
Louisiana to take advantage of today's lower natural gas costs.
    In a study published in 2010, researchers at the Massachusetts 
Institute of Technology concluded that methanol was the `liquid fuel 
most efficiently and inexpensively produced from natural gas,' and they 
recommended methanol as the most effective way to integrate natural gas 
into our transportation economy.
    Dr, Moniz, I would appreciate knowing if you were involved with 
this study and your personal views as to the potential of using 
methanol to power our transportation system given America's now 
abundant supplies of cheap natural gas.
    I understand that at today's natural gas prices methanol costs 
about 35 cents a gallon to produce, and for the past five years the 
wholesale price for natural gas-derived methanol has ranged between 
$1.05 and $1.15 a gallon. How do you think the price of methanol will 
change over the next decade as the price of natural gas changes?
    Answer. I was the co-director of this study. Its findings and 
recommendations were achieved by the consensus of the 19 faculty and 
senior researchers involved in the study. The U.S. has significantly 
increased domestic natural gas and oil production over the last several 
years, with important implications and possible opportunities for 
diversifying the nation's transportation fuel mix. This diversification 
remains an economic and national security imperative. The President's 
All-of-the-Above Energy policy supports more choices for Americans 
among available modes of transportation and types of fuel.
    There are many conversion routes for deriving liquid fuels from 
natural gas. Methanol is simplest and, like ethanol, needs modest 
engine modifications for flex fuel operation (possibly even tri-flex-
fuel). More complex and costly conversion could yield ``drop-in'' 
fuels. If confirmed, I am committed to exploring the safe and 
environmentally sustainable development of all economically viable 
transportation fuels to increase consumer choice, reduce prices, 
improve our balance of trade, and enhance national security.
    Clearly higher natural gas prices would increase methanol costs, 
and conversely for lower prices. While I won't speculate on the future 
price of methanol, I appreciate both the economic and diversity 
benefits of methanol as a transportation fuel, as well as the 
challenges it poses to both fueling infrastructure and vehicle design, 
especially in the context of ability to meet future environmental 
emissions standards over a wide range of tri-flex-fuel operation.
    Question 27. The seminal Massachusetts Institute of Technology 
Institute report entitled ``The Future of Natural Gas 2011'' found that 
``methanol could be used in tri-flexible-fuel, light-duty (and heavy-
duty) vehicles in a manner similar to present ethanol-gasoline flex 
fuel vehicles, with modest incremental vehicle cost. These tri-flex-
fuel vehicles could be operated on a wide range of mixtures of 
methanol, ethanol and gasoline. For long distance driving, gasoline 
could be used in the flex-fuel engine to maximize range. Present 
ethanol-gasoline flex-fuel vehicles in the U.S. are sold at the same 
price as their gasoline counterparts. Adding methanol capability to a 
factory 85 percent ethanol blend (E85) vehicle, to create tri-flex fuel 
capability, would require an air/fuel mixture control to accommodate an 
expanded fuel/air range with addition of an alcohol sensor and would 
result in an extra cost of $100 to $200, most likely at the lower end 
of that range with sufficient production.''
    Dr. Moniz, were you involved with this study and do you generally 
agree with its conclusions? What can DOE do to promote greater adoption 
of tri-flexible-fuel vehicles?
    Answer. I was the co-director of this study. Its findings and 
recommendations were achieved by the consensus of the 19 faculty and 
senior researchers involved in the study. Flex fuel vehicles were also 
a topic discussed in detail at a MIT symposium last year. Such vehicles 
may help enhance US energy security by diversifying our sources of 
liquid fuels. If confirmed, I would recommend that this technology 
pathway be examined in the Quadrennial Energy Review.
    Question 28. Through the Renewable Fuel Standard, Congress has 
called for the steady increase of biofuels in the transportation sector 
through 2022. But today, with virtually every gallon of gasoline in 
America containing ten percent ethanol, coupled with very little growth 
in gasoline consumption, there is effectively no way to consume the 
additional gallons of biofuels required to be produced by the RFS. To 
introduce more biofuels into the transportation sector, it seems like 
more vehicles capable of running higher alcohol blends and the 
infrastructure to deliver higher blend fuels will be needed.

          a) Dr. Moniz, would you support building out the 
        infrastructure for fueling flex fuel vehicles so that they 
        could be fueled with natural gas derived methanol?
          b) Does the ability to substitute various fuels and fuel 
        sources in Flex-Fuel Vehicles (FFVs) make methanol from natural 
        gas a less risky investment proposition?
          c) What are the relative costs of producing natural gas 
        powered vehicles and the necessary support infrastructure 
        compared to powering vehicles with methanol derived from 
        natural gas?

    Answer. If confirmed, I will support and implement the President's 
All-of-the-Above Energy strategy, relying on sound science to help 
enable viable alternative fuels, including natural gas-derived fuels 
and advanced biofuels. I am committed to exploring the safe and 
environmentally sustainable development of all economically viable 
transportation fuels to increase consumer choice, reduce prices, 
improve our balance of trade, and enhance national security.
    I appreciate both the economic and diversification benefits of 
methanol as a transportation fuel, as well as the challenges it poses 
to both vehicle design and infrastructure. Clearly, if a large number 
of flex-fuel vehicles were on the road, investments in alternative 
fueling infrastructure would be more attractive to the private sector, 
which has historically financed energy infrastructure. There is a 
considerable interplay between vehicle design and fuel composition, so 
optimizing the cost proposition for different alternatives requires 
substantial analysis. If confirmed, I think these issues raised by the 
longstanding and unresolved ``chicken and egg questions'' associated 
with engine design, alternative fuels and infrastructures should 
receive substantial attention in the Quadrennial Energy Review process.
    Question 29. Dr. Moniz, during you nomination hearing you indicated 
you strongly supported government expenditures to promote Carbon 
Capture and Coal (CCS). I understand these views are consistent with 
the 2007 MIT study ``The Future of Coal,'' you were involved with.

          a) Dr. Moniz, do you agree with the 2007 MIT study's 
        recommendation that the U.S. government should provide 
        assistance only to coal projects with CO<INF>2</INF> capture in 
        order to demonstrate technical, economic and environmental 
        performance?
          b) Dr. Moniz, do you agree with the 2007 MIT study's 
        recommendation that Congress should remove any expectation that 
        construction of new coal plants without CO<INF>2</INF> capture 
        will be ``grandfathered'' and granted emission allowances in 
        the event of future regulation?
          c) Dr. Moniz, do you agree with the 2007 MIT study's 
        recommendation that the government should provide assistance to 
        several ``first of a kind'' coal utilization demonstration 
        plants, but only with carbon capture?
          d) CCS has been talked about as a solution to coal's outsized 
        impact on climate change for many years, when do you expect CCS 
        to reach commercial viability and how much do you expect it 
        will cost U.S. taxpayers to reach that stage of development?
          e) If CCS won't reach commercial viability before 2020, why 
        should taxpayers be expected to support CCS given that most 
        energy experts believe that wind and solar will have exceeded 
        price parity with coal and become much cheaper?

    Answer. We can expect coal to remain a significant part of the 
nation's energy mix for decades to come and a fuel used around the 
world, particularly in developing countries. To address the emerging 
low carbon economy in the U.S., DOE needs to continue investments in 
the important and ongoing work to establish carbon capture and storage 
as a safe and economically viable component of any coal-fired power 
plant, but ultimately for all major carbon-emitting sources. DOE must 
provide public confidence in long-term storage of CO<INF>2</INF> at 
commercial scale. At the same time, DOE must continue to focus its R&D 
activities on innovation that reduces the cost of carbon capture 
technologies. Successfully demonstrating this combination of techniques 
and technologies is important for maintaining the viability of coal as 
a fuel option for power generation in the United States. It is perhaps 
even more crucial in the developing world, where coal will remain a 
dominant fuel even as renewables and other technologies expand their 
share of the market in the United States. DOE's work on carbon capture 
and storage could further advance exports of clean energy technology to 
countries where the drive for economic development will soon be met by 
a desire for environmentally responsible coal-based technologies. Work 
on beneficial uses of CO<INF>2</INF> at large scale is also important.
    I agree that the costs for wind and solar will continue to come 
down. However, wind and solar are not currently dispatchable and 
therefore cannot serve as baseload power unless integrated with 
dispatchable units or until energy storage costs are reduced.
    Question 30. Dr. Moniz, I authored Section 524 of the Energy 
Independence and Security Act of 2007 (EISA 2007) which directs federal 
agencies to procure appliances and other equipment that use no more 
than one watt of electricity in standby power mode, if such products 
are available, and to procure products with the lowest standby power 
consumption otherwise.
    The requirement is stated in 42 USC 8259b(e) in the Federal 
Acquisition Regulation, under Subpart 23.2-Energy and Water Efficiency 
and Renewable Energy, which states that, in their procurements, 
agencies must purchase items listed on FEMP's Low Standby Power Devices 
product listing.
    As I understand it, currently FEMP requires standby power of one 
watt or less for only three product categories: cordless phones; 
desktop computers, workstations, and docking stations; and fax/printer 
machines.

          a) Dr. Moniz, do you support trying to minimize standby power 
        loads and what is the potential savings for consumers and the 
        nation as a whole?
          b) Do you believe that DOE's current level of effort meets 
        the statutory requirement of the 2007 Energy Bill?
          c) What more can DOE be doing to minimize standby electricity 
        losses and address this growing source of electricity demand?

    Answer. The President has called on Congress, state and local 
leaders, federal agencies, and the private sector to improve energy 
efficiency. The Lawrence Berkeley lab has estimated that up to 90 
percent of standby power is wasted energy, and the IEA estimated that 5 
to 15 percent of worldwide household electricity consumption is wasted 
in standby mode. The ``one watt rule'' is a technologically feasible 
way to realize considerable savings.
    I strongly support efforts to minimize the amount of electricity 
consumed by the federal government, which is the largest single 
consumer of electricity in the country. While I am not yet familiar 
with the specifics of DOE's current energy consumption levels compared 
to a rigorously developed baseline, if confirmed, I pledge to pursue 
policies that minimize electricity use at the Department and to seek 
ways of promulgating the ``one watt rule'' more broadly.
      Responses of Ernest J. Moniz to Questions From Senator Flake
                         nuclear modernization
    Question 1. The Obama Administration's 2010 Nuclear Posture Review 
(NPR) stated that, ``Implementation of the Stockpile Stewardship 
Program and the nuclear infrastructure investments recommended in the 
NPR will allow the United States to shift away from retaining large 
numbers of non-deployed warheads as a hedge against technical or 
geopolitical surprise, allowing major reductions in the nuclear 
stockpile. These investments are essential to facilitating reductions 
while sustaining deterrence under New START and beyond.'' In addition, 
Senate ratification of the New START Treaty was contingent on the 
Administration's agreement to modernize our nuclear arsenal as well as 
delivery systems, as the Administration itself outlined in the NPR.
    If confirmed, will you make modernization of the U.S. nuclear 
arsenal one of your top priorities?
    Answer. Yes. The core mission of the National Nuclear Security 
Administration (NNSA) is to maintain and enhance the safety, security 
and reliability of the nuclear stockpile to meet national security 
requirements without underground testing. This requires both science-
based stockpile stewardship and the infrastructure needed to extend the 
life of and modernize nuclear weapons systems. The mission is carried 
out in partnership with the Department of Defense (DoD), with DOE/NNSA 
responsible for the research, development, and production activities 
needed to meet military requirements. I am aware that the 
Administration and the Congress have made large investments into the 
modernization of the U.S. nuclear arsenal, and that more will be needed 
over an extended period. If confirmed, I am committed to carrying out 
this mission, in partnership with DoD and the Congress, with high 
priority within the available resources.
    Question 2. Given the difficulties the National Nuclear Security 
Administration has been having with project management capabilities, 
what is your plan for ensuring that modernization efforts do not fall 
victim to cost and schedule overruns?
    Answer. I support the efforts of NNSA to improve its project 
management. I understand the NNSA has outlined a plan to improve its 
project management by providing its federal project directors, federal 
and contractor program managers, and other key project management 
personnel with: 1) best-in-practice tools; 2) project management policy 
and procedure counsel; 3) independent project review capabilities; and 
4) other project management resources to support management of NNSA 
construction projects. If confirmed, I look forward to reviewing this 
with the NNSA Administrator and the Deputy Secretary and to assuring 
that best practices in project management are shared and emulated 
across the department. Also, as noted in my hearing statement, if 
confirmed, I intend to elevate the focus on management and performance 
across the Department.
                              hoover power
    Question 3. In 2011, Congress passed the Hoover Power Allocation 
Act. The Act, among other things, directed that the Western Area Power 
Administration (WAPA) administratively allocate a portion of the Hoover 
power, known as ``Schedule D power'' to rural electric cooperatives, 
municipal power users, irrigation districts and Indian tribes.
    Can you provide assurances that under your leadership the 
Department of Energy will ensure that WAPA offers all customer classes 
(e.g., Indian tribes, cooperatives, and irrigation districts) and 
states a fair allocation of the Schedule D power?
    Answer. If confirmed, I commit that DOE and WAPA will abide by the 
Hoover Power Allocation Act.
                            loan guarantees
    Question 4. The Department of Energy's loan guarantee program has 
come under increased scrutiny over the last few years for a variety of 
reasons--the Solyndra failure being the most cited example of the 
challenges presented by the program. There are, however, other issues 
with Department of Energy loan programs. In Arizona, for example, the 
Arizona Republic reported last week that $16 million in claims have 
been filed by contractors that have not received prompt payment for 
work on a large solar plant. The company that owns the plant and hired 
the contractors reportedly received a $1.45 billion federal loan.
    I do not believe the loan guarantee program is prudent or 
effective. If, however, the Department of Energy continues down that 
path, what will you do to enhance the Department's oversight of these 
loan programs?
    Relatedly, what, if anything, would you recommend the Department do 
to protect local contractors and subcontractors when performing work 
for entities that receive federal backing?
    Answer. If confirmed, I will make the monitoring and oversight of 
the Loan Program's portfolio of loan guarantees a top priority. I am 
familiar with the independent review conducted by Herb Alison. I 
understand that the Department is working to implement Mr. Alison's 
recommendations. This should strengthen DOE's abilities to help ensure 
high impact investments while protecting the interests of the American 
taxpayer.
    If confirmed, I look forward to getting a better understanding of 
the mechanics of the Loan Program Office to understand what can and 
should be done to protect local contractors and subcontractors.
                    power marketing administrations
    Question 5. On March 16, 2012, Secretary Chu sent a memo to the 
Power Marketing Administrations (PMA), which directed significant 
changes in the way they do business. Those changes could increase costs 
on a wide variety of customers. On June 5, 2012, a bipartisan group 
sent a letter to Secretary Chu asking for collaboration with 
stakeholders before acting on those initiatives. DOE has proceeded to 
move forward with stakeholder involvement, starting with the Western 
Area Power Administration (WAPA) as the guinea pig. And, on March 1, 
2013, Secretary Chu directed WAPA to develop an implementation plan for 
its recommendations. Many Arizonans remain concerned about the impact 
of these directives and who will pay the costs of studying and 
implementing them, particularly when ratepayers might not benefit from 
the changes in operations--contrary to the ``beneficiary pays'' 
principle.
    If confirmed, can you give assurances that Arizona ratepayers will 
not be forced to pay for PMA initiatives in which they do not benefit?
    Answer. If confirmed, I commit to adhering to the ``beneficiary 
pays'' principle.
                             nuclear power
    Question 6. In 2011, you co-chaired a study, The Future of the 
Nuclear Fuel Cycle. One of the conclusions from that study was that 
``the [uranium] market is in serious imbalance and vulnerable to price 
volatility until current efforts to expand production come to eventual 
fruition.'' This need for increased domestic production is bolstered by 
the fact that U.S. utilities import approximately 90 percent of the 
uranium used in nuclear generation. During your testimony, you also 
emphasized the need to take into account and balance issues regarding 
the health of domestic industry when making decisions regarding uranium 
supplies. However, as you were releasing the findings of the study in 
2011, Secretary Salazar was constraining domestic uranium production by 
withdrawing land in the Arizona Strip from new uranium mining claims.
    Do you believe there is a need to increase domestic uranium 
production to reduce price volatility and increase energy security?
    In light of the study's findings regarding increased domestic 
uranium production and your interest in considering the impacts of 
decisions on the health of domestic industry, do you support efforts to 
permanently foreclose uranium mining in the Arizona Strip?
    Answer. As I mentioned during the hearing, I believe the domestic 
uranium industry plays an important role in our nuclear fuel supply, 
and the health of the domestic industry has been in the past and is 
today a factor in many Departmental decisions. Robust uranium supplies 
are important to competition in the fuel market that ensures reliable 
and affordable nuclear generation. Domestic supplies are also important 
for national security applications.
    The Department of Energy does not regulate land management issues 
in the Arizona Strip or other public lands.
    Responses of Ernest J. Moniz to Questions From Senator Heinrich
    Question 1. A year ago NNSA all but cancelled the CMR Replacement-
Nuclear Facility. Though NNSA has been clear about the need to maintain 
the unique plutonium research and technical base at Los Alamos National 
Laboratory, in my view NNSA still does not have a clear plan in place 
with schedules and budgets. Will you work with Congress to ensure there 
is an enduring capability and infrastructure in place to maintain Los 
Alamos National Laboratory as the center of excellence for plutonium 
research?
    Answer. I support the Administration's strong commitment to 
maintaining the plutonium capabilities necessary to support a safe, 
secure, and effective nuclear arsenal. I take the nuclear security 
mission of the Department very seriously and recognize the unique 
research and technical capabilities at Los Alamos National Laboratory. 
LANL has been and will remain the center for plutonium science and 
technology. If confirmed, I intend to work with the NNSA Administrator 
and seek the support of Congress to ensure a continuous plutonium 
science and technology capability matched to stockpile stewardship 
needs.
    Question 2. The Department announced its decision to compete the 
M&O contract for Sandia National Laboratories in December 2011. It is 
now some16 months later and a draft Request for Proposal (RFP) has not 
been released. The current M&O contract has been extended 12 months 
(with the option for 6 additional months) which would go until March 
31, 2014. It is now almost a certainty that the current contract will 
need to be extended further. This protracted uncertainty, is beginning 
to impact Sandia's leadership and ability to fill key management 
positions. What is the status and likely timeframe for issuing the RFP 
for Sandia and awarding the contract? Will the department further 
extend the current M&O contract with an appropriate timeframe so the 
Department can, with near certainty, complete the competition and 
associated contract transition within the extension?
    Answer. If confirmed, I will request the status of this procurement 
sensitive issue facing the NNSA and Sandia National Laboratories.
      Response of Ernest J. Moniz to Question From Senator Heller
    Question 1. As you know, the Department of Energy's model for 
appliance energy efficiency is to establish ceilings on total energy 
consumption. Currently, DOE is working towards a rulemaking on 
efficiency standards for set-top cable boxes. I appreciate the need for 
increased energy efficiency across the spectrum, and specifically for 
set-top boxes.
    Additionally, rapid technological advances are taking place in the 
cable industry, and a rulemaking could stifle innovation, increase 
costs for consumers, and potentially impair broadband adoption and 
deployment nationwide.
    Recently, the cable industry came together to establish the Set-top 
Box Energy Conservation Agreement. The agreement would put in place 
real energy and cost savings-to the tune of $1.5 billion per year-
beginning in 2014. This is contrast to a rulemaking that would likely 
not take effect until 2018 at the earliest.
    Given this, do you believe a rulemaking is still necessary?
    Should DOE insist on a rulemaking, what will you do to assure that 
set-top boxes can continue to evolve rapidly and offer new features and 
services under a regulatory model built for mature, stand-alone 
appliances?
    Answer. I am not familiar with the specifics of the Set-Top Box 
Energy Conservation Agreement. If confirmed, I look forward to gaining 
a better understanding of both the provisions of the agreement and the 
rulemaking process, with the goal of making an appropriate 
determination for the best path forward. In this case and more broadly, 
I also pledge to work closely with industry stakeholders and consumer 
advocates to find commonsense solutions that save energy and reduce 
consumer costs.
     Responses of Ernest J. Moniz to Questions From Senator Johnson
    Question 1. Your testimony touched on the national security and 
economic arguments for reducing our dependence on oil for 
transportation needs. Renewable fuels are already moving us in that 
direction, but we've seen increasing efforts to limit their access to 
the marketplace. Could you elaborate on your priorities for the 
Department in terms of expanding the use of biofuels, including higher 
levels of ethanol blends and developing advanced biofuels?
    Answer. The President has an all-of-the-above strategy to reduce 
America's dependence on oil. Renewable fuels and flex-fuel vehicles are 
essential elements for meeting that goal. If confirmed, I will pursue 
science-based, data-driven policies to develop and deploy affordable 
renewable fuels in accordance with applicable laws, regulations, and 
Administration policy. This strategy will employ an integrated research 
and development approach across DOE and rely, in part, on robust 
partnerships with academia and industry to maximize opportunities to 
move next-generation biofuels from the lab to the marketplace at 
sufficient scale to materially impact oil demand.
    Question 2. The Sanford Underground Research Facility (SURF) in the 
Homestake Mine at Lead, South Dakota, is one of my top priorities, and 
I am grateful that DOE took on the project when NSF pulled back a few 
years ago. I'm also very pleased with our conversation when you met 
with me in my office a couple of weeks ago. Could you discuss here the 
role you envision Homestake playing in the broader goals of high energy 
and nuclear physics research and what is your vision for federal 
support for the lab in the coming years given competing interests in 
other facilities and research programs?
    Answer. Deep underground experiments are important because 
extremely sensitive experiments with very weak signals can be 
contemplated in the absence of ``background noise'', such as cosmic 
rays, that would overwhelm the measurements if carried out at the 
earth's surface. The SURF, nearly a mile down in the Homestake mine, 
will be able to search for phenomena, such as dark matter and novel 
neutrino physics, that can significantly affect our understanding of 
elementary particle physics. The nuclear and particle physics 
communities have strongly endorsed this experimental direction and, if 
confirmed, I will evaluate the SURF's current research plan and 
opportunities for new experiments as well.
    Question 3. The federal power program has helped ensure rural areas 
have access to affordable, reliable electricity from the hydropower 
produced by federally operated dams. The rural electric cooperatives 
and municipal power providers in my state count on a collaborative 
working relationship with the Western Area Power Administration and the 
certainty provided by the cost-based rate structure. Could you comment 
on where you think the balance can be found in advancing national 
priorities while respecting the complex differences among the 
geographic regions served by the Power Marketing Administrations?
    Answer. If confirmed, I look forward to further understanding the 
unique challenges and opportunities faced by each PMA. I pledge to work 
collaboratively with you and the stakeholders in each PMA region to 
ensure the PMAs are operating as efficiently and effectively as 
possible to meet the important mission of each PMA in serving its 
customers.
     Responses of Ernest J. Moniz to Questions From Senator Portman
                 systems approach to energy efficiency
    Question 1. Dr. Moniz: 35 years ago, Congress enacted the appliance 
efficiency program into the Energy Policy and Conservation Act, and 
while there were some false starts during those intervening years, it 
has had the beneficial impact of promoting more energy efficient 
consumer products and industrial equipment by eliminating the least 
efficient products from the market.
    For some of these products that have been regulated for a couple of 
decades now, we are now facing diminishing returns from regulation. 
Whatever incremental efficiency benefit remains for those products, 
there could be some significant costs: job losses, costs to 
manufacturers and smaller manufacturers in particular, and less return 
on investment to consumers. Furthermore, the Department has been 
struggling to keep pace with its regulatory load under this program.
    So, I am wondering, Dr. Moniz, if Congress should be considering a 
paradigm shift that seeks to improve the nation's energy efficiency 
profile by focusing less on regulating specific products and components 
and more on systems--such as building systems efficiency, industrial 
factory efficiency, electrical grid efficiency. In this model, we scale 
back the existing regulatory program without compromising the energy 
efficiency gains we have achieved to date, but we set improved 
standards or goals for buildings, factories and the grid, provide 
incentives and the like for people who are building buildings and 
factories and adding to the electrical grid to reach those goals 
however they best determine with energy efficient products in the 
marketplace. And I am wondering what you think of such a paradigm 
shift?
    Answer. I agree that the energy efficiency standards promulgated 
under the Energy Policy and Conservation Act have been very successful 
in reducing manufacturers' regulatory burden and costs, and therefore 
costs to consumers, by providing single national standards in place of 
a patchwork of state-by-state standards. It is my understanding that 
the current process for efficiency rulemaking engages a broad spectrum 
of stakeholders to mitigate any potential issues regarding cost-
effectiveness, technical feasibility, or economic impact.
    You raise an important issue about the efficiency of systems, such 
as whole buildings including its energy-consuming devices and 
operations. However, I am not now familiar with the state of analysis 
concerning system versus component efficiency tradeoffs. If confirmed, 
I would like to consult with the appropriate stakeholders and the 
Congress to explore approaches to measuring and encouraging system 
efficiency.
   reducing government's regulatory costs when there is stakeholder 
                               consensus
    Question 2. Dr. Moniz: In the Energy Policy Act of 2005, Congress 
provided the Department with some tools to streamline the appliance 
efficiency regulatory process, and we know that the Department has used 
or considered some of those tools in a few regulatory proceedings. But 
I am wondering if there are some barriers to the wider adoption of 
those proceedings?
    For example, taking advantage of one of the tools that Congress 
enacted to improve the regulatory process, a group of NGO's, 
manufacturers, and states submitted a joint proposal to the Department 
to raise energy efficiency standards for electric motors that would 
have allowed the Department to meet last year's statutory deadline for 
the regulation and would have resulted in very significant energy 
savings more quickly. Yet the deadline has passed and the nation won't 
realize the energy savings as quickly as they proposed. It seems that 
this was a lost opportunity.
    Answer. I certainly agree that efficiency in electric motors could 
result in substantial energy savings but I am not familiar with the 
specifics of the joint proposal regarding electric motor energy 
efficiency. However, if confirmed, I commit to looking into the issue 
with the goal of understanding the decision-making process at the 
Department and ensuring we promote timely standards and regulatory 
processes for increased energy efficiency in accordance with applicable 
laws, regulations, and Administration policy.
                  energy savings performance contracts
    Question 3. Dr. Moniz: Energy Savings Performance Contracts, 
commonly referred to as ESPCs, are a guaranteed way for the government 
to save taxpayers' money and reduce the deficit by reducing energy 
waste in federal facilities. Because the energy savings are guaranteed 
by the energy service company performing the energy efficiency upgrade, 
there is no chance that the government will be left paying for a 
project that doesn't perform.
    The Department of Energy has completed ESPCs in 281 federal 
buildings since 1998, saving the Federal Government $7.2 billion 
dollars in cumulative energy savings. What can DOE do to further expand 
the use of ESPCs to eliminate energy waste and save taxpayers' money?
    Answer. It is my understanding that the ESPC program has been quite 
successful. In this era of limited resources, ESPCs allow agencies to 
use private-sector financing to fund energy and water projects that 
ultimately pay for themselves. ESPCs help federal agencies achieve 
energy savings beyond what direct appropriations would provide. This 
allows for a strong return on taxpayer dollars, as well as improved 
function and utility of federal buildings.
    If confirmed, I will work with the Administration to build upon the 
success of and perhaps expand the use of ESPCs with the goal of 
maximizing energy efficiency savings for the federal government while 
ensuring that these savings are measured against a rigorously 
developed, accurate baseline.
                              natural gas
    Question 4. With the growing reserves of natural gas, and the move 
to natural gas as a fuel for electric power generation, how should 
natural gas utilization be addressed to ensure lowest cost and highest 
efficiency electric power generation?
    Answer. Natural gas is a key component of the Administration's all-
of-the-above energy strategy and an important part of the nation's 
energy mix. A highly successful mix of federal research support, tax 
policy and public-private partnerships has enabled us to affordably 
produce the nation's abundant shale gas resources; US reserve estimates 
now exceed 100 years of supply at current rates of consumption.
    The Department of Energy does not regulate electricity generation 
from natural gas and decisions about natural gas use in power 
generation relative to other fuels are largely made by utilities, 
assuming reliability and other requirements are met. As you know, there 
has been significant fuel-switching in recent years due to low-cost 
natural gas. The result has been lower emissions of CO<INF>2</INF> and 
other criteria pollutants. Also, DOE is working to advance technologies 
to enable cleaner and more efficient power production. DOE has 
partnered over the years with major turbine manufacturers to produce 
cleaner and more efficient combustion turbines. Today, turbines are 
appearing on the market with very fast ramping times, which is 
important for accommodating more variable sources like wind and solar, 
and modern Natural Gas Combined Cycle plants can currently reach 
efficiencies appreciably greater than 50 percent.
    Responses of Ernest J. Moniz to Questions From Senator Landrieu
    Question 1. In June 2010, President Obama at a joint press 
conference with Russian President Medvedev stated, ``And to prevent 
terrorists from acquiring nuclear weapons, we came together at our 
Nuclear Security Summit, where our two nations made numerous 
commitments, including agreeing to eliminate enough plutonium for about 
17,000 nuclear weapons.'' Are you going to honor the commitment 
President Obama made to Russian President Medvedev and fully fund 
NNSA's Office of Fissile Materials Disposition and the MOX Project?
    Answer. If confirmed, I intend to carry through on the President's 
commitment to the U.S. Plutonium Disposition mission, fulfilling our 
obligations under the US-Russia Plutonium Management and Disposition 
Agreement. I understand that NNSA is assessing the MOX project and 
potential alternative plutonium disposition strategies to identify 
options.
    Question 2. The United States and Israel have begun developing a 
strong bilateral energy relationship over the last few years. The US-
Israel Energy Cooperation program, established by Congress in 2008 
connects DOE with Israel's Ministry of Energy and has proven an 
excellent catalyst to private sector cooperation between the countries. 
Secretary Chu sought to further this relationship through hosting 
Israeli energy delegations in Washington to explore new areas ripe for 
cooperation. Now, against the backdrop of a natural gas revolution both 
at home and within Israel, new opportunities present themselves to 
deepen our relationship, and move it beyond the programmatic 
cooperation we've seen to a more strategic realm.
    Do you share these views? What growth opportunities do you see for 
the US-Israel energy relationship?
    Are you committed to continuing to fund the US-Israel Energy 
Cooperation Program?
    Answer. I value the role U.S.-Israel Energy Cooperation Program has 
played in furthering clean energy technology research, development, and 
commercialization partnerships between U.S. and Israeli companies. I 
have been told that DOE is also working together with Israel on 
critical energy infrastructure protection, energy efficiency standards, 
strategic planning for natural gas development, natural gas 
utilization, investment in resource development and potential trade 
opportunities.
    If confirmed, I plan to continue to develop our already strong 
relationship with Israel on strategic energy matters and look forward 
to working with the leadership of the Israeli government, including the 
Ministry of Energy and Water Resources and other relevant entities.
    Question 3. I'm a supporter of the Department's Small Modular 
Reactor program, and believe SMRs have the potential to reinvigorate 
the U.S. nuclear energy industry, helping us retain our technology 
leadership and create jobs. I was disappointed, however, that DOE only 
selected one technology last year rather than two, as Congress directed 
and as DOE said they were going to in their program description and in 
the Funding Opportunity Announcement. Now I understand that DOE has put 
out a second FOA and is relaxing the criterion on expeditious 
commercialization and on the requirement for having a utility customer. 
The point of the program is to get an SMR licensed and build as soon as 
possible to ensure U.S. leadership, and it seems DOE is going in the 
wrong direction with its delay in selecting the second vendor and by 
easing up on the deployment goal. Given that there are major U.S. 
nuclear energy companies that are capable and interested in building 
SMRs submitted proposals for the first FOA, how can DOE justify this 
delay and why not just select the 2nd SMR technology from the current 
applicants?
    Answer. Like you, I support the Small Modular Reactor program. I 
believe small modular reactors represent a promising next generation of 
nuclear energy technology, providing a strong opportunity for America 
to lead this emerging global industry, creating jobs and business 
opportunities.
    While I am generally aware of the DOE solicitations related to 
SMRs, I do not know the details of ongoing negotiations and therefore 
am not in a position to comment on pending applications or the 
selection process.
    Question 4. What is your opinion on the current review and approval 
process for LNG export terminals-do you believe that it represents an 
appropriate level of review and ensures that review is completed in an 
appropriately timely manner?
    Answer. The Federal Energy Regulatory Commission is responsible for 
the siting approval of LNG export terminals. DOE is responsible for the 
license to export LNG as a commodity.
    If confirmed, I am committed to ensuring that DOE makes transparent 
decisions in the public interest based on unbiased analysis and that it 
acts on these applications as expeditiously as possible.
    Question 5. Do you have any specific changes that you would make to 
the DOE review process for LNG export terminals?
    Answer. The Federal Energy Regulatory Commission is responsible for 
the siting approval of LNG export terminals. DOE is responsible for the 
license to export LNG as a commodity.
    If confirmed, I am committed to ensuring that DOE makes transparent 
decisions in the public interest based on unbiased analysis and that it 
acts on these applications as expeditiously as possible.
    Responses of Ernest J. Moniz to Questions From Senator Barrasso
    Question 1. During the time you served on USEC's Strategic Advisory 
Council, did you contact anyone at the Department of Energy (DOE) about 
USEC? If so, whom did you contact, how often did you contact this 
individual (or individuals), and what was the purpose for contacting 
DOE about USEC?
    Answer. I had no contact with anyone at DOE about USEC issues when 
I served on the USEC Strategic Advisory Council from 2002-2004.
    Question 2. U.S. utilities currently import approximately 90 
percent of the uranium used to fuel their nuclear reactors. Do you 
believe it is important to increase uranium production here in the 
United States? If so, why?
    Answer. As I mentioned during my hearing, I believe the domestic 
uranium industry plays an important role in our nuclear fuel supply. 
Robust uranium supplies provide competition in the fuel market to help 
ensure reliable and affordable nuclear power generation. The health of 
the domestic uranium industry has long been a factor in DOE's overall 
uranium strategy.
    Question 3. Section 3112(d) of the USEC Privatization Act (42 
U.S.C. 2297h-10(d)) states that the Secretary may sell or transfer 
natural or low-enriched uranium from DOE stockpiles provided that:

          the Secretary determines that the sale of the material will 
        not have an adverse material impact on the domestic uranium 
        mining, conversion, or enrichment industry, taking into account 
        the sales of uranium under the Russian HEU Agreement and the 
        Suspension Agreement.

    If confirmed, what steps would you take to ensure that any 
Secretarial Determination: (1) will not harm our domestic uranium 
production, conversion, and enrichment industries; and (2) is in 
compliance with Section 3112(d)?
    Answer. I am committed to following the Department's statutory 
obligations regarding uranium disposition. As part of that process, and 
as we discussed during the hearing, I will, if confirmed, make sure we 
look at implications for the uranium mining industry of any sale or 
transfer before finalizing any such decision so as avoid adverse 
material impacts.
    Question 4. DOE's 2008 Excess Uranium Inventory Management Plan 
capped annual uranium dispositions at 5 million pounds or 10 percent of 
annual domestic fuel requirements. Since 2008, DOE has failed to adhere 
to its Plan. Do you believe that DOE's failure to follow its Plan has 
created uncertainty, and in turn, undermined our domestic uranium 
production, conversion and enrichment industries? If so, why?
    Answer. I am not familiar with the entire uranium disposition 
history of the last several years but will, if confirmed, look into 
this. Like you, I believe that it is important for the Department to 
finalize and release the uranium management plan to provide industry 
and other stakeholders with an understanding of DOE's plans regarding 
its uranium inventory.
    Question 5. Under the Consolidated Appropriations Act of 2012, 
Congress required that DOE issue a new excess uranium inventory 
management plan by June 30, 2012. The plan is over 9 months late. In 
our personal meeting, you suggested that DOE, at the very least, should 
release the plan by June 30, 2013. Will you commit to releasing the 
plan by June 30, 2013?
    Answer. As you know, I am not currently in a position to know the 
present status of the draft plan nor do I know how quickly the Senate 
will move on my nomination. However, if confirmed, I can commit to you 
that I will work to make sure that the plan is released expeditiously 
and will commit to following up with you and your staff to on the 
status of the plan and the projected timing of its release.
    Question 6. The Natural Gas Act establishes a presumption that 
liquefied natural gas (LNG) exports to countries which do not have a 
free trade agreement (FTA) with the United States are in the public 
interest. However, DOE continues to delay making a final decision on 15 
pending applications to export LNG to non-FTA countries. If confirmed, 
what steps, if any, would you take to expedite the review and decision-
making process with respect to these export applications?
    Answer. The President is committed to the safe and responsible 
production and use of natural gas, and I share this commitment. With 
regard to exports of natural gas, I am aware that the Department has 
pending decisions for applications to export LNG to non-FTA countries. 
My understanding of the Natural Gas Act is that when considering 
applications to export to non-FTA countries, the statute requires the 
Department to conduct a public interest determination review prior to 
the issuance of authorization orders. My understanding is that the 
Department is currently reviewing a large number of public comments. If 
confirmed, I am committed to ensuring that DOE makes transparent 
decisions in the public interest based on unbiased analysis and that it 
acts on these applications as expeditiously as possible
    Question 7. Opponents of LNG exports have called for DOE to 
continue to delay approving any LNG export applications to non-FTA 
countries. They have called on DOE to: (1) conduct a programmatic 
environmental impact statement on natural gas development in the United 
States; (2) issue a new rulemaking; and (3) revisit and/or conduct 
additional studies-all prior to approving pending export applications. 
These proposals would take years and cost tens of millions of taxpayer 
dollars. If confirmed, would you support taking any of these steps 
prior to making a decision on the pending export applications? If so, 
which steps would you take and why?
    Answer. To my knowledge DOE already considers environmental factors 
as part of its criteria for the public interest determination required 
by the Natural Gas Act for export of natural gas to non-FTA countries. 
If confirmed, I am committed to ensuring that DOE makes transparent, 
analytically-based decisions on pending applications as expeditiously 
as possible.
    Question 8. Do you believe DOE could deny an LNG export application 
to a country, which is a member of the World Trade Organization (WTO) 
yet does not have an FTA with the United States, and still be in 
compliance with our nation's WTO obligations?
    Answer. I am not a trade expert and do not have specific knowledge 
of our obligations to the WTO. If confirmed, I will ensure any 
decisions made by DOE are in compliance with the law and the United 
States' treaty obligations.
    Question 9. Please describe how LNG exports from the United States 
would strengthen our national security interests.
    Answer. As I noted in my confirmation hearing, the diversion of LNG 
imports from the United States to Europe as a result of the shale boom 
freed up large LNG volumes and added to spot market cargoes. This put 
downward pressure on Russian imports to Europe. If confirmed, I would 
recommend the Quadrennial Energy Review as a mechanism for combining 
the different threads of energy from multiple agencies--including the 
State Department and the Department of Defense--so that our national 
security interests are fully evaluated and considered in our energy 
decisions.
    Question 10. What role, if any, do you believe low-sulfur Powder 
River Basin coal should play in our nation's energy portfolio?
    Answer. I support the President's all-of-the-above energy strategy, 
and I believe that the continued development of conventional energy 
sources, including coal, remains an integral part of this strategy. Low 
sulfur Powder River Basin coal production grew very considerably in 
response to the regulatory requirement of reduced SO<INF>2</INF> 
emissions. If confirmed, I am committed to ensuring the responsible 
development of our nation's coal resources, while protecting the 
environment on which our communities depend for their health, safety 
and way of life, and to advancing CCS technology.
    Question 11. What role, if any, do you believe low-sulfur Powder 
River Basin coal should play in the world's energy portfolio?
    Answer. I support the President's all-of-the-above energy strategy, 
and I believe that the continued development of traditional energy 
sources, including coal, remains an integral part of this strategy. Low 
sulfur coal reduces emissions linked to acid rain. The Department of 
Energy does not have a role in the considerations related to coal 
exports. However, DOE's Fossil Energy Office plays a key role in 
advancing technology that will enhance the safe and efficient use of 
coal, including support for a major CCS program.
    Question 12. DOE has a very small program called the Experimental 
Program to Stimulate Competitive Research (EPSCoR). I understand that 
nine of the ten largest energy producing states, including Wyoming, are 
EPSCoR states.

          a) If confirmed, what steps, if any, would you take to 
        strengthen this research program?
          b) Would you provide a state-by-state listing of the amount 
        of R& D funding made available to each state from DOE during 
        the most recent three years for which such information is 
        available?

    Answer. The Experimental Program to Stimulate Competitive Research 
(DOE EPSCoR) is a government wide program that is designed to provide 
research grants to institutions in states and territories with 
relatively small research and development funding. DOE applies 
eligibility criteria established by the National Science Foundation. I 
was associated with EPSCoR at its inception in 1980 and then again 
during my tenure at OSTP. The program has a strong educational 
component and, in my opinion, succeeds in building basic research 
infrastructure across the country. If confirmed, I will delve into the 
DOE EPSCoR program with an eye towards new opportunities. One 
possibility might be strengthened undergraduate research opportunities 
associated with EPSCoR research projects.
    If confirmed, I would be happy to have state-by-state R&D funding 
data assembled and made available.
    Question 13. One of DOE's advisory committees is the Basic Energy 
Sciences Advisory Committee (BESAC). BESAC is responsible for a broad 
range of programs in material sciences and engineering, chemical 
sciences, geosciences and the physical biosciences, but BESAC 
represents a rather concentrated geographic area. How can states like 
Wyoming participate more fully in DOE's advisory committees?
    Answer. DOE's science advisory committees are a critical tool to 
help the Department to make sound decisions about how to best spend our 
precious research and development funds, as well as identify other 
opportunities to advance the Department's research priorities. In 
accordance with the Federal Advisory Committee Act, all meetings of 
DOE's advisory panels are open to the public and the minutes of the 
meetings are published on the Department's website. Broad participation 
from all interested parties is encouraged. If confirmed, I will assure 
that nominations for membership are sought broadly.
      Responses of Ernest J. Moniz to Questions From Senator Udall
    Question 1. In an effort to diversify fuel sources and lessen the 
impacts of high global oil prices, the Navy, under the authority of the 
Defense Production Act, has entered into a Memorandum of Understanding 
(MOU) with the Department of Energy and the Department of Agriculture 
to promote the development of a domestic advanced biofuel industry 
through the construction of domestic biofuel plants and refineries. As 
Secretary of the Energy, would you support the goals outlined in the 
MOU between the Departments of Defense, Agriculture, and Energy?
    How would you work with your counterparts in the Department of 
Defense and the Department of Agriculture to promote the development of 
a domestic advanced biofuel industry through the construction of 
domestic biofuel plants and refineries to provide the military with 
flexibility in its fuel procurement and lessening its demand for 
foreign fossil fuels?
    Do you believe that the Departments of Defense and Agriculture have 
justifiable roles in the development of alternative energy sources to 
include biofuels?
    Answer. The President is committed to reducing the United States' 
dependence on oil and increasing American competiveness and security by 
investing in biofuels in accordance with the Defense Production Act.
    While I am not familiar with the specific provisions in the Defense 
Production Act that you reference, it is my understanding that this MOU 
and the initiative it supports has the potential to lessen our 
dependence on oil and to help ensure that the United States is the 
global leader in the development of advanced drop-in biofuels.
    Moreover, the approach leverages the respective strengths and 
resources of the various agencies by: building upon DOE's biofuels work 
to address the technology risks and bring these technologies to market; 
employing USDA's expertise to address feedstock issues, including 
production and supply chains; and utilizing the Navy's need to enhance 
the national security benefits associated with biofuels manufacturing 
capability and supplies. If confirmed, I will contact my counterparts 
at Agriculture and Defense to advance planning under the MOU.
    Question 2. If the U.S. does not become an exporter of natural gas, 
potential customers are likely to turn to Russia, Australia and other 
countries for their supply of LNG. In its processing of potential LNG 
permits, DOE should of course make sure that any exports are in the 
U.S. interest and done in an environmentally responsible way. Does DOE 
also factor in the lost opportunities that could result from delaying 
the processing of these applications? How does DOE balance these 
interests?
    Answer. The President is committed to the safe and responsible 
production and use of natural gas, and I share that commitment. With 
regard to exports of natural gas, I am aware that the Department has 
decisions pending before it with regard to applications to export LNG 
to non-FTA countries. My understanding of the Natural Gas Act is that 
when considering applications to export to non-FTA countries, the 
statute requires the Department to conduct a public interest 
determination review prior to the issuance of authorization orders. The 
public interest criteria set forth decades ago include the economic 
considerations related to both production and use of natural gas. If 
confirmed, I am committed to ensuring that DOE makes transparent 
decisions in the public interest based on unbiased analysis and that it 
acts on these applications as expeditiously as possible.
      Responses of Ernest J. Moniz to Questions From Senator Risch
    Question 1. The 1995 Settlement Agreement between Idaho and the 
federal government is a guide for the consent based approach that DOE 
has recently touted for waste disposal. The settlement agreement 
establishes INL as the Department of Energy's lead laboratory for spent 
fuel. And details that, ``DOE shall direct the research, development 
and testing of treatment, shipment and disposal technologies for all 
DOE spent fuel, and all such DOE activities shall be coordinated and 
integrated under the direction of the Manager, DOE-Idaho Operations 
Office.'' Is DOE meeting this commitment? If so, can you provide 
specific details as to how it is meeting this commitment?
    Answer. Although I am not familiar with the current details of the 
Department's spent nuclear fuel programs, I am aware of the role that 
the Idaho National Laboratory is playing in developing technology 
solutions and providing guidance and management support for DOE's spent 
nuclear fuel and high-level waste.
    If confirmed, I look forward to working with you to understand your 
concerns about INL's role in this effort and to pursue a coordinated 
and integrated approach to spent nuclear fuel management for the DOE 
complex.
    Question 2. There are a number of Court decisions pending regarding 
the Yucca Mountain repository program. If the Court orders the restart 
of the Yucca Mountain licensing process will you ensure DOE complies 
with the court order?
    Answer. As stated by Secretary Chu and Assistant Secretary Lyons, 
the Department will comply with any orders issued by the courts. If 
confirmed, I will do so with the guidance of General Counsel and 
presuming the availability of sufficient appropriated funds. I am aware 
in general terms of the litigation, but I am not now familiar with the 
specifics of the issues being contested.
    Question 3. DOE has failed to deliver the repository at Yucca 
Mountain required by law and is now asking Congress to come up with 
another solution without providing adequate information. In their 
response to the Blue Ribbon Commission report, DOE's ``Strategy for the 
Management and Disposal of Used Nuclear Fuel and High-Level Radioactive 
Waste'' establishes a new repository date of 2048, which violates 
Idaho's agreement with the federal government for removing waste from 
the state. The report also calls for consent based siting without 
providing any details on how this should be done or what measures 
should be taken if consent based siting efforts fail. Will you commit 
to proactively working with Congress to develop a specific legislative 
proposal and language to address the specific legislative changes you 
think are required to address this national need?
    Answer. If confirmed, I commit to proactively work with Congress to 
develop and implement an effective nuclear waste management strategy.
    Question 4. The Blue Ribbon Commission report, as well as DOE's 
response, is short on details when it comes to disposing of defense 
wastes. Should you be confirmed as Secretary will you pursue policies 
that would decouple spent nuclear fuel and defense waste for permanent 
disposal? If so, given limited DOE resources, how would you pay for it?
    Answer. The Blue Ribbon Commission, on which I served, recommended 
that the Department conduct a study of the current policy of ``co-
mingling'' defense and civilian nuclear waste. If confirmed, I intend 
to conduct such a study and report back to Congress expeditiously in 
order to inform your deliberations on potential nuclear waste 
management legislation.
    This study would include an analysis of costs in order to inform 
related budget decisions.
    Question 5. Dr. Moniz, DOE's Environmental Management program's 
mission is to cleanup Cold War legacy materials which includes 
operations in Idaho. We also have an obligation to support these 
efforts across the country. While safety and security are paramount we 
must also not lose sight of conducting these operations at the best 
value for the taxpayer. I would like to get your views on capitalizing 
on the investments already made. Earlier this year the Idaho Leadership 
In Nuclear Energy (LINE) Commission offered the following endorsement 
of AMWTP. `` . . .Over $1 billion has been invested in this facility, 
which is a national asset. Once the Idaho cleanup efforts are completed 
the facilities at the AMWTP could be effectively used to assist in the 
characterization and cleanup being performed at other national 
locations.''
    Rather than spending resources twice to recreate what has already 
been developed and operating at AMWTP, would you be willing to work 
with us to take full advantage of the highly-trained workforce in 
place?
    Answer. I am aware of the valuable role the Advanced Mixed Waste 
Treatment Project (AMWTP) provides in processing and disposing of 
transuranic and mixed waste for the Department. If confirmed, I look 
forward to working with you to ensure the AMWTP facilities are 
efficiently utilized to help address the mixed waste disposal needs for 
the Department, and that we can take full advantage of the skilled 
workforce that is helping to complete this mission.
    Question 6. The Department of Energy has recently engaged in a 
public-private partnership program to develop small, modular nuclear 
reactors. These reactors offer several advantages, including the 
potential to enhance energy security at military installations. How do 
you intend to engage with the Department of Defense on energy security 
and, in particular, the small, modular reactor program?
    Answer. I share your support for DOE's Small Modular Reactor 
program and its focus on public-private partnerships to develop this 
promising technology. I believe small modular reactors could represent 
the next generation of nuclear energy technology, providing a strong 
opportunity for America to lead this emerging global industry. In 
particular, small modular reactors may be applicable to Department of 
Defense activities, including providing baseload power at U.S. military 
installations. If confirmed, I would look forward to working with you 
and the Department of Defense to determine how small modular nuclear 
reactors may appropriately benefit our military operations.
    Question 7. Dozens of reports have been written in the past 15+ 
years that have indicated DOE and NNSA's approach to managing, 
governing, and overseeing the nuclear security enterprise is broken. 
For instance, in 2009 the bipartisan Strategic Posture Commission said, 
``The NNSA was formed to improve management of the weapons program and 
to shelter that program from what was perceived as a welter of 
confusing and contradictory DOE directives, policies, and procedures. 
Despite some success, the NNSA has failed to meet the hopes of its 
founders. Indeed, it may have become part of the problem, adopting the 
same micromanagement and unnecessary and obtrusive oversight that it 
was created to eliminate.'' This and many other studies have 
recommended fundamental reform to address these long-standing, well-
documented problems--do you agree? As Secretary, what specific steps 
will you take to fix these problems?
    Answer. If confirmed, I will want to meet early on with the NNSA 
Administrator, the weapons lab directors, the DoD, engaged members of 
Congress, and others to understand in more depth the organizational, 
management and performance challenges associated with NNSA. I support 
the efforts of the Department to clarify and streamline roles and 
responsibilities within the NNSA organizational structures and to 
harmonize directives, policies, and procedures across the entire 
department (this is important since many DOE sites have major NNSA and 
non-NNSA programs). I am aware of the Congressional commission formed 
to recommend ways to improve NNSA performance. I consider this an 
opportunity to formulate and implement a plan in relatively short order 
and, if confirmed, will be available to work with the commission as 
appropriate.
     Responses of Ernest J. Moniz to Questions From Senator Franken
    Question 1. If confirmed, will you continue Department of Energy 
efforts to support the development of cellulosic, algal, and other 
advanced biofuels?
    Answer. I support the President's all-of-the-above strategy as well 
as his recently announced goal of cutting net oil imports in half by 
2020. Developing advanced biofuels is an important part of that plan 
and, if confirmed, I will support research and policies that will 
advance next-generation renewable fuels to market competitiveness.
    Question 2. One of the challenges associated with commercializing 
new biofuels is limited market space. Will you support the Renewable 
Fuel Standard to make sure incentives are available for cellulosic, 
algal, and other advanced biofuels?
    Answer. The Renewable Fuel Standard is administered by the 
Environmental Protection Agency but it serves as a significant driver 
for DOE's technology development programs including advanced biofuels. 
If confirmed as Secretary of Energy, I would be strongly committed to 
supporting and advancing this research. As I mentioned during my 
testimony, if confirmed, I plan to focus on lowering the cost of next 
generation energy technologies such as advanced biofuels to accelerate 
our transition to a low-carbon economy.
    Question 3. If confirmed, how will you utilize your resources in 
the Department of Energy to make sure that methane leakage during the 
extraction, processing, and delivery of natural gas is properly 
measured, monitored, and reduced? Will you ensure that data on methane 
leakage is effectively accounted for when climate change impacts of 
natural gas are compared to other fuels?
    Answer. Natural gas is an important part of the Nation's energy 
mix. I share the President's concern about climate change and methane 
is a powerful greenhouse gas even though its residence in the 
atmosphere is relatively short. In order to mitigate the climate 
impacts of methane emissions from natural gas systems, we should 
support the development and deployment of technologies to address 
methane leakage and fugitive emissions at the wellhead and along 
pipeline corridors, and in distribution systems. If confirmed, I would 
also like DOE to help assess current ``end-to-end'' leakage and to 
determine the best monitoring technologies at all stages of production, 
distribution and use. This will allow us to set priorities for 
minimizing leakage. Other energy sources and systems should be studied 
as well.
    Question 4. How can the Department of Energy better assist states 
with the deployment of energy efficiency and renewable energy 
technologies?
    Answer. The States, including state energy offices, have been 
significant policy innovators in energy efficiency and renewable 
technology deployment and I applaud them for these efforts. If 
confirmed, I look forward to learning more about what technical 
assistance the Department is currently providing to states in this area 
and to increasing the level of the dialogue with states and cities. The 
Administration-proposed Race to the Top will provide a new way of 
working with the states on energy efficiency.
      Responses of Ernest J. Moniz to Questions From Senator Scott
                                  mox
    Question 1. The MOX program has demonstrated bipartisanship through 
three administrations. President Obama has stated support, as late as 
the State of Union Address in February, for this critical non-
proliferation program which includes agreements with Russia. Can you 
commit that the Obama Administration will continue this support?
    Answer. If confirmed, I intend to carry through on the President's 
commitment to the U.S. Plutonium Disposition mission, fulfilling our 
obligations under the US-Russia Plutonium Management and Disposition 
Agreement. I understand that NNSA is assessing the MOX project and 
potential alternative plutonium disposition strategies to identify 
options.
    Question 2. There are contingencies if the MOX program is 
cancelled, specifically financial compensation to South Carolina that 
could cost the federal government hundreds of millions of dollars more 
to store plutonium in the State--do you know if there are any plans to 
return the plutonium to other facilities around the country?
    Answer. I am not aware of any plans to return plutonium to other 
facilities.
                              lng exports
    Question 3. As you well know, the DOE has long-delayed the approval 
of 16 applications for licensure of LNG exports, under its authority 
granted by Section 3 of the Natural Gas Act. However, the study DOE 
commissioned NERA Energy Consultants to complete last year regarding 
the macroeconomic impacts of LNG exports found that they will lead to a 
``net economic benefit'' to the U.S. across all of their study 
scenarios. Do you still believe, as you said in Congressional testimony 
you gave on behalf of the MIT Energy Initiative in 2011, that ``For 
economic and geo-political reasons we recommend support for the 
development of a global market, and that would entail, for example, 
erecting no barriers to either the export or import of LNG''?
    If confirmed, will you work to expeditiously review and take action 
on the existing LNG export license applications?
    Some opponents to natural gas exports have suggested that any 
export licenses should be approved slowly, and on a staggered basis, 
with long review times between the approvals of deserving licenses. Do 
you agree with this approach?
    Answer. The President is committed to the safe and responsible 
production and use of natural gas, and I share that commitment. With 
regard to exports of natural gas, I am aware that the Department has 
decisions pending before it with regard to applications to export LNG 
to non-FTA countries. It is my understanding that the Natural Gas Act 
requires that DOE, when considering applications to export to non-FTA 
countries, conduct a public interest determination review prior to the 
issuance of authorization orders. If confirmed, I am committed to 
ensuring that DOE makes transparent decisions in the public interest 
based on unbiased analysis and that it acts on these applications as 
expeditiously as possible.
    If confirmed, I am committed to ensuring that DOE makes 
transparent, analytically-based decisions on these applications as 
expeditiously as possible.
    I am aware that DOE in the Sabine Pass decision stated that it 
would take into consideration cumulative impacts of LNG exports. If 
confirmed, I am committed to ensuring that DOE makes transparent, 
analytically-based decisions as expeditiously as possible.
                          savannah river site
    Question 4. Please give me your thoughts about the future of SRS 
and the important role it pays in our national security and energy 
future as well as the economy of South Carolina.
    Answer. Work at SRS--including the Savannah River National 
Laboratory--involves important practical application of SRS nuclear 
expertise and its engineering capability to safely and effectively 
manage nuclear materials. SRS also plays a critical role in the 
disposition of fissionable materials and the manufacture of critical 
nuclear weapons components. I am aware of the breadth of the Savannah 
River Site (SRS) cleanup efforts, which include treating, storing and 
disposing of a variety of radioactive and hazardous waste streams, 
cleaning up soil and groundwater, deactivating and decommissioning 
unneeded facilities, and the secured storage of foreign and domestic 
research reactors spent (used) nuclear fuel. I support the site's 
continued contribution to the Department as it completes the 
environmental remediation of legacy waste sites and advances the 
Department's national security mission.
                              foreign oil
    Question 5. Recently, the U.S. Energy Information Administration 
(EIA) released data that shows the United States has been increasing 
its dependence on oil from the Middle East, one of the most unstable 
regions in the world. Middle Eastern oil now accounts for more than 25 
percent of American oil imports--a nine year high that has come at the 
same time as record gasoline prices. As Secretary of Energy, what will 
you do to decrease this trend? In your opinion, from a national 
security perspective, should America import more oil from Canada or 
OPEC countries?
    Answer. The President has an all-of-the-above strategy to reduce 
oil imports. The data demonstrate the success of this strategy. 
Domestic oil production is now at a 15-year high, fuel economy 
standards were substantially increased for the first time in decades, 
and oil imports have been cut by more than 3.6 million barrels per day. 
If confirmed, I will strongly support the President's efforts in this 
regard and his goal of cutting net oil imports in half by the end of 
the decade. Meeting this goal will be achieved, in part, by reducing 
overall oil consumption. At DOE, advances in research and development 
of electric vehicles and next-generation fuels can and will aid that 
effort by significantly reducing oil demand.
                             nuclear trade
    Question 6. There is a growing global market for civilian nuclear 
power plants. Worldwide, 70 commercial nuclear reactors are under 
construction and an additional 170 reactors are planned or on order. 
The Commerce Department estimates the commercial opportunity over the 
next decade may be worth as much as $740 billion. However, many of 
these opportunities are in regions where U.S. nuclear companies are not 
present, such as the Middle East and Southeast Asia. If U.S. suppliers 
were able to capture nominally 25 percent of this market, they would 
create or sustain up to 185,000 high-paying American jobs. Can you 
assure us that, as Secretary of Energy, you will work to open up 
markets for U.S. nuclear exports in emerging nuclear countries?
    Answer. Yes. Having US firms engaged in the global nuclear 
technology industry serves American interests both for economic reasons 
and for national security reasons. The Secretary of Energy has a very 
important role to play in the export licensing process regulated under 
10 CFR part 810 (Part 810). Part 810 regulates the export of 
unclassified nuclear technology and assistance by persons subject to 
the jurisdiction of the United States, to facilitate international 
commerce while at the same time protecting against the spread of 
nuclear technologies and material that would be contrary to the 
nonproliferation and other national security interests of the United 
States. Part 810 has not been comprehensively updated since 1986 and 
the Department has been working on rulemaking since 2011 that better 
reflects changes in the nuclear technology market. If confirmed, I look 
forward to briefing you after the rulemaking process has been finalized 
and to discussing U.S. nuclear exports to emerging economies.
                             set-top boxes
    Question 7. The Department appears to still be moving towards a 
regulatory mandate for set-top boxes. In the meantime, the department 
has failed to complete many other rulemaking that are long overdue.
    Please explain why the DOE has given such high priority to spending 
taxpayer money on something already covered by the Set-Top Box Energy 
Conservation Agreement. Given that the industry is already committed to 
saving consumers billions of dollars more in electricity years before 
any regulatory approaches could take effect, doesn't the DOE (and 
consumers) have far more to gain--in immediate energy savings, 
innovation, and competition--than to lose by suspending its proceedings 
and giving the Set-Top Box Energy Conservation Agreement a chance to 
work?
    Answer. I am not familiar with the details of the Set-Top Box 
Energy Conservation Agreement. If confirmed, I look forward to learning 
about the agreement and its relation to the rulemaking process. My 
goal, if confirmed, will be to ensure the Department makes an 
appropriate determination for the best path forward. In this case and 
more broadly, I also pledge to work closely with industry stakeholders 
and consumer advocates to find commonsense solutions that save energy 
and reduce consumer costs.
                              transparency
    Question 8. President Obama promised to make his administration the 
most transparent in history. However, former EPA administrator Lisa 
Jackson used an alias email address to conduct official agency 
business--do you plan on using alias or personal emails to conduct 
official business? What will you do to ensure the utmost transparency 
at the Department of Energy?
    Answer. If confirmed, I intend to conduct business in a transparent 
manner. I have no intention of using an alias or personal e mails to 
conduct official business. Furthermore, I will work with the General 
Counsel, Chief Information Office, and other officials to ensure the 
Department's document retention policies are understood and adopted by 
all DOE employees.
                             carbon pricing
    Question 9. Dr. Moniz, in an interview last year you said that if 
the U.S. starts ``squeezing down on carbon,'' inevitably the cost of 
energy would increase. Do you think this is a good time to increase the 
cost of energy on American families? If no, when is a good time? If 
yes, what kind of impact do you think that will have on the economy? 
What do you think the price of a gallon of gasoline should be?

          Full quote: ``If we start really squeezing down on carbon 
        dioxide over the next few decades, well, that could double; it 
        could eventually triple.. I think inevitably if we squeeze down 
        on carbon, we squeeze up on the cost, it brings along with it a 
        push toward efficiency; it brings along with it a push towards 
        clean technologies in a conventional pollution sense; it brings 
        along with it a push towards security. Because after all, the 
        security issues revolve around carbon-bearing fuels.''

    Answer. The Administration wants to lower energy bills for 
Americans, not raise them. I do not think that a push toward clean 
energy requires everyone to spend more. To the contrary, my focus as 
Secretary of Energy, if I'm confirmed, will be to help drive down the 
cost of all forms of energy while still meeting our environmental and 
energy security needs. This is why my quote includes a reference to 
energy efficiency which could enable net savings in energy costs 
relative to the cost of supply. The increase in the MPG requirements in 
the new CAFE standards is a case in point. Even if the international 
price of oil goes up, Americans will still save billions of dollars on 
gasoline in the future because of doubled fuel economy. Also, as I 
noted in my hearing, the objective of our investments in low/no carbon 
energy technologies should be cost reduction to ensure that consumers 
do not pay more for these technologies in the future.
                            energy subsidies
    Question 10. Recently, the Energy Information Administration 
forecasted the percentage of America's energy consumption by fuel 
source 27 years from now. Despite the billions of dollars in government 
taxpayer money spent on renewable energy programs, by 2040 wind, solar 
and biomass will only account for 8 percent of America's energy 
consumption. Considering the United States is $16 trillion in debt, and 
the troubled history of some of the taxpayer subsidized energy 
programs, do you believe it's the best use of taxpayer funds to 
continue to shovel billions of dollars at these questionable renewable 
programs if the U.S. is still going to be 80 percent dependent on 
traditional energy in 27 years? If yes, why? At what percentage of 
total consumption would you consider renewable energy sources like 
solar and wind mature enough to stop receiving federal subsidies? 
Shouldn't the market decide what energy sources are economically 
competitive and viable?
    Answer. The research community studying climate science for several 
decades overwhelmingly agrees that we need to accelerate the transition 
to a low carbon economy as an essential strategy for mitigating the 
most serious impacts of climate change. The pattern of impacts 
predicted long ago is increasingly evident and costly to our society. 
As I mentioned in my testimony, many military and religious leaders 
also emphasize the importance of accelerating the transition to a low-
carbon economy.
    This is not an easy task. Energy infrastructures take decades to 
turn over and we have an obligation to develop and deploy affordable 
energy technologies at a scale sufficient to power and fuel the nation. 
To have a material impact on these challenges without significant 
economic dislocation, we need a two-pronged approach to energy 
research: improve existing technologies and fuels to reduce their 
carbon impacts by, for example, increasing efficiency and capturing 
carbon; and increase our investments in developing transformational 
technologies that are affordable, abundant and more environmentally 
benign. A key for acceleration is lowering the cost of low-carbon 
options for the marketplace, and that is the goal of DOE's R&D 
portfolio.
     Responses of Ernest J. Moniz to Questions From Senator Manchin
    Question 1. You have stated that you understand the need for Coal 
and Coal related Research Programs, including carbon sequestration. 
Would you be receptive to increasing the Carbon Capture and 
Sequestration (CCS) budget and do you see benefit in increasing the 
budget for coal program areas outside of CCS?
    Answer. Coal will remain an important component of the nation's 
energy mix for decades and the Administration has committed nearly $6 
billion to carbon capture and sequestration technology development 
since 2009. We must continue to invest in research and development for 
all of our Nation's energy sources as we transition to a low carbon 
economy, including oil and gas, wind and solar, nuclear, and clean 
coal. If confirmed, I intend to work with DOE research leadership and 
key stakeholders to assess the research portfolio structure and 
balance. With regard to CCS, I would hope to be able to extend the 
storage demonstrations period at a small number of sites to a decadal 
time scale. Ultra-high efficiency plants could be another direction to 
explore if resources are available, especially since this would provide 
a better basis lower cost CCS.
    Question 2. It seems to me that the majority of the energy research 
we are doing right now is related to future technologies which have not 
been proven as economically, or even technologically viable. Yet there 
are several published studies which identify how--through making modest 
upgrades to existing infrastructure, notably coal-fired power plants--
we can affect significant reductions in Greenhouse Gas emissions. As 
Secretary of Energy, do you see an opportunity for greater funding of 
``now-term'' projects--through public/private partnerships or 
otherwise--to take advantage of this low-hanging fruit?
    Answer. As I mentioned in my previous response, the Administration 
has made historic investments in advancing clean coal technologies, 
having committed nearly $6 billion to carbon capture and storage 
technology since 2009. I believe public-private partnerships initiated 
by DOE have had tremendous success in promoting technological 
development. If confirmed, I will seek out additional public-private 
partnerships that will be successful in advancing DOE's mission with 
fewer taxpayer dollars.
    Question 3. As Secretary of Energy, would you support a robust 
suite of research programs into other coal related technologies 
including power efficiencies, combustion research, gasification, fuel 
cells, and coal-to-liquids?
    Answer. If confirmed, I will commit to review the research programs 
within the Office of Fossil Energy to ensure that Department is 
supporting an appropriate suite of technologies to meet the 
Administration's energy policy, security, economic and environmental 
objectives. As noted in an earlier response, increased efficiency (for 
combustion or gasification) is a key enabler for CCS.
    Question 4. What about your vision for the DOE Office of Fossil 
Energy? Some of their programs, such as combined heat and power, co-
firing of coal and biomass, and reliability management, have been 
recently moved to other areas of DOE. When will they be brought back to 
the FE fold of work?
    Answer. If confirmed, I will assess the distribution of research 
activities across the Department to ensure the Department's research is 
being conducted in ways that maximize the Administration's energy 
policy, security, economic and environmental objectives. When I served 
as DOE Undersecretary, I instituted a portfolio planning process that 
cut across organizational ``stovepipes'', since many key energy 
technology challenges do not fit neatly in one of the existing offices. 
If confirmed, I intend to follow a cross-cutting outcome-oriented 
portfolio management process through an updated Quadrennial Technology 
Review.
    Question 5. It is reported that the United States has tens of 
billions of barrels of oil left stranded in known reservoirs. This is 
in addition to the recent increased production of natural gas and oil 
as a result of shale reservoirs, which I might add, DOE played a 
significant role in research and development thereof.
    It is obvious that advanced technologies are needed to unlock this 
substantial domestic resource of ``stranded'' oils. However, this 
Administration consistently requests zero, I repeat, zero funding for 
Department of Energy oil research.
    My question to you Dr. Moniz is--given this significant potential 
and all the associated benefits to our nation if we develop this 
``stranded'' oil resource, would you, if confirmed, advocate for 
research funding focused on Enhanced Oil Recovery, including funding 
for carbon dioxide enhanced oil recovery technologies?
    Answer. If confirmed, I will assess the distribution of research 
activities across the Department to ensure the Department's research is 
being conducted in ways that maximize the Administration's energy 
policy, security, economic and environmental objectives. A Quadrennial 
Energy Review could provide guidance on priorities to be pursued with 
constrained resources. With regard to EOR specifically, a study carried 
out for the EIA suggested that 3M bbl/day might be produced 
domestically with CO<INF>2</INF> EOR, and this is part of several of 
the CCS projects currently being supported. Such a factor of ten 
increase in CO<INF>2</INF> EOR compared with today would require 
capture of over five hundred megatons of CO<INF>2</INF> from power 
plants and/or appropriate manufacturing facilities.
    Question 6. The Department of Energy's research portfolio seems 
void of research aimed at improving the efficiency of natural gas 
production from shale formations and other unconventional formations, 
and in maximizing resource recovery. Such research would have 
widespread benefits for many businesses and for our nation.
    That being the case, do you recognize the value in production-
related research and would you actively work to secure funding from 
Congress through the DOE Office of Fossil Energy to conduct this 
research?
    Answer. As you mention in your previous question, DOE played a 
significant role in the research and development that has led to U.S. 
industry greatly increasing our Nation's natural gas and oil production 
from shale. Going forward, if confirmed, I will work to ensure the 
Department's research is appropriately focused to facilitate our 
transition to a low carbon economy that includes a broad range of 
domestic energy sources, including natural gas. I would also note that 
DOE/NETL oversees research expenditures from the Royalty Trust Fund 
created in the 2005 Energy Policy Act. This research program supports 
environmentally sound unconventional natural gas production, among 
other programs such as ultra-deep water, small producers, and methane 
hydrates.
    Question 7. Many of the landowners and businesses alike involved in 
the recovery of Shale gas are concerned about the usage of water in 
that process. Given the enormous economic potentials of this shale gas, 
such a concern should be addressed. To reduce the Environmental 
footprint of Natural Gas production, ``a comprehensive program is 
needed to address the issues of water use and backflow and produced 
water in unconventional gas production.'' If those last words sound 
familiar, they are from a report issued from an MIT study group you 
chaired in 2011.
    Would you support the funding of a program in the DOE office of 
Fossil Energy to accomplish such an important goal?
    Answer. I believe the safe and environmentally sustainable 
production of America's energy resources are a core part of the mission 
of the Office of Fossil Energy. I am aware of the cross-cutting work 
happening now with the Environmental Protection Agency and the 
Department of Interior to address this issue. The integrated use and 
disposal of water is a place where DOE could support research and 
developments that would help states incorporated the best practices to 
make sure that we develop natural gas safely and responsibly.
    Question 8. What is your view on Government-owned/Government-
operated (GO/GO) national laboratories, instead of the more common DOE 
structure of Government-owned/Contractor-operated (GO/CO)?
    Answer. The Government-owned/Contractor-operated lab model has its 
roots in the Manhattan Project era. At most DOE sites, the GO/CO model 
has remained in place. As you are aware, the exception to this model is 
the National Energy Technology Laboratory (NETL), which is operated as 
a Government-owned/Government-operated lab. In contrast to the GO/CO 
labs, NETL has substantial contract management responsibilities that 
call for Federal employees.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

     Statement of Hon. Debbie Stabenow, U.S. Senator From Michigan
    Mr. Chairman, I am glad to support the President's nomination of 
Ernest Moniz to serve as the Secretary of Energy. Dr. Moniz has the 
knowledge and experience to be a very effective leader of the 
Department of Energy.
    His career has prepared him of this position. As an outstanding 
physicist and engineer at MIT, Dr. Moniz understands the large benefits 
that federal investments in both basic and applied scientific research 
bring to our country. For example, Michigan State University is on 
track to serve as the home of the Facility for Rare Isotope Beams. It 
will be a world-leading nuclear isotope research facility that will 
provide advances in medicine, energy, material sciences, and national 
security.
    As a current member of the President's Council of Advisors on 
Science and Technology, and with his ongoing work at MIT, he 
understands the many challenges and opportunities in developing new and 
cleaner energy sources for the future. Michigan is leading the way on 
advanced vehicle technologies and clean energy manufacturing. I believe 
that Dr. Moniz will be a strong partner in accelerating that effort.
    I am confident that Dr. Moniz will use his experience as a former 
Under Secretary of Energy and Director in the DOE's Office of Science 
to lead the Department of Energy in meeting its many responsibilities 
and helping our nation win the global race to develop clean energy 
sources.
                                 ______
                                 
   University Professional and Technical Employees,
                                   CWA Local 9119, AFL-CIO,
                                       Berkeley, CA, April 4, 2013.
Hon. Ron Wyden,
Senator, 221 Dirksen Senate Office Building, Washington, DC.
RE: Confirmation Hearing on April 9, 2013 of Dr. Ernie Moniz for 
Secretary of Energy

    We would very much appreciate if you would be able to either ask 
these questions at the hearing or submit them in writing. Of course, 
feel free to rephrase as you see fit. Background details are in the 
letter we sent to President Obama, a copy of which is attached.
                           proposed questions
          1) Do you believe that milestone-driven science with a 
        management system that ties bonuses to meeting project 
        milestones undermines core scientific competencies or would the 
        old system (at LANL and LLNL) of hypothesis-driven research be 
        more effective?
          2) Do you believe that this new for-profit management style 
        has led to more or less transparency and accountability 
        compared to the past public sector management model?
          3) The for-profit monopoly managing Los Alamos and Lawrence 
        Livermore National Labs has been obsessed with selling the 
        design of new and untested warhead physics packages (Reliable 
        Replacement Warhead or RRW). Do you believe this is a wise tax 
        expenditure and in the best interest of national security?
          4) Is the Administration committed to fixing the 
        deteriorating state of affairs at the nation's national 
        security laboratories (Los Alamos and Lawrence Livermore 
        National Laboratories), as documented in the recent study 
        conducted by the National Academy of Sciences?
          5) In particular, will you build a path toward returning the 
        Labs to public-sector management, not only saving $300 million 
        to $400 million annually, but returning the focus to serving 
        the public interest?
          6) As a very minimum, would you be prepared to stop the 
        current practice of yearly one-year extensions to the 
        management contracts?
            Sincerely,
                                               Jeff Colvin,
                           Legislative Director, SPSE-UPTE at LLNL.
                                                Rodney Orr,
                         Legislative Director, UPTE-CWA Local 9119.
                              attachments
Society of Professionals, Scientists and Engineers,
           University Professional and Technical Employees,
                                   CWA Local 9119, AFL-CIO,
                                   Livermore, CA, February 4, 2013.
Hon. President Obama,
The White House, 1600 Pennsylvania Avenue, NW, Washington, DC.
    Dear Mr. President, We are writing to urge you to select a new 
Secretary of Energy who will commit to fixing the deteriorating state 
of affairs at the nation's national security laboratories, Lawrence 
Livermore National Laboratory (LLNL) and Los Alamos National Laboratory 
(LANL). As you may be aware, these national labs were managed since 
their founding by the University of California (UC) as public, non-
profit entities until 2006-2007, when their management contracts were 
awarded to private, for-profit companies: Lawrence Livermore National 
Security (LLNS, LLC) at LLNL and Los Alamos National Security (LANS, 
LLC) at LANL. Since the two companies share the same parent firms and 
board of governors, they constitute, in our view, a dangerous for-
profit monopoly in the mission of this nation's nuclear weapons 
certification.
    One of the principal objectives in bidding the labs was to achieve 
more transparency and accountability\1\. Instead, the result has been 
far less of each. This has led to one fiscal and/or national security 
problem after another. Of continuing concern to the employees at these 
labs, the transition to private, for-profit management at the labs has 
resulted in a serious degradation in employee morale, employee 
recruitment and retention, and overall scientific productivity.
---------------------------------------------------------------------------
    \1\ House Energy & Commerce hearing on National Labs, 1 May 2003.
---------------------------------------------------------------------------
    As part of a Congressional directive, the National Nuclear Security 
Administration (NNSA) of the US Department of Energy (DOE) contracted 
with the National Academies (NAS) to conduct a study of the effects of 
the management structure of the NNSA labs on their science and national 
security missions. The NAS study concluded what the employees had 
already concluded, that by almost any measure, things are worse at the 
labs since the management transition. The NAS, however, placed all of 
the blame for the identified problems on over-regulation of the labs by 
NNSA and none on the LLNS&LANS for-profit monopoly management structure 
itself. This is a fundamental flaw in the NAS report, which, in our 
view, negates its usefulness. We are not the only ones to notice this 
obvious flaw; Hugh Gusterson, a columnist for Bulletin of the Atomic 
Scientists, has also written about it.\2\
---------------------------------------------------------------------------
    \2\ Gusterson, Hugh, ``Weapons Labs and the Inconvenient Truth'', 
Bull. Atomic Scientists, 28 February 2012.
---------------------------------------------------------------------------
    Further, NAS was dismissive of the extra $300,000,000 or so per 
year of direct cost to support the LLNS&LANS management structure, but 
that $300M is enough in fact to support an ongoing Stockpile Life 
Extension Program, or SLEP (at least, this was true before the 
LLNS&LANS era of inflated costs and estimates).
    With no competition and a ``revolving door'' relationship with NNSA 
and others, LLNS&LANS has been obsessed with pedaling the design of 
new, untested nuclear warhead physics packages (aka RRW, Reliable 
Replacement Warhead) ever since the genesis of LLNS&LANS in 2004. This 
course for the future is not only unnecessary and expensive, but puts 
national security at risk due to the reckless design philosophy. Much 
of the nuclear weapons old guard has echoed these risks. Yet, due in 
part to the conditions of this unaccountable for-profit monopoly 
structure, renamed ``Back door'' RRW plans persist to this day, risking 
tax dollars but also risking national security itself.
    Meanwhile, bids for traditional SLEPS (e.g., B61, W78) have 
escalated by factors of ten over what they were before the failed 
LLNS&LANS era. Bids for new facilities to support stockpile stewardship 
have escalated in a similar manner (plutonium metallurgy at LANL, NIF 
at LLNL, and even uranium at the Y-12 production plant), as the 
LLNS&LANS partner LLCs become proficient in the tactics of running up 
bids and holding the taxpayers hostage to a for-profit monopoly.
    Worse, both labs have steadily moved away from doing hypothesis-
driven science to a focus on milestone-driven science, under a 
management system that ties the management bonuses the companies 
receive to meeting project milestones. The profit-driven management 
structure makes it harder and harder to maintain the core scientific 
competencies on which the national security missions of the labs 
depend.
    We have included two background items for your consideration:

          1. Our 13 February 2012 testimony for the record, provided at 
        the 16 February 2012 House Armed Services Committee (HASC) 
        hearing on the NAS study discussed above.
          2. Our 29 February 2012 letter in response to the NAS 
        statements at that hearing, including our recommended path 
        forward for these national labs.

    We respectfully request that you work with the new DOE Secretary to 
build a path toward returning the labs to public-sector management, 
with a return of their focus to serving the public interest. As a very 
minimum, we ask that the Administration stop the current practice of 
yearly one-year extensions to the contracts as a reward for good 
performance.
            Sincerely,
                                               Roger Logan,
                             Retired from Los Alamos and Livermore.
                                               Jeff Colvin,
                                          UPTE, Lawrence Livermore.
                                            Manny Trujillo,
                                                  UPTE, Los Alamos.

   University Professional and Technical Employees,
                                   CWA Local 9119, AFL-CIO,
                                   Berkeley, CA, February 13, 2012.
Michael Turner,
Chairman, House Armed Services Subcommittee on Strategic Forces, 2216 
        Rayburn House Office Building, U.S. House of Representatives, 
        Washington, DC.
Loretta Sanchez,
Ranking Member, House Armed Services Subcommittee on Strategic Forces, 
        2216 Rayburn House Office Building, U.S. House of 
        Representatives, Washington, DC.
    Dear Chairman Turner and Ranking Member Sanchez: As your 
Subcommittee prepares to hold a hearing on the governance, oversight 
and management of the nuclear security enterprise and to hear from the 
National Academy of Sciences (NAS) in regards to their report on the 
issue, we felt it necessary to share with you some of our views and 
concerns. As individuals with a long history working in this 
environment and leaders of the organization representing employees at 
the DOE/NNSA laboratories, the Los Alamos National Laboratory and the 
Lawrence Livermore National Laboratory we believe that we can provide 
critical insight on this vital subject matter. We applaud you for 
holding the hearing and hope that a number of important issues will be 
addressed at the hearing.
                               background
    The National Academy of Sciences (NAS) recently completed their 
year-long study of the effects on their scientific and national 
security missions of the transition to private, for-profit monopoly 
management of the DOE/NNSA laboratories, the Los Alamos National 
Laboratory and the Lawrence Livermore National Laboratory. The final 
NAS report was just released. In our testimony today we would like to 
summarize and amplify what we told the NAS about the many ways the work 
environment has changed at the Labs since the management transition, 
and how these changes have had a detrimental effect on accomplishment 
of the Labs' missions. The changed environment has affected careers 
through program misdirection and loss of trained personnel, and has 
escalated a decline in science and engineering productivity. Both Labs 
have suffered from a decline in recruitment and a continued loss of 
senior people.
    We believe that the root cause of all these problems is the for-
profit monopoly management structure itself. We would like to summarize 
here the two main reasons why we believe this, and suggest to you what 
can and should be done to correct these problems.
 corruption of the scientific method by for-profit monopoly management
    In order to understand better what is fundamentally wrong with the 
way the science enterprise is now conducted at the Labs, we first would 
like to describe for you the right way to do science. The right way to 
do science is to follow strictly the scientific method. The scientific 
method was first developed over 400 years ago, and its implementation 
has led to fundamental advances in our understanding of natural 
phenomena, a seemingly endless sequence of technological developments 
based on new understandings of nature, and a consequent vast increase 
in human prosperity that has become the foundation of modern 
civilization. In other words, hypothesis-driven science, based on the 
scientific method, has a long history of success.
    In hypothesis-driven science, we first inductively construct a 
mathematical model of the observed properties and behavior of the 
physical system of interest, then we use the model to develop a 
hypothesis of how the physical system will behave or respond to new or 
different conditions, then we test the hypothesis by carefully designed 
experiment, then we use the experiment results to refine the model. 
Iterating these steps advances our knowledge and understanding. In 
hypothesis-driven science, modeling and experiment work 
synergistically. No incentive is necessary, since the advancement of 
knowledge is simultaneously its own incentive and its own reward. At 
the Labs now, there is not much hypothesis-driven science being done. 
Instead, it is mostly milestone-driven science, and much more so since 
the transition to private for-profit management. In milestone-driven 
science, we develop a milestone, or a set of milestones, for model 
prediction, and a separate set of milestones for experiment. Modeling 
and experiment results are ends in themselves, detached from any need 
to advance understanding. Unlike hypothesis-driven science, milestone-
driven science does not have an already built-in incentive.
    At the Labs, milestone-driven science is incentivized by monetary 
reward, particularly the performance-based incentive management bonuses 
built into the management contract. Thus, with the for-profit 
management structure, the focus has shifted dramatically to meeting 
contract performance goals and earning the maximum performance fee. 
This single-minded focus on milestone-driven science has resulted in 
less tolerance for the open debate and discussion that is necessary 
both for good science and engineering and for regulatory compliance. In 
other words, any critiques--vitally necessary to the success of 
hypothesis-driven science--that are viewed by management as potentially 
putting the management fee at risk are strongly discouraged, even 
suppressed. Scientists and engineers cannot function properly in such 
an environment.
    At the start of the NAS Study, we presented to the Study panel one 
example of how, at Lawrence Livermore, milestone-driven science has 
impeded the progress of scientific understanding vital to the nation's 
goal of achieving fusion ignition. The example we gave at that time 
concerned the determination of the high-pressure compressibility of 
deuterium. Measurements made at different Labs using different 
experiment facilities and different measurement techniques came up with 
widely different values for deuterium compressibility at a pressure of 
about a million atmospheres. Despite several proposals that were 
advanced by Livermore scientists and others on how we might resolve the 
issue of which measurement is correct, management's attitude was that 
the matter was closed--after all, the Lab did meet the milestone to get 
the measurement--and resources would instead be directed at moving on 
to the next milestone. Management's focus on meeting milestones rather 
than advancing understanding is a principal factor in why the issue of 
the correct compressibility of deuterium remains unresolved to this 
day.
    Now, a more recent happening, also in the National Ignition 
Campaign, provides an even more dramatic example of the failures of 
milestone-driven science and how it has put the Lab's future in 
jeopardy.
    The first strategic error was to promise fusion ignition by a date 
certain, and then devise arbitrary experiment milestones to get to the 
goal by the promised date. Unexpected results were obtained last 
September in National Ignition Campaign experiments on the National 
Ignition Facility (NIF) laser at Livermore. These experiment results 
were a serious setback to meeting the performance milestones in the 
National Ignition Campaign. Management's response to this setback was 
to postpone all other experiments on the NIF laser--experiments by the 
weapons program, DOD experiments, and other science experiments--and to 
reallocate resources from other programs so as to conduct an 
accelerated National Ignition Campaign. In other words, they doubled-
down on the original bet, still banking on meeting the milestones and 
getting to the promised land by the promised date. If the original bet 
was risky, the doubled-down bet is riskier still.
    Meanwhile, there has been a major disruption for almost all 
employees at the Lab. Some have seen a complete cessation of the work 
they were doing. Others have been re-assigned to other tasks in direct 
support to the National Ignition Campaign, sometimes without a good fit 
to their expertise. How this is all going to play out over the coming 
months is yet to be seen.
    The recognition that milestone-driven science is a problem is not 
original with us, or with the NAS Study panel. More than two years ago, 
on January 28, 2010, Dr. Richard Garwin of IBM prepared information for 
Congress. At that time this is what he said:

          ``Scientists and weapons experts were seriously demoralized--
        however unintentionally--by the transfer of Los Alamos and 
        Livermore to corporate management, with no prior recognition 
        that for each Laboratory there would be a $100 million 
        management fee and a similar further program budget reduction 
        because Laboratory activities would no longer be exempt from 
        tax. This lack of foresight and the apparent valuation of 
        bureaucratic milestones over technical performance has been a 
        substantial problem in recent years.''

    If Congress allows the current arrangement of for-profit milestone-
driven science to stay in place at the Labs, there will just be an 
endless series of such disruptions and failures, and the damage to the 
Labs and their scientific missions will be irreparable. The time is now 
to make the fix. The fix to us is obvious: re-compete the management 
contracts, and deprivatize.
    Before we get to that, however, we discuss briefly another serious 
flaw in the current for-profit monopoly management structure of the 
Labs.
         wasting public money by for-profit monopoly management
    The original objective of Congress in putting the Labs up for bid 
was to improve efficiency, accountability, and transparency\1\. NNSA's 
awkward bid process, however, all but precluded the transparency of a 
public C-Corporation and instead compelled the opaque private LLC 
structure we have now.
---------------------------------------------------------------------------
    \1\ House Energy & Commerce, ``Review of the University of 
California's Management Contract for Los Alamos National Laboratory'' 
Subcommittee on Oversight and Investigations, 1 May 2003.
---------------------------------------------------------------------------
    Furthermore, a private monopoly is anything but efficient; hence 
the existence of anti-trust laws. A for-profit monopoly funded by the 
government is worse still, and when we add a lack of tangible, 
customer-testable products (nuclear warheads), this is the worst 
situation of all.
    ``Free Market'' capitalism involves a willing buyer, with a choice 
of which supplier to choose (e.g., Coke or Pepsi) and which price to 
pay (e.g. $1.89 as an emergency walk-in or $0.99 on sale). The 
availability of competing choices is what makes the system work--and 
lacking these ingredients, for-profit privatization becomes a very Un-
American idea indeed.
    ``Free Market'' capitalism for the employees (or as LLNS and LANS 
calls them, ``the most valuable resource'') means not just an option to 
leave a defective or corrupt firm, but an option to leave, join the 
competition instead, and help to sink the defective or corrupt firm. 
This helps keep greed, incompetence, and corruption in balance. This 
model has of course failed in the case of LLNS & LANS since, as a 
taxpayer subsidized private monopoly, they have no competition.
    The result has been apparent from day 1: LLNS and LANS cost the 
taxpayers an extra $400 million per year. But in another way, the 
$400M/yr (now approximately $2B after 5 years) is a small amount of 
money.
    Guided by the nuclear weapon design desires of LLNS and LANS, the 
NNSA has spent well over $30B since their takeover of the Labs and 
associated production complex. Since that time we have seen an endless 
(and failed) stream of LLNS and LANS proposals for new, untested 
combinations of plug-n-play nuclear weapons, designed to provide for 
easily met performance bonuses and easy management at LLNS and LANS. 
All of this has had the effect of diverting valuable resources, at 
great cost, from other missions--whether in science, energy, 
environment, or even in the curatorship and certification of the 
existing nuclear weapons stockpile to modern, professional standards. 
It is easier for LLNS and LANS to take the easy route, and NNSA rewards 
this bad behavior. The transparency of a public, non-profit structure 
would have a huge effect on discouraging such bad behavior.
    Nuclear weapons certification is another expensive failure of the 
LLNS and LANS monopoly. In this core mission, the National Academies 
reviewed the LLNS and LANS stillborn certification methodology\2\ after 
7 years of promises, and the NAS recommended that a different process 
be used\3\. An unaccountable monopoly resulted in a stagnant and 
inferior weapons certification process. The real world, both open 
public and corporate, has developed and implemented product 
certification based on national standards while the LLNS and LANS 
monopoly has only languished and spent massive tax dollars on ``Key 
Personnel'' salaries that are 10 to 20 times the American national 
average salary.
---------------------------------------------------------------------------
    \2\ National Academies, ``Evaluation of Quantification of Margins 
and Uncertainties Methodology for Assessing and Certifying the 
Reliability of the Nuclear Stockpile'', Mar 2009, http://www.nap.edu/
catalog.php?record--id=12531
    \3\ Logan, R.W., ``U.S. Nuclear Weapons Design and Certification 
Infogram: Comments on the NAS Draft Report on QMU'', Dec 2008.
---------------------------------------------------------------------------
    NNSA was advised by several competent sources\4\ not to award both 
Labs to the same ``Firm''. Yet, they did so anyway. The resulting 
monopoly led to a string of inevitable failures. In the real world, 
whether the open, non-profit, public world or an open, for-profit 
corporate world with competition, these failures would lead to the 
liquidation of LLNS and LANS, with the mission going to its competitors 
instead.
---------------------------------------------------------------------------
    \4\ Brian, Danielle, Project On Government Oversight, ``POGO's 
comments to the Draft Request for Proposals for the contract to manage 
Los Alamos National Laboratory'', Project On Government Oversight, 6 
Jan 2005. http://www.pogo.org/pogo-files/letters/nuclear-security-
safety/nss-lanl-20050106.html
---------------------------------------------------------------------------
                            action requested
     We believe that nuclear weapons science and certification, the 
major role of these NNSA labs, is inherently a public, non-profit 
mission. For this reason, and for the reasons outlined above, we 
strongly urge the Committee to include language in the National Defense 
Authorization Act for 2013 to re-compete the management contracts for 
the Los Alamos and Lawrence Livermore National Laboratories in such a 
way that these Labs are managed as public or private non-profit 
entities operating in the public interest, and to return their focus to 
their original science and national security missions. We also strongly 
believe that further Congressional delay in taking such action will be 
harmful to the national interest. We cannot continue to wait year after 
year since in the meantime, massive amounts of tax dollars are being 
wasted--not just the extra $400 million per year cost of the LLNS and 
LANS monopoly structure, but the misdirection of the entire $7 billion 
per year NNSA weapons budget. The future certification pedigree of the 
B61, W78, and W88 are now under direct threat.
    We also recognize that, in the current political climate, only 
smaller incremental steps may be possible in the near term. One step 
that we could take immediately would be to introduce lowcost 
competitors to the LLNS and LANS monopoly on site at each of the 
taxpayer-owned facilities of Los Alamos and Livermore. Several 
management-level people have expressed interest in such ``small 
business enterprises''. Will we continue to stifle their 
entrepreneurship and its potential benefits for the nation and its 
taxpayers? This small inexpensive step would introduce real free-market 
competition and help guide us toward the ultimate solution to the LLNS 
and LANS problem. The cost of these small independent non-profit 
enterprises could easily be covered by imposing a cap on the current 
LLNS and LANS management fees.
    We would again like to thank you for your attention to this 
critical issue and are available to answer any questions that you may 
have for us. Again, we believe that the input of the employees that 
work in the labs are critical in reviewing the developments of this 
change. Thank you for your attention and time.
            Respectfully,
                                           Dr. Jeff Colvin,
                                                    LLNL Physicist,
                                         SPSE Legislative Director.
                                           Dr. Roger Logan,
                        1st Directed Stockpile Work Leader at LLNL,
                             Retired from Los Alamos and Livermore.

Society of Professionals, Scientists and Engineers,
 Local 11, University Professional and Technical Employees,
                                   CWA Local 9119, AFL-CIO,
                                  Livermore, CA, February 29, 2012.
Hon. Michael Turner,
Representative, 2454 Rayburn HOB, Washington DC.
    Dear Representative Turner:
  upte response to the national academies' labs management report and 
                         congressional hearing
    On 15 February 2012 the National Academies (NAS) National Research 
Council released a congressionally mandated Report on their study of 
the management of the nation's national security laboratories: Los 
Alamos National Laboratory (LANL), Lawrence Livermore National 
Laboratory (LLNL), and Sandia National Laboratories (SNL). A 
subcommittee of House Armed Services (HASC) held a hearing on the topic 
less than 24 hours after the NAS Report was released. Motivating the 
study was the 2006-2007 transition of LANL and LLNL to private, for-
profit monopoly management by Los Alamos National Security, LLC and 
Lawrence Livermore National Security, LLC (LLNS&LANS for brevity). A 
quick Summary of the NAS report is as follows:

          1. Neither scientific productivity, nor operational 
        efficiency, nor employee morale has improved since LLNS&LANS 
        was given a for-profit monopoly. In fact, they have gotten 
        worse. The reasons are debatable, but the NAS Report says 
        things are worse--and we agree.
          2. The LLNS&LANS for-profit monopoly costs more. The exact 
        amount of the increased cost is arguable--the Report gives a 
        range of numbers between $210 million and more than $300 
        million per year--but in any case it is greater than the salary 
        of thousands of average Americans, a number large enough to 
        support an entire ongoing nuclear weapon refurbishment each 
        year. Astonishingly, the NAS Report is dismissive of the 
        increased cost, stating that it is ``a small fraction of the 
        total operating budget of the Labs''.
          3. Summing up [1] and [2] means LLNS&LANS management of the 
        Labs is a poor investment for the taxpayers. The NAS Report 
        does not emphasize this fundamental conclusion, but it also 
        does not refute this fact. At the HASC hearing, former LLNL 
        Director Dr. George Miller stated that ``we cannot waste a 
        single precious dollar on bureaucracy''. Subcommittee Chairman 
        Turner stated that ``we cannot afford such inefficiency and 
        waste'' referring to ``many hundreds of millions of dollars 
        each year''. Both were referring to the inferred dollars wasted 
        due to excess NNSA oversight. But the direct cost of 
        subsidizing the LLNS&LANS for-profit monopoly is an equal 
        amount of money, and this cost does not have to be inferred--it 
        is documented.
          4. The NAS Report puts the focus on excessive government 
        oversight, and the troubles with the National Nuclear Security 
        Administration (NNSA)-Labs relationship as the main cause of 
        the problems at the Labs.

    In our opinion, the NAS Report failed to recognize many issues, but 
they also noted several important things. The two main points NAS 
missed were addressed in our Letter for the Record to House Armed 
Services. We noted in our letter a [1] deleterious mutation of the 
scientific method from hypothesis-driven to ``Performance Based 
Incentive'' (PBI)-driven (what we have referred to as ``milestone-
driven'') science, and [2] the fact that a for-profit government funded 
monopoly, with no competition, is doomed to failure in numerous ways. 
Both can be easily fixed.
    Should there be less oversight? Sure, we agree with that, but as 
even the NAS Report and testimony admitted, that takes more trust and 
trust has to be earned over time.
    We agree with the NAS Report that the excessive formalities, 
checklists, and oversight put science, and experimental science in 
particular, in jeopardy. Of course, this does not mean that the lab 
employees should just show up every day and work without any documented 
goals or milestones.
    We, the people of these labs, know we are spending tax dollars--
billions of them. We know the taxpayers deserve to see results, and to 
know whether we meet milestones or are late with a credible scientific 
explanation. We believe, however, that it is the new profit-driven PBI 
process that skews these milestones into those that are scientifically 
either reckless or meaningless, more akin to checking boxes to make 
easy PBI's.
    In other words, the NAS report attributes the decline of science at 
the Labs solely to excessive oversight by NNSA, and misses the 
connection between excessive oversights and the PBI/ for-profit 
governance structure.
    This destructive pattern of PBI-driven milestones must change. It 
has been suggested that we revisit the maximum ``for-profit'' award 
fee. It is not clear what cutting the maximum award fee would do. It 
might reduce the incentive for greed and PBI-based milestones. It might 
not. In any case, we won't find out for another six years (until 2018 
when the re-bid process is done) and by that time it will be too late 
to avoid permanent damage to the Labs and their important science and 
national security missions. We need a solution right now, to help set 
the Labs on the right course and make sure that we spend tax dollars 
wisely.
    We believe strongly that the Labs' management contracts should be 
re-bid now, and Labs management returned to some appropriate non-profit 
entity and governed in such a way as to return their focus to their 
science and national security missions. We recognize, however, that in 
the current political climate there is little possibility of 
accomplishing such a large change all at once and in one large step.
    In the interim, we suggest that Congress begin the process in small 
steps. In its legislation for FY2013, Congress should mandate the 
formation of at least two small ``Mini-Labs'', one on each of the 
taxpayer-owned Lab sites in Los Alamos and Livermore. These Mini-Labs 
could serve as a pilot program to chart the way to return the Labs to 
nonprofit, public operation, and as a pilot program to show the 
benefits of rescuing our Labs from a stagnant for-profit monopoly. The 
evolution of these Mini-Labs over the next few years will help the 
nation and Congress decide the proper course of these Labs as a whole. 
Hopefully, by the time of re-bidding circa 2017 at the latest, we will 
have discovered how to permanently fix the problems identified in the 
NAS Report.
    To start, the first two of these small (couple dozen people) Mini-
Labs could be organized to compete against the giant LLNS&LANS for-
profit monopoly in its core mission of ``Annual Certification'' of the 
nuclear stockpile. Funds to do this are already available from NNSA's 
massive ``Advanced Certification'' campaign and other sources. This 
would accomplish three things:

          1. Establish a test case for an entity with a mission of 
        nuclear stockpile Annual Assessment, but one that exists 
        outside of NNSA/DOE as suggested during the 16 February 2012 
        House Armed Services Hearing.
          2. Provide some competition to the stagnant LLNS&LANS 
        monopoly during the next six long years until a fresh entity 
        takes over after rebidding, and meanwhile provide a desperately 
        needed and substantive independent analysis of the needs and 
        future course for the required annual certification of the 
        nuclear stockpile.
          3. Provide the beginnings of an alternative for employees of 
        LLNS&LANS. Until now, Lab employees have had only the choice to 
        quit LLNS&LANS, and in so doing their expertise is typically 
        lost to the nation. The Mini-Labs can provide a solution to 
        this staff retention problem that works ``The American Way''--
        providing some employees a choice to not just quit, but to quit 
        and join the competition.

    We are not the only ones to have drawn attention to the connection 
between the problems at the Labs and the for-profit management 
structure. Former LANL Director Sig Hecker told the NAS study committee 
in his presentation to them in July 2011 that the Labs are doing ``an 
inherently government mission'' and the transition to for-profit 
management was a mistake. The NAS Report, sadly, makes no mention of 
Hecker's views. Hecker was even more explicit in his written testimony 
submitted to the 16 February 2012 HASC hearing, in which he says the 
following: ``The deliberate change to for-profit contractors at LLNL 
and LANL have exacerbated the problems rather than fixed them''.
    In conclusion, now that the NAS has fulfilled its charge and 
documented the problems standing in the way of the Labs effectively 
carrying out their science and national security missions, it is time 
now for Congress to act.
                                 ______
                                 
                                                 Heartland,
                                       Madison, SD, March 21, 2013.
Hon. Ron Wyden,
Chair, Senate Energy and Natural Resources Committee, 304 Dirksen 
        Senate Office Building, Washington, DC.
    Dear Senator Wyden: This letter is to express our support for the 
nomination of Dr. Ernest Moniz to become Secretary of Energy. Dr. Moniz 
has a distinguished background in a variety of energy resources.
    We expect he will utilize his expertise and experience to build 
support for a national energy policy that embraces a goal of utilizing 
a variety of energy resources that are affordable and reliable for 
consumers. Heartland has embraced that approach to resource planning. 
Our resources portfolio includes Federal hydropower, base load nuclear 
and coal, utility scale wind generation, natural gas/diesel peaking 
units, and a roof top solar photo voltaic array that provides power to 
Heartland's LEED Platinum headquarters.
    We look forward to working with Dr. Moniz in strengthening the long 
standing role of the Federal Power Marketing Administrations in serving 
the needs of our rural communities, as well as collaborating on cost 
effective energy solutions that both protect the environment and 
provide affordable, reliable energy to consumers.
    Heartland is a political subdivision of the State of South Dakota 
created in 1969 based in Madison. Heartland provides affordable, 
reliable wholesale power to municipalities, state agencies and one 
electric cooperative in South Dakota, Minnesota and Iowa.
            Sincerely yours,
                                             Mike McDowell,
                                           General Manager and CEO.


</pre></body></html>
